<html>
<title> - SOCIAL SCIENTIFIC DATA ON THE IMPACT OF MARRIAGE AND DIVORCE ON CHILDREN</title>
<body><pre>[Senate Hearing 108-1022]
[From the U.S. Government Publishing Office]








                                                       S. Hrg. 108-1022

    SOCIAL SCIENTIFIC DATA ON THE IMPACT OF MARRIAGE AND DIVORCE ON 
                                CHILDREN

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, 
                               AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 13, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-482 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
            
            
            
            
            
            
                          




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK R. LAUTENBERG, New Jersey
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 13, 2004.....................................     1
Statement of Senator Brownback...................................     1

                               Witnesses

Berlin, Gordon, Executive Vice President, MDRC...................    16
    Prepared statement...........................................    17
Campbell, Gerald L., President, The Impact Group, Inc............    81
    Prepared statement...........................................    84
Fagan, Patrick F., The William H.G. FitzGerald Fellow in Family 
  and Culture Issues, The Heritage Foundation....................    39
    Prepared statement...........................................    41
Nock, Ph.D., Steven L., Professor of Sociology and Psychology, 
  University of Virginia.........................................     2
    Prepared statement...........................................     5
Waller, Margy, Visiting Fellow, Brookings Institute..............    32
    Prepared statement...........................................    34
Zill, Ph.D., Nicholas, Vice President and Director, Child and 
  Family Study Area, Westat, Inc.................................    10
    Prepared statement...........................................    12

                                Appendix

Casey, Timothy J., Senior Staff Attorney and Lisalyn Jacobs, Vice 
  President, Legal Momentum, prepared statement..................   121
Children's Defense Fund, prepared statement......................    97
Jacobs, Lisalyn, Vice President and Sherry Leiwant, Senior Staff 
  Attorney, Legal Momentum, prepared statement...................   113
Weiser, Irene, Executive Director, Stop Family Violence, prepared 
  statement......................................................   104
 
    SOCIAL SCIENTIFIC DATA ON THE IMPACT OF MARRIAGE AND DIVORCE ON 
                                CHILDREN

                              ----------                              


                         THURSDAY, MAY 13, 2004

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. We will call the hearing to order. Thank 
you all for joining me this afternoon.
    America's political system is framed around a particular 
understanding of human freedom: an understanding of freedom, 
not as mere license, but as something that must be guided and 
governed by a fundamental moral code, in keeping with human 
nature, that directs us toward both the individual good and the 
common good. Our great experiment with freedom as a nation has 
not been without its difficult moments of trial, when we have 
struggled with our very identity as a people as we attempt to 
resolve the tensions inherent in responsible exercises of 
freedom. The attempt at grappling the evil of slavery in the 
19th century, and the civil rights struggle of the 20th 
century, being primary examples.
    In the long view of history, it seems likely that we will 
look back at the social changes identified with the decline of 
marriage and the family, which began to make cultural inroads 
in the 1960s, and conclude that this vast cultural experiment 
has been a very harmful failure, particularly harmful for our 
children. That experiment, of course, continues apace today. 
But there are indications that America is beginning to 
reevaluate the experiment, to assess where it is headed and 
whether, as a people, we need to correct course on our view of 
marriage and the family. A vitally important part of this 
assessment is to study the social science data regarding what 
happens when sexuality and childbearing are taken outside of 
the context of marriage, and what happens when marriage 
declines as an institution as a result of a culture in which 
divorce, out-of-wedlock births, cohabitation, and single 
parenthood have become a social norm.
    The question before us today is whether this course is 
desirable, and, if not, what can be done to avert it. 
Particularly important is what the social science evidence has 
to tell us about how children have been affected by the 
weakening of the institution of marriage over the last 40 
years. It is incumbent on those of us who deal with public 
policy issues to investigate this trend and its consequences 
for society.
    We have here today two distinguished panels of social 
scientists and public policy experts to help us look into these 
questions regarding marriage and children. In the first panel, 
we will look at the trends with regard to marriage and divorce, 
and we will inquire as to the effects of those trends on the 
welfare of both adults and children. In the second panel, we 
will explore how the family and society at large have been 
affected by the weakening of marriage, with an eye toward 
whether public policy can play a role in addressing the crisis 
of marriage.
    We'd invite our first panelists to come forward, if you 
would, and I'll introduce you as you come forward and take your 
seats.
    Our first panelist is Dr. Steven Nock. Dr. Nock is 
Professor of Sociology and Psychology, and Director of the 
Marriage Matters Project, at the University of Virginia. He co-
founded the University of Virginia's Center for Children, 
Families, and the Law. His research concentrates on the causes 
and consequences of change in the American family. He has 
investigated issues of privacy, unmarried fatherhood, 
cohabitation, commitment, divorce, and marriage.
    Our next panelist is Dr. Nicholas Zill. Dr. Zill is a 
Psychologist and a Vice President and Study Area Director at 
Westat, a survey research firm in the Washington area. Before 
coming to Westat, Dr. Zill was the Founder and, for 13 years, 
Executive Director of Child Trends, a nonprofit research 
organization that is well known for its work on childhood 
social indicators and teen childbearing. Dr. Zill will address 
marriage and divorce trends as they relate to the health and 
welfare of children.
    And our final panelist on this first panel is Gordon 
Berlin. Mr. Berlin is currently Executive Vice President for 
the Work, Community, and Economic Security, WCES, organization, 
and the Education, Children, and Youth Departments at MDRC, a 
research and demonstration intermediary organization which 
tests new approaches to the Nation's social welfare problems. 
Mr. Berlin will discuss research findings from the Minnesota 
Family Investment Program.
    Gentlemen, thank you for joining me today on a most 
important issue for the overall culture and trends within the 
society. I look forward to your testimony.
    We will run the clock at about 7 minutes, so you'll have an 
idea of where you are. I would like to have time for questions 
afterwards. We will take your entire statement into the record. 
If you want to put that in and then summarize your points, that 
would be fine to do, and they will all be placed in the record 
at the outset.
    Dr. Nock, thank you for being with us today. The floor is 
yours.

STATEMENT OF STEVEN L. NOCK, Ph.D., PROFESSOR OF SOCIOLOGY AND 
               PSYCHOLOGY, UNIVERSITY OF VIRGINIA

    Dr. Nock. Thank you, Senator. I appreciate the opportunity 
to be invited to share my thoughts.
    I am currently Professor of Sociology and Psychology at the 
University of Virginia, where I've devoted a career to 
investigating the consequences of marriage, divorce, 
unmarried----
    Senator Brownback. Pull that microphone a little closer to 
you. Our technology is not the best.
    Dr. Nock. Fine.
    I'm going to begin my testimony by reviewing basic 
demographic trends in marriage and divorce. First, let me begin 
by saying that marriage is being delayed. I've provided some 
charts in the appendix to my testimony that will be submitted. 
First marriages now occur in the late--mid to late 20s. But 
Americans are not rejecting marriage; nine in ten young people 
will eventually marry. Delayed marriage means that fewer 
married people are in the population at any point in time. 
About six in ten men and about half of all adult women today 
are currently married.
    Postponing marriage does not mean that people are 
postponing intimate living arrangements. Unmarried cohabitation 
has increased dramatically. One in twenty households today is 
an unmarried couple. And cohabiting couple households are 
almost likely as married-couple households today to include 
children.
    Four in ten first marriages are predicted to end in 
marriage. We see how the divorce rate soared in the 1960s 
before peaking in 1982. Since then, the increase has stopped. 
In fact, there's some indication that it's slightly declined.
    Finally, these current trends result in fewer people in 
America living in families. One-third of households today are 
currently maintained by a single man or a single woman.
    I'll now turn to some of the evidence on the consequences 
of marriage.
    Social scientists agree that married people live longer, 
enjoy better physical and mental health. They have lower rates 
of suicide, fatal accidents, acute and chronic illnesses, 
alcoholism, and depression than unmarried people. They're more 
likely to save and invest money. They have better sex lives. 
They earn more, advance faster in occupations, are more 
generous, more involved in community organizations, and they're 
more religious. But the enduring question is whether these 
benefits are produced by marriage or whether happy and healthy 
people are the ones who are more likely to marry to begin with. 
I believe that the evidence suggests that both are true.
    So why does marriage have these effects? First, married 
people have someone to remind them about appointments with 
doctors, or to help them in times of illness or trouble, to 
carry some of the weight of daily obligations--what two 
researchers have called ``the nagging factor.'' Second, married 
people are better able to endure difficult times because they 
typically have higher commitment to one another. The here-and-
now problems are understood as something that will probably 
pass, or can justified by a shared past or an imagined future.
    But, most importantly, marriage is a social institution. 
There are widely understood standards for what married people 
should and should not do. This cannot be said about any other 
existing form of intimate relationship. The ``shoulds'' include 
waiting until one is mature before being married, having and 
caring for children, being economically independent of parents, 
providing for one's partner, being sexually and emotionally 
faithful, and caring for family members in times of trouble. 
The ``should nots'' include abuse, violence, abandonment, 
adultery, sharing intimate secrets with strangers. In short, 
the norms of marriage resemble the vows that are traditionally 
spoken in wedding ceremonies. But these vows are more than 
personal promises. Other people, including parents, friends, 
and relatives, share those beliefs, and will react when people 
violate them.
    Married people are treated differently than unmarried 
people are. Insurers and employers value the stability and 
maturity associated with this status. Married people are 
subject to different laws, they're held to different standards. 
It would be difficult to imagine that such expectations have no 
consequence. And, indeed, I think they do.
    Turning now to the implications of divorce, women's 
economic well-being declines by a third following divorce. 
After their divorce, a quarter of mothers experience a decline 
of more than 50 percent in their standard of living. Divorce 
also affects a woman's chance of becoming poor. One in five 
previously non-poor mothers become poor after a divorce. And 
unlike their ex-husbands, poor mothers are less likely to 
escape from poverty if their marriages are disrupted. Only 60 
percent of divorced mothers are awarded any child support, and 
only 44 percent receive anything.
    Divorce also disrupts ties across generations, especially 
among men. Men often lose touch with their children following 
divorce, and only half of older men report weekly contact with 
their children. But nine in ten never-divorced older fathers 
are in touch with their children weekly. Adult children whose 
parents divorced report very poor relations with their fathers.
    The disruption of intergenerational ties between men and 
their children has implications for public policy. 
Historically, children, and especially daughters, have provided 
most of the care needed by older parents in declining health. 
This informal system of kinship care is now being strained, and 
may break. Divorce disrupts kinship ties and leaves many older 
people, especially men, without relatives to care for them. How 
will we, as a society, provide care needed by the huge number 
of baby boomers who have divorced?
    To conclude, non-family living has important social 
consequences. Historically, very few people lived outside of 
families. Indeed, the practice was either prohibited by law or 
heavily taxed for most of our history, because non-family 
living has always been perceived as a threat to social order. 
When people are not members of a family, social control and the 
provision of care are more difficult. There is no public 
arrangement capable of monitoring and controlling behavior as 
effectively as other family members, nor is there any better 
method of providing for dependent adults and children.
    Marriage has always been the method that society has relied 
upon to allocate the responsibilities for children and for 
dependent elderly adults. It has also been the primary method 
of controlling behavior and limiting deviance. Accordingly, a 
compassionate government has a legitimate interest in 
encouraging healthy and stable marriages.
    Thank you.
    [The prepared statement of Dr. Nock follows:]

Prepared Statement of Steven L. Nock, Ph.D., Professor of Sociology and 
                   Psychology, University of Virginia

        Trends in Marriage and Divorce: Implications for Adults

    Senator Brownback, members of the Committee, ladies and gentlemen. 
Thank you for allowing me to share my thoughts on the implications of 
trends in marriage and divorce for adults in America.
    I am currently Professor of Sociology and Psychology at the 
University of Virginia where I have devoted a career to the study of 
these issues. For 28 years I have investigated the consequences of 
marriage, divorce, unmarried childbearing, and cohabitation for adults 
and for American society. My work has convinced me that marriage is the 
primary source of well being for adults. It is also of great importance 
for an orderly society.
    I begin my testimony by reviewing basic demographic trends in 
marriage, divorce, and cohabitation. I have prepared some graphs to 
help illustrate the magnitude of the changes in each of these matters. 
After I review these trends, I will summarize the research on their 
consequences for adults.
I. Trends in Marriage, Cohabitation, and Divorce
    1. Marriage is being delayed as seen in Figure 1. In 1950, half of 
men's first marriages had already occurred by the time they turned 23 
(22.8.) Half of women's marriages had occurred by the time they reached 
20 (20.3.) Today, the corresponding ages are 27 (26.9) for men and 25 
(25.3) for women.\1\ Though the 1950s family is now regarded as 
anomalous, current ages at first marriage are the highest in American 
history.
---------------------------------------------------------------------------
    \1\ U.S. Bureau of the Census. 2004. Estimated Median Age at First 
Marriage, by Sex: 1890 to the Present http://www.census.gov/population/
www/socdemo/hh-fam.html#history
---------------------------------------------------------------------------
    But while waiting longer to marry, Americans are not rejecting 
marriage. We estimate that nine in ten young people (87 percent of men, 
89 percent of women) will eventually marry. However, marriage rates are 
declining for blacks. While over 90 percent of young white women are 
projected to marry, only two-thirds of black women are.\2\ In sum, 
while the overwhelming majority of young Americans will eventually 
marry, they will wait many more years than their parents did before 
doing so.
---------------------------------------------------------------------------
    \2\ Raley, R. Kelly. 2000. ``Recent trends and differentials in 
marriage and cohabitation: The United States. Pp 19-39 in The Ties That 
Bind: Perspectives on Marriage and Cohabitation, edited by Linda J. 
Waite, Christine A. Bachrach, Michelle Hinden, Elizabeth Thomson, and 
Arland T. Thornton. New York: Aldine de Gruyter.
---------------------------------------------------------------------------
    2. Delayed marriage means there are fewer married people in the 
population at any point in time as seen in Figure 2. A smaller fraction 
of all adults in America is currently married than was true for most of 
the 20th century. About six in ten (57.3 percent) men, and about half 
of all adult women (54.2 percent) are currently married (note that 
Figure 2 begins at 50 percent)\3\
---------------------------------------------------------------------------
    \3\ Table: Marital Status of the Population 15 Years Old and Over, 
by Sex and Race: 1950 to Present. http://www.census.gov/population/www/
socdemo/hh-fam.html#history
---------------------------------------------------------------------------
    3. Postponing marriage does not mean that people are postponing 
intimate living arrangements. Figure 3 shows that unmarried 
cohabitation has increased dramatically. In 1960, there were fewer than 
half a million such couples (444,000). Today there are almost five 
million (4,899,000). An unmarried couple now maintains one in twenty 
households.\4\
---------------------------------------------------------------------------
    \4\ Table: Unmarried-Couple Households, by Presence of Children: 
1960 to Present. http://www.census.gov/population/www/socdemo/hh-
fam.html#history. See also, Casper, Lynne M., and Suzanne M. Bianchi. 
2002. Continuity and Change in the American Family. Thousand Oaks: Sage 
Publications.
---------------------------------------------------------------------------
    A growing fraction of unmarried couples have children. The Census 
Bureau estimates that 40.9 percent of cohabiting couples have a 
resident child under 18 who is related to one or both adults. The 
corresponding figure for married spouses is 45.6 percent. In short, 
cohabiting couple households are almost as likely as married couple 
households to include children. Cohabiting couples with children are 
5.7 percent of all partners with children.\5\
---------------------------------------------------------------------------
    \5\ Fields, Jason and Lynne M. Casper. 2000. ``America's Families 
and Living Arrangements.'' U.S. Bureau of the Census. Current 
Population Reports, P-20, No. 537 (Fields and Casper, 2000:13-15)
---------------------------------------------------------------------------
    Over half of all marriages are now preceded by cohabitation. 
Cohabitation is also becoming an alternative to marriage, or 
remarriage.\6\
---------------------------------------------------------------------------
    \6\ Bumpass, Larry L, and Hsien-Hen Lu. 2002. ``Trends in 
cohabitation and Implications for Children's Family Contexts in the 
United States.'' Population Studies 54: 29-41.
---------------------------------------------------------------------------
    4. Four in ten (42 percent) first marriages are predicted to end in 
divorce. Figure 4 shows how the divorce rate soared in the late 1960s 
before peaking in 1982. Since then, it has declined very modestly each 
year.\7\
---------------------------------------------------------------------------
    \7\ Casper and Bianchi, 2002. Bramlett, M. D., and W. D. Mosher. 
2002. ``Cohabitation, Marriage, Divorce, and Remarriage in the United 
States.'' National Center for Health Statistics. Vital Health 
Statistics 23 (22).
---------------------------------------------------------------------------
    5. Current trends result in fewer people living in families as seen 
in Figure 5. A growing fraction of Americans do not live in any family 
based on blood or marriage. One third (32 percent) of all households 
are currently maintained by a single man or woman.
    I will now review the evidence on the consequences of marriage.
II. Consequences of Trends in Marriage and Divorce
    1. Marriage contributes to health, happiness, and overall well-
being for men and women. Most social scientists agree that married 
people live longer, and enjoy better physical and mental health. They 
have lower rates of suicide, fatal accidents, acute and chronic 
illnesses, alcoholism and depression than unmarried people.\8\ They are 
more likely to save and invest money, and they have better sex 
lives.\9\ They earn more, advance faster in occupations, are more 
generous, more involved in community organizations, and are more 
religious.\10\
---------------------------------------------------------------------------
    \8\ Nock, Steven L. Marriage in Men's Lives. 1998. New York: Oxford 
University Press.
    \9\ Waite, Linda J. and Maggie Gallagher. 2000. The Case for 
Marriage: Why Married People are Happier, Healthier, and Better Off 
Financially. New York: Doubleday.
    \10\ Nock, 1998.
---------------------------------------------------------------------------
    The enduring question is whether these benefits are produced by 
marriage, or whether healthier and happier people are the ones most 
likely to marry anyway. In my opinion, both are true. There is now 
convincing evidence that getting married changes people. But there is 
also evidence that happier, healthier, and more productive individuals 
are more likely to marry, and stay married, in the first place.\11\
---------------------------------------------------------------------------
    \11\ Waite and Gallagher. 2000.
---------------------------------------------------------------------------
    2. Why does marriage have these effects? Let me mention just a few 
reasons. First, there are consequences of a shared life. Married people 
have someone to remind them about appointments with doctors, to help in 
times of illness and need, and to carry some of the weight of daily 
obligations of family life. Two researchers describe part of the 
benefits of marriage as a result of ``The nagging factor'' \12\
---------------------------------------------------------------------------
    \12\ Waite and Gallagher. 2000.
---------------------------------------------------------------------------
    Second, married people are better able to endure difficult times 
because they typically have a higher commitment to one another than is 
found in other relationships. This means that their here-and-now 
problems are understood as something that will probably pass, or can be 
justified by a shared past or imagined future.\13\
---------------------------------------------------------------------------
    \13\ Nock, Steven L. 1998. ''Turn-Taking as Rational Behavior.'' 
Social Science Research 27:235-244.
---------------------------------------------------------------------------
    But most importantly, marriage is a social institution. There are 
standards for what married people should and should not do. This cannot 
be said about any other form of intimate relationship. The ``shoulds'' 
include waiting until one is mature before marrying, having and caring 
for children, being economically independent of parents and others, 
providing for one's partner (economically, emotionally), being sexually 
and emotionally faithful, and caring for family members in times of 
trouble.
    The ``should nots'' include abuse and violence, abandonment, 
adultery, and sharing intimate `family secrets' with strangers. In 
short, the norms of marriage are like the vows traditionally spoken in 
wedding ceremonies (e.g., to have and to hold, from this day forward, 
for better for worse, for richer for poorer, in sickness and in health, 
to love and to cherish until we are parted by death.)
    But these vows are more than personal promises. Other people, 
including parents, friends, and relatives share these beliefs and will 
react when people violate them. Married people are treated differently 
than unmarried people. Insurers and employers value the stability and 
maturity associated with the status. Married people are subject to 
different laws. They are held to different standards. It would be 
difficult to imagine that such expectations have no consequence. And, 
in fact, they have enormous consequences.
    Turning now to the issue of divorce.
    3. Divorce harms women's economic circumstances. Women's economic 
well being (income-to-needs) declines by a third (36 percent) following 
divorce (but improves 28 percent for fathers. A quarter (25 percent) of 
mothers experience a decline of more than 50 percent in their income 
relative to needs (compared with only 5 percent of fathers).\14\
---------------------------------------------------------------------------
    \14\ Bianchi, Suzanne M., Lekha Subaiya, and Joan R. Kahn. 1999. 
``The Gender Gap in the Economic well-being of Nonresident Fathers and 
Custodial Mothers.'' Demography 36 (No 2) 195-203.
---------------------------------------------------------------------------
    Divorce affects a woman's chance of becoming poor. About one in 
five (19 percent) previously non-poor mothers falls into poverty 
following marital separation. And unlike their ex-husbands, poor 
mothers are less likely to escape from poverty if their marriages are 
disrupted.\15\ Women's economic problems after divorce are also related 
to the fact that only 60 percent of divorced mothers are awarded any 
child-support, and only 44 percent actually receive any support from 
their ex husband. \16\
---------------------------------------------------------------------------
    \15\ Bianchi, Subaiya, and Kahn 1999; Smock, Pamela J., Wendy D. 
Manning, and Sanjiv Gupta. 1999. ``The Effect of Divorce on Women's 
Economic Well-Being.'' American Sociological Review 64: 794-812
    \16\ U.S. Bureau of the Census. Child support for custodial mothers 
and fathers. Current population reports, Series P20-212. Washington, 
DC: U.S. Government Printing Office.
---------------------------------------------------------------------------
    4. Divorce disrupts ties across generations. Men often lose touch 
with their children following divorce. Only half of older divorced men 
report weekly contact with their children. But nine in ten (90 percent) 
never-divorced older fathers are in touch with their children weekly. 
Adult children whose parents divorced report very poor relationships 
with their fathers.\17\
---------------------------------------------------------------------------
    \17\ Cooney, Teresa M and Peter Uhlenberg. 1990. ``The role of 
divorce in men's relations with their adult children after mid-life. 
Journal of Marriage and the Family 52: 677-688; see also Aquilino, 
William S. 1994. Journal of Marriage and the Family, Vol. 56: 295-313.
---------------------------------------------------------------------------
    The disruption of intergenerational ties between men and their 
children has implications for public policy. Historically, children 
(especially daughters) have provided most of the care needed by older 
parents in declining health. This informal system of kinship care is 
now being strained and may break. Divorce disrupts kinship ties and 
leaves many older people, especially men, without relatives to care for 
them. How will we, as a society provide the care needed by the huge 
number of Baby Boomers who have divorced? How can we afford to provide 
the care that children and kin have traditionally given?
    To conclude, non-family living has important social consequences. 
Historically, very few people lived outside of families. Indeed, the 
practice was either prohibited by law, or heavily taxed for most of our 
history because non-family living has always been perceived as a threat 
to social order \18\. When people are not members of a family, social 
control and the provision of care are more difficult. There is no 
public arrangement capable of monitoring and controlling behavior as 
effectively as other family members. Nor is there any better method of 
providing for dependent adults and children.
---------------------------------------------------------------------------
    \18\ Nock, Steven L. The Costs of Privacy. 1993. New York: Aldine 
de Gruyter.
---------------------------------------------------------------------------
    Marriage has always been the method that societies relied on to 
allocate responsibilities for children and dependent elderly adults. It 
has also been the primary method of controlling behavior and limiting 
deviance. Accordingly, a compassionate government has a legitimate 
interest in encouraging healthy and stable marriages.
    Thank you.
                                Figures


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   
    Source: National Center for Health Statistics
    (Various years)
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    Source: U.S. Bureau of the Census

    Senator Brownback. Thank you, Dr. Nock.
    Dr. Zill?

STATEMENT OF NICHOLAS ZILL, Ph.D., VICE PRESIDENT AND DIRECTOR, 
           CHILD AND FAMILY STUDY AREA, WESTAT, INC.

    Dr. Zill. Thank you, Senator Brownback.
    I've been asked to summarize what recent research has 
revealed about the relationships between the family situations 
in which children are reared and indicators of young people's 
development and welfare.
    Since the 1960s, there have been a considerable number of 
social science studies of children's well-being based on large, 
representative samples of American children and youth. The 
results of these studies have all pointed to the conclusion 
that children do best when they grow up in a household that 
contains both their parents, their biological father as well as 
their biological mother, who are legally married to one 
another. All other family types--single-parent families, 
stepfamilies, foster families--show less good outcomes for 
children.
    Family situations in which children are reared have been 
found to be significantly related not only to young people's 
emotional well-being, but also to their physical health and 
safety, their academic achievement, and their moral and social 
development. And these relationships remain significant after 
controlling for related factors, like parent education level, 
family income, and family size.
    I've prepared a summary of representative research 
findings, and ask that it be entered into the record along with 
my testimony.
    Senator Brownback. Yes, without objection. Pull that 
microphone a little closer to you, too, if you would, Dr. Zill.
    Dr. Zill. The 2003 edition of the annual report published 
by the Federal Interagency Forum on Child and Family Statistics 
contains the following statement. ``On average, the presence of 
two married parents is associated with more favorable outcomes 
for children, both through and independent of added income. 
Children who live in a household with only one parent are 
substantially more likely to have family incomes below the 
poverty line and to have more difficulty in their lives than 
are children who live in a household with two married 
parents.''
    The Interagency report does not distinguish between two-
parent biological, step, or adoptive families, but, in fact, 
the research evidence clearly showed that indicators of 
children's achievement and social behavior are more favorable 
in two-parent biological families than in two-parent step, 
adoptive, or foster families.
    The continuing problem for our society is that many of 
today's children are not growing up in the ideal two-parent 
married-couple family situation. Survey data from the Census 
Bureau tells us that nearly a quarter of American children 
under the age of 18 are living only with their mothers, 
typically as a result of marital separation or divorce or birth 
outside of marriage. Five percent are living with their fathers 
only, and another 4 percent are living with neither parent--in 
foster families, for example. Somewhere between 10 and 15 
percent of children are living in a stepfamily situation with 
their mother and a stepfather, or their father and a 
stepmother. So although the Census Bureau reports that 69 
percent of U.S. children are living with two married parents, 
the proportion living with two married biological parents is 
more like 55 percent--a majority, but a slim majority.
    Furthermore, up until recently the Nation was experiencing 
a decades-long decline in the proportion of children living 
with two married parents. It has only been in the late 1990s 
and the early 2000s that the percentage of children living with 
both parents has stabilized, and even increased slightly. But 
it is still the case that a large minority of all U.S. children 
are living in single-parent or stepfamily situations. And for 
African-American children in the U.S., it is a majority that 
live with only one parent or neither parent.
    Even if one accepts the importance of the family situation 
for children's well-being, the question remains as to what 
government policy can do about it. Many Americans believe that 
decisions about marriage, childbearing, and family formation 
are inherently private matters, things that the government 
should intrude in only minimally, if at all.
    Recently, the Bush Administration and Congress have put in 
place a number of relatively modest initiatives to try to 
promote healthy marriage and marriage education in low-income 
communities where marriage, and childbearing within marriage, 
have become practically extinct. I believe that these 
initiatives should be welcomed as fresh approaches to the 
persistent problems of childhood poverty and a lack of social 
advancement of young people who must grow up in low-income 
urban and rural communities in the U.S. These initiatives seem 
quite appropriate as long as they are coupled with careful 
evaluation studies aimed at determining just how effective 
these programs turn out to be at achieving their stated goals. 
It is my understanding that such evaluation studies are being, 
and will be, conducted.
    I would argue, however, that existing marriage promotion 
programs need to be coupled with other government-sponsored 
efforts that would complement and perhaps be ultimately more 
significant than the current initiatives.
    Among the efforts I would recommend are the following:

    One, public education campaigns that make the research 
findings about the importance of marriage to children better 
known, especially to the Nation's adolescents and young adults.
    Two, more effective child-support enforcement among 
unmarried fathers to help ensure that the action of fathering a 
child has real consequences for the young men involved.
    Three, new school-based marriage education and 
extracurricular activity programs focused on young people who 
are not doing well in school and who are in greatest danger of 
dropping out and bearing or fathering children outside of 
marriage.
    Four, maintaining or strengthening tax-credit and childcare 
policies that make it easier for working poor married families 
to maintain a decent standard of living and find adequate care 
for their children while both parents are working.
    Five, not returning to the failed welfare policies of the 
past that encouraged unmarried childbearing and marital 
breakup.
    Six, sponsoring experimental and quasi-experimental 
research that investigates the efficacy of new approaches to 
promoting and preserving marriage.
    While there is still much to be learned about the 
determinants of children's healthy development, existing 
evidence about the importance of parental marriage for child 
well-being is extensive enough and compelling enough to justify 
acting on it now to benefit American children.
    Thank you.
    [The prepared statement of Dr. Zill follows:]

    Prepared Statement of Nicholas Zill, Ph.D., Vice President and 
          Director, Child and Family Study Area, Westat, Inc.
    Good afternoon. My name is Nicholas Zill. I am the Director of 
Child and Family Studies at Westat, a social science research firm in 
the Washington area. For the last 29 years, I have been conducting 
large-scale studies of the health, learning, and behavior of our 
Nation's children and working to develop better statistical indicators 
of child and family well-being. I have been asked to summarize what 
recent research has revealed about the relationships between the family 
situations in which children are reared and indicators of young 
people's development and welfare.
    Since the 1960s, there have been a considerable number of social 
science studies of children's well-being based on large, representative 
samples of American children and youth. Most of these studies were 
sponsored by U.S. Government agencies, such as the Department of Health 
and Human Services, the Department of Education, or the Department of 
Labor. Others were sponsored by private foundations, like the National 
Survey of American Families and the National Survey of Children, the 
latter of which I had the honor of directing. The studies have made use 
of various combinations of study methods, such as physical examination 
or achievement testing of children, interviews with parents, 
questionnaires filled out by teachers, and interviews or questionnaires 
completed by children and youth themselves. Several of the studies have 
had a longitudinal component, wherein the same children were followed 
and studied repeatedly over time as the children developed into 
adolescents and young adults.
    The results of these studies have all pointed to the conclusion 
that children do best when they grow up in a household that contains 
both their parents--their biological father as well as their biological 
mother--who are legally married to one another. All other family 
types--single-parent families, step families, foster families--show 
less good outcomes for children. The family situations in which 
children are reared have been found to be significantly related not 
only to young people's emotional well-being, but also to their physical 
health and safety, their academic achievement, and their moral and 
social development. And these relationships remain significant after 
controlling for related factors like parent education level, family 
income, and family size.
    The 2003 edition of the annual report published by the Federal 
Interagency Forum on Child and Family Statistics contains the following 
statement: ``On average, the presence of two married parents is 
associated with more favorable outcomes for children both through, and 
independent of, added income. Children who live in a household with 
only one parent are substantially more likely to have family incomes 
below the poverty line, and to have more difficulty in their lives than 
are children who live in a household with two married parents.'' The 
report also notes an association between the number of parents a child 
lives with and ``the economic, parental, and community resources 
available to children.'' Although the Interagency report does not 
distinguish between two-parent biological, step, or adoptive families, 
in fact, the research evidence clearly shows that indicators of 
children's achievement and social behavior are more favorable in two 
parent biological families than in two-parent step, adoptive, or foster 
families.
    Now all of this may strike the skeptical layman as another instance 
of social science elaborately and expensively demonstrating the 
obvious. But it was not so long ago that the late Senator Patrick 
Moynihan provoked a firestorm of criticism when he wrote a report 
noting that the explosive growth of single-parent families might be 
hindering the advancement of African-Americans. It was not so long ago 
that social scientists were publicly chastised for saying that some 
types of family environment were more favorable for children's 
development than others. Many respected scholars and policy analysts 
claimed that the fact that a child came from a single-parent family or 
stepfamily had no particular bearing on how well he or she did in 
school or in life. Single-parent families and stepfamilies were simply 
different from, not necessarily more stressful or less supportive than 
two-parent, married-couple families. Single-parent families were even 
seen as having ``hidden strengths,'' such as the presence of warm, 
nurturing grandmothers who taught children about their heritage and 
bolstered their self-esteem. It was only when a large body of 
consistent research evidence accumulated that it became broadly 
acceptable for social scientists and policy commentators to state what 
most members of the general public believed all along, that two-parent 
families are better for children.
    The continuing problem for our society is that many of today's 
children are not growing up in the ideal two-parent, married-couple 
family situation. Survey data from the U.S. Census Bureau tell us that 
nearly a quarter of American children under the age of 18 are living 
with only their mothers, typically as a result of marital separation or 
divorce or birth outside of marriage. Five percent are living with only 
their fathers and another four percent are living with neither parent. 
Somewhere between 10 and 15 percent of children are living in a 
stepfamily situation, with their mother and a stepfather or their 
father and a stepmother. So, although the Census Bureau reports that 69 
percent of U.S. children are living with two married parents, the 
proportion living with two married biological parents is more like 55 
percent: a majority, but a slim majority.
    Furthermore, up until recently the Nation was experiencing a 
decades-long decline in the proportion of children living with two 
married parents. The U.S. divorce rate doubled between the late 1960s 
and the late 1970s. It stabilized and even declined slightly after 
that, but remains at a high level. The proportion of children born 
outside of marriage grew exponentially between the 1960s and the mid-
1990s. It too finally leveled off, but remains very high by historical 
standards. About one child in three born in the United States today is 
born to unmarried parents, many of whom will never get married to one 
another. There was also a decline in the number of children born to 
married couples. As a result of these marital and childbearing trends, 
the proportion of children living with both parents declined from about 
two-thirds in the early 1980s to about 57 percent in the early 1990s. 
It has only been in the late 1990s and early 2000s that the percentage 
of children living with both parents has stabilized and even increased 
slightly. But it is still the case that a large minority of all U.S. 
children is living in single parent or stepfamily situations, as we 
have just observed. And for African-American children in the U.S., it 
is a majority that is living with only one parent or neither parent.
    Even if one accepts the importance of the family situation for 
children's well-being, a question remains as to what government policy 
can do about it. Many Americans believe that decisions about marriage, 
childbearing, and family formation are inherently private matters, 
things that the government should intrude in only minimally, if at all. 
Recently, the Bush Administration and Congress have put in place a 
number of relatively modest initiatives to try to promote healthy 
marriage and marriage education in low-income communities where 
marriage and childbearing within marriage have been practically 
extinct. I believe that these initiatives should be welcomed as fresh 
approaches to the persistent problems of childhood poverty and a lack 
of social advancement among young people who must grow up in low-income 
urban and rural communities in the U.S. These initiatives seem quite 
appropriate as long as they are coupled with careful evaluation studies 
aimed at determining just how effective these programs turn out to be 
at achieving their stated goals. It is my understanding that such 
evaluation studies are being and will be conducted.
    I would argue, however, that existing marriage promotion programs 
need to be coupled with other government-sponsored efforts that would 
complement and perhaps be ultimately more significant than the current 
initiatives. Among the efforts I would recommend are the following:

  <bullet> Public education campaigns that make the research findings 
        about the importance of marriage to children better known, 
        especially to the Nation's adolescents and young adults. Such 
        campaigns should communicate the implications of the research 
        findings outlined above in a clear and compelling manner.

  <bullet> More effective child support enforcement among unmarried 
        fathers, to help ensure that the action of fathering a child 
        has real consequences for the young men involved. By getting 
        more young men to live up to their financial responsibilities, 
        we will not only be improving the lot of their children. We 
        will be helping to reduce the frequency of unmarried conception 
        in the future.

  <bullet> New school-based marriage education and extracurricular 
        activity programs focused on young people who are not doing 
        well in school and who are in greatest danger of dropping out 
        and bearing or fathering children outside of marriage.

  <bullet> Maintaining or strengthening tax credit and child care 
        policies that make it easier for working poor married families 
        to maintain a decent standard of living and find adequate 
        substitute care for their children while both parents are 
        working.

  <bullet> NOT returning to the failed welfare policies of the past 
        that encouraged unmarried childbearing and marital breakup.

  <bullet> Sponsoring experimental and quasi-experimental research that 
        investigates the efficacy of new approaches to promoting and 
        preserving marriage among young people, especially those from 
        low education and low income family backgrounds.

    While there is still much to be learned about the determinants of 
children's healthy development, existing evidence about the importance 
of parental marriage for child well-being is extensive enough and 
compelling enough to justify acting on it now to benefit American 
children.
                                 ______
                                 

  Representative Research Findings Related to Impact of Marriage and 
                          Divorce on Children

                Compiled by Nicholas Zill, Ph.D., Westat

Marriage and divorce and the economic well-being of children
  <bullet> U.S. children under the age of 18 living with mothers who 
        have never married have a poverty rate (47 percent) that is 6 
        times higher than the poverty rate (7.8 percent) for children 
        living with married mothers and fathers. Children living with 
        divorced mothers have a poverty rate (27.4 percent) that is 3 
        and a half time higher than the poverty rate for children in 
        married-couple families.
                --Nicholas Zill, Westat, 2004. Analysis of data from 
                the 2002 Current Population Survey, U.S. Bureau of the 
                Census and Department of Labor

  <bullet> U.S. children under the age of 18 living with mothers who 
        have never married have a welfare dependency rate (18.1 
        percent) that is 11 times greater than the dependency rate (1.6 
        percent) for children living with married mothers and fathers. 
        Children living with divorced mothers have a dependency rate 
        (7.1 percent) that is 4 times higher than the welfare receipt 
        rate for children in married couple families.
                --Nicholas Zill, Westat, 2004. Analysis of data from 
                the 2002 Current Population Survey, U.S. Bureau of the 
                Census and Department of Labor

  <bullet> The presence or absence of three protective factors at a 
        child's birth are closely related to the child's chances of 
        living in poverty at the time he or she begins elementary 
        school. The three protective factors are: (1) whether the 
        child's mother is married; (2) whether she is 20 years of age 
        or older at the time of the child's birth; and (3) whether she 
        has completed high school. If all three of these protective 
        factors are present, the child's chances of growing up in 
        poverty are only 7 percent. If one protective factor is 
        missing, the risk of child poverty nearly quadruples, to 27 
        percent. If two protective factors are absent, the risk of 
        child poverty is six times greater, 42 percent. And if all 
        three protective factors are lacking--if the mother is an 
        unmarried teen high school dropout at the child's birth--the 
        risk of child poverty is nine times greater, 64 percent.
                --Kevin O'Donnell and Nicholas Zill, Westat, 2004. 
                Analysis of data from the Early Childhood Longitudinal 
                Study of the Kindergarten Cohort of 1998-99, NCES, U.S. 
                Department of Education.
Psychological and achievement correlates of parental divorce in young 
        adulthood
    Compared to young adults whose parents had not divorced, U.S. young 
adults of ages 18-22 whose parents had divorced showed the following 
elevated rates of emotional, behavioral, and achievement problems. They 
were:

  <bullet> Twice as likely to have poor relationships with their 
        fathers: 65 percent versus 29 percent;

  <bullet> Nearly twice as likely to have ever received psychological 
        help: 41 percent versus 22 percent;

  <bullet> Nearly twice as likely to have poor relationships with their 
        mothers: 30 percent versus 16 percent;

  <bullet> Twice as likely to have dropped out of high school: 27 
        percent versus 13 percent;

  <bullet> Twice as likely to show a high rate of current problem 
        behavior: 19 percent versus 8 percent.
                --Nicholas Zill, Donna Morrison, & Mary Jo Coiro, 
                Journal of Family Psychology, 1993. Findings from the 
                longitudinal National Survey of Children, 1976 to 1987.
Achievement and school adjustment problems of school-aged children from 
        different family situations
    Compared to children living with married mothers and fathers, 
children aged 7-17 living with never married mothers showed the 
following elevated rates of achievement and school adjustment problems. 
They were:

  <bullet> 1.6 times more likely to rank in the bottom of the class: 60 
        percent versus 38 percent:

  <bullet> 2.5 times more likely to have repeated a grade: 33 percent 
        versus 13 percent;

  <bullet> 3.4 times more likely to have been suspended from school: 17 
        percent versus 5 percent.

    Compared to children living with married mothers and fathers, 
children aged 7-17 living with separated or divorced mothers showed the 
following elevated rates of achievement and school adjustment problems. 
They were:

  <bullet> 1.3 times more likely to rank in the bottom of the class: 51 
        percent versus 38 percent;

  <bullet> 1.8 times more likely to have repeated a grade: 23 percent 
        versus 13 percent;

  <bullet> 2.4 times more likely to have been suspended from school: 12 
        percent versus 5 percent.

    Compared to children living with married mothers and fathers, 
children aged 7-17 living with remarried mothers and stepfathers showed 
the following elevated rates of school adjustment problems. They were:

  <bullet> 1.8 times more likely to have repeated a grade: 24 percent 
        versus 13 percent;

  <bullet> twice as likely to have been suspended from school: 10 
        percent versus 5 percent.
                --Nicholas Zill, Family Change and Student Achievement, 
                1996. Data from the 1988 National Health Interview 
                Survey, NCHS, U.S. Department of Health and Human 
                Services.

    Senator Brownback. Thank you. That's very clear testimony, 
very interesting, and informative.
    Mr. Berlin, thank you for joining us.

                  STATEMENT OF GORDON BERLIN, 
                 EXECUTIVE VICE PRESIDENT, MDRC

    Mr. Berlin. Thank you, Mr. Chairman. I'm honored to be 
invited to appear before you today to discuss what we do and 
don't know about the effects of marriage and divorce on 
families and children, and about what policies might work to 
promote and strengthen healthy marriages, especially among the 
poor.
    MDRC is a non-partisan research organization dedicated to 
learning what works to improve the well-being of disadvantaged 
families and children, and we try hard to emphasize the science 
in the social sciences, especially by trying to use the most 
rigorous methods possible, typically experimental designs 
similar to those required by the FDA, to determine whether the 
Nation's social policies and programs are effective.
    We used these methods in evaluating the Minnesota Family 
Investment Program, a program that supplemented the earnings of 
low-wage workers, and had surprisingly strong initial effects 
on the likelihood that two-parent families would stay together. 
And we hope to use these same methods, in partnership with the 
Nation's leading marital scholars and practitioners, and under 
the direction of staff at Department of Health and Human 
Services, to learn whether marital education, family 
counseling, and related services are effective in promoting and 
strengthening healthy marriages among low-income populations.
    My prepared remarks provide a historical summary on the 
research to date on this topic, beginning with Senator 
Moynihan's landmark, if controversial, 1960 study of trends in 
single parenthood and the black family; fast forwarding through 
more than three decades of research by psychologists, 
sociologists, and demographers on the effects of single 
parenthood on the life prospects of children; past 15 years of 
pioneering efforts by sociologists and psychologists to 
develop, test, and evaluate the effectiveness of various models 
of marital education; up to the present, where we see an 
historic coming together of longitudinal survey data telling us 
that the poor share the broader society's commitment to 
marriage with studies of the effectiveness of marital education 
programs, which suggest that it is possible to successfully 
intervene to promote healthy marriages.
    To summarize my conclusions:
    First, on average, children who grow up in an intact two-
parent family, with both biological parents present, do better 
on a wide range of outcomes than children who grow up in a 
single-parent household. Single-parenthood is not the only, nor 
the most important, cause of the higher rates of school dropout 
and youth unemployment and other negative outcomes we see among 
these children, but it is an important factor.
    Second, an emerging body of evidence demonstrates that 
marital education, family counseling, and related services can 
improve middle-class couples' communication and problem-solving 
skills, resulting initially in increased marital satisfaction 
and reduced divorce, although the effects on divorce seem to 
dissipate over time.
    Third, we do not yet have evidence to tell us whether 
marital-education services could be effective in reducing 
marital stress and eventual divorce among low-income 
populations or in promoting marriage among the unmarried. Not 
surprisingly, low-income couples face a wide range of stresses 
that middle-class families do not. They are more likely to 
experience job loss, have an unexpected health or family 
crisis, be the victim of a violent crime, and so forth; yet, by 
definition, they have fewer financial resources with which to 
respond to these chronic and acute stresses, and less time to 
dedicate to the relationship-building that can help a marriage 
survive such crises.
    While it seems likely that the skills marital-education 
programs teach could make an important difference--that is, 
reducing negative exchanges, like anger, criticism, and 
blaming--and strengthening positive behaviors--like expressions 
of support, humor, and affection--it is also possible that 
these skills could be overwhelmed by the added problems low-
income couples face.
    My fourth point--these concerns raise the question of 
whether strategies to combine marital education with strategies 
to more directly address the job and income and related needs 
of low-income couples are needed. We don't have good evidence 
on which to base policy in this area.
    The Minnesota Family Investment Program, which provided 
employment assistance with earnings support to welfare 
recipients who took low-wage jobs, had a large effect on the 
likelihood that two-parent families would stay together, 
primarily by reducing separations. But the program's long-term, 
six year afterward effects on divorce was uncertain and less 
convincing.
    In short, the problem and the goal are reasonably clear, 
and, importantly, we have promising evidence on what might work 
to encourage and strengthen healthy marriages. But there are 
also a number of open questions about the effectiveness of 
government policies to encourage and strengthen marriage among 
the poor.
    Recognizing the importance of obtaining reliable answers to 
these questions, the Administration for Children and Families 
and the U.S. Department of Health and Human Services has 
launched two large-scale social experiments to learn whether 
and what types of policies and programs might successfully 
strengthen marriage as an institution among low-income 
populations. Evidence matters in our national quest to improve 
the well-being of families and children. Done well, we think 
these studies should provide that evidence in the marital-
education field.
    Thank you.
    [The prepared statement of Mr. Berlin follows:]

  Prepared Statement of Gordon Berlin, Executive Vice President, MDRC
    Chairman Brownback, Senator Lautenberg, and Members of the 
Subcommittee:

    My name is Gordon Berlin. I am the Executive Vice President of 
MDRC, a unique nonpartisan social policy research and demonstration 
organization dedicated to learning what works to improve the well-being 
of disadvantaged families. We strive to achieve this mission by 
conducting real world field tests of new policy and program ideas using 
the most rigorous methods possible to assess their effectiveness.
    I am honored to be invited to address your committee about what we 
know and do not know about the effects of marriage and divorce on 
families and children and about what policies and programs might work 
to promote and strengthen healthy marriages, especially among the poor. 
My goal is to briefly summarize the evidence in three areas: (1) what 
we know about the effects of marriage, divorce, and single parenthood 
on children; (2) what we know about the effectiveness of policies and 
programs that seek to stem persistently high rates of divorce and out-
of-wedlock childbearing; and (3) what we know about the likely effects 
of these policies on low-income families and children. The central 
focus of my remarks will be to explicate the role that marital 
education, family counseling, and related services might play in 
promoting and strengthening healthy marriages and to discuss what we 
know about the potential of strategies that seek to ameliorate the key 
stressors (for example, job loss, lack of income, domestic violence, 
and childbearing) that make it difficult to form marriages in the first 
place or act as a catalyst that eventually breaks up existing 
marriages.
    To summarize my conclusions:

  <bullet> First, children who grow up in an intact, two-parent family 
        with both biological parents present do better on a wide range 
        of outcomes than children who grow up in a single-parent 
        family. Single parenthood is not the only, nor even the most 
        important, cause of the higher rates of school dropout, teenage 
        pregnancy, juvenile delinquency, or other negative outcomes we 
        see; but it does contribute independently to these problems. 
        Neither does single parenthood guarantee that children will not 
        succeed; many, if not most, children who grow up in a single-
        parent household do succeed.

  <bullet> Second, an emerging body of evidence suggests that marital 
        education, family counseling, and related services can improve 
        middle-class couples' communication and problem-solving skills, 
        resulting initially in greater marital satisfaction and, in 
        some cases, reduced divorce, although these effects appear to 
        fade over time.

  <bullet> Third, we do not know whether these same marital education 
        services would be effective in reducing marital stress and 
        eventual divorce among low-income populations or in promoting 
        marriage among the unmarried. Low-income populations confront a 
        wide range of stressors that middle-class families do not. The 
        evidence is limited, and mixed, on whether strategies designed 
        to overcome these stressors, for example, by providing job 
        search assistance or by supplementing low earnings, rather than 
        relying solely on teaching marital communication and problem-
        solving skills would also increase the likelihood that low-
        income couples would marry or that married couples would stay 
        together.

  <bullet> Fourth, to find out whether and what types of policies and 
        programs might successfully strengthen marriage as an 
        institution among low-income populations as well as among a 
        wide variety of ethnically and culturally diverse populations, 
        our national focus should be on the design, implementation, and 
        rigorous evaluation of these initiatives.
Marriage, Divorce, and Single Parenthood
    Encouraging and supporting healthy marriages is a cornerstone of 
the Bush Administration's proposed policies for addressing the poverty-
related woes of single-parent households and, importantly, for 
improving the well-being of low-income children. The rationale is 
reasonably straightforward: About a third of all children born in the 
United States each year are born out of wedlock. Similarly, about half 
of all first marriages end in divorce, and when children are involved, 
many of the resulting single-parent households are poor. For example, 
less than 10 percent of married couples with children are poor as 
compared with about 35 to 40 percent of single-mother families. The 
combination of an alarmingly high proportion of all new births 
occurring out of wedlock and discouragingly high divorce rates among 
families with children ensures that the majority of America's children 
will spend a significant amount of their childhood in single-parent 
households. Moreover, research shows that even after one controls for a 
range of family background differences, children who grow up living in 
an intact household with both biological parents present seem to do 
better, on average, on a wide range of social indicators than do 
children who grow up in a single-parent household (McLanahan and 
Sandefur, 1994). For example, they are less likely to drop out of 
school, become a teen parent, be arrested, and be unemployed. While 
single parenthood is not the main nor the sole cause of children's 
increased likelihood of engaging in one of these detrimental behaviors, 
it is one contributing factor. Put another way, equalizing income and 
opportunity do improve the life outcomes of children growing up in 
single-parent households, but children raised in two-parent families 
still have an advantage.
    If the failure of parents to marry and persistently high rates of 
divorce are behind the high percentage of children who grow up in a 
single-parent family, can and should policy attempt to reverse these 
trends? Since Daniel Patrick Moynihan first lamented what he identified 
as the decline of the black family in his 1965 report, The Negro 
Family: The Case for National Action, marriage has been a controversial 
subject for social policy and scholarship. The initial reaction to 
Moynihan was harsh; scholars argued vehemently that family structure 
and, thus, father absence was not a determinant of child well-being. 
But then in the 1980s, psychologists (Wallerstein and Kelly, 1980; 
Hetherington, 1982) began producing evidence that divorce among middle-
class families was harmful to children. Renewed interest among 
sociologists and demographers (Furstenberg and Cherlin, 1994) in the 
link between poverty and single parenthood soon emerged, and as noted 
above, that work increasingly began building toward the conclusion that 
family structure did matter (McLanahan and Sandefur, 1994). Of course, 
the debate was not just about family structure and income differences; 
it was also about race and gender. When Moynihan wrote in 1965, 24 
percent of all births among African-Americans occurred outside of 
marriage. Today, the black out-of-wedlock birthrate is almost 70 
percent, and the white rate has reached nearly 24 percent. If single 
parenthood is a problem, that problem cuts across race and ethnicity.
    But the story has nuance. Yes, growing up with two parents is 
better for children, but only when both mother and father are the 
biological or ``intact'' (as opposed to remarried) parents. In fact, 
there is some evidence that second marriages can actually be harmful to 
adolescents. Moreover, marriage can help children only if the marriage 
is a healthy one. While the definition of a ``healthy marriage'' is 
itself subject to debate, it is typically characterized as high in 
positive interaction, satisfaction, and stability and low in conflict. 
Unhealthy marriages characterized by substantial parental conflict pose 
a clear risk for child well-being, both because of the direct negative 
effects that result when children witness conflict between parents, and 
because of conflict's indirect effects on parenting skills. Marital 
hostility is associated with increased aggression and disruptive 
behaviors on the part of children which, in turn, seem to lead to peer 
rejection, academic failure, and other antisocial behaviors (Cummings 
and Davies, 1994; Webster-Stratton, 2003).
    While our collective hand-wringing about the number of American 
births that occur out-of-wedlock is justified, what is often missed is 
that the birthrate among unmarried women accounts for only part of the 
story. In fact, birthrates among unmarried teens and African-Americans 
have been falling--by a fourth among unmarried African-American women 
since 1960, for example (Offner, 2001).
    How, then, does one explain the fact that more and more of the 
Nation's children are being born out of wedlock? Because the nonmarital 
birth ratio is a function of (1) the out-of-wedlock birthrate (births 
per 1,000 unmarried women), (2) the marriage rate, and (3) the 
birthrate among married women (births per 1,000 married women)--the 
share of all children born out of wedlock has risen over the last 
thirty years, in large measure, because women were increasingly 
delaying marriage, creating an ever larger pool of unmarried women of 
childbearing age, and because married women were having fewer children. 
Indeed, families acted to maintain their standard of living in the face 
of stagnant and falling wages, earnings, and incomes during the 1970s 
and 1980s by having fewer children and sending both parents into the 
workforce, a strategy that undoubtedly has increased the stress on low-
income two-parent families (Levy, 1988), and that contributed to the 
rise in out-of-wedlock births as a proportion of all births.
    Concern about these trends in out-of-wedlock births and divorce, 
coupled with the gnawing reality that child poverty is inextricably 
bound up with family structure, has encouraged conservatives and some 
liberals to focus on marriage as a solution. Proponents of this 
approach argued that many social policies--welfare and tax policy, for 
example--were actually anti-marriage, even if research only weakly 
demonstrated that the disincentives to marry embedded in these policies 
actually affected behavior. Moreover, they maintained that social 
policy should not be neutral--it should encourage and support healthy 
marriages--and they stressed the link between child poverty and single 
parenthood and the positive child effects associated with two-parent 
families.
    The focus on marriage was met with skepticism by others. Critics 
argued that marriage was not an appropriate province for government 
intervention and that income and opportunity structures were much more 
important factors than family structure. They questioned why the focus 
was on low-income families when the normative changes underlying the 
growth in single-parent households permeated throughout society, as 
witnessed by the prevalence of divorce across all economic classes.
``Fragile Families'' Are Pro-Marriage
    More recent evidence from the Fragile Families and Child Well-Being 
Study tipped the balance for many in favor of the pro-marriage 
arguments. Designed by two prominent academics, Sara McLanahan and Irv 
Garfinkel, the study is a longitudinal survey of 5,000 low-income 
married and nonmarried parents conducted in 75 hospitals in twenty 
cities at the time of their child's birth. Among mothers who were not 
married when their child was born, 83 percent reported that they were 
romantically involved with the father, and half of the parents were 
living together. Nearly all of the romantically involved couples 
expressed interest in developing long-term stable relationships, and 
there was universal interest in marriage, with most indicating that 
there was at least a fifty-fifty chance that they would marry in the 
future. Looking at employment history and other factors, researchers 
estimated that about a third of the couples had high potential to 
marry; another third had some problems, like lack of a job, that could 
be remedied; while the final third were not good candidates due to a 
history of violence, incarceration, and the like (McLanahan, Garfinkel, 
and Mincy, 2001).
    There was certainly reason to be cautious about presuming a link 
between what people said and what they might actually do, and longer 
follow-up data did indeed throw some cold water on initial optimism. 
However, when the Fragile Families data were thrown into the mix with 
the trend data and with the data that suggested that family structure 
was a determinant of poverty, the reaction was catalytic. The notion 
was reinforced that more marriage and less child poverty would result 
if public policies could just be brought in line with the expressed 
interests of low-income couples.
Marital Education Can Work
    But what, if anything, could government actually do to promote 
marriage among low-income families? For some policy analysts, the 
discovery of marriage education programs seemed to provide the missing 
link. To the surprise of many, not only did these programs exist, but 
there was a body of evidence, including more than a dozen randomized 
trials, indicating that marriage education programs could be effective. 
Marriage education refers to services that help couples who are married 
or planning to marry to strengthen their communication and problem-
solving skills and thus their relationships. Models range from those 
that adopt a skills-based instructional approach to those that use a 
therapeutic ``hands on'' approach that addresses the specific marital 
problems facing individual couples.
    Some of the cutting-edge work now underway provides a flavor of the 
approaches being developed. Dr. Phil Cowan and Dr. Carolyn Cowan, both 
professors of psychology at the University of California, Berkeley, 
have been involved in the development and rigorous testing of family 
instruction models for more than twenty years. Dr. Benjamin Karney, a 
psychologist at the University of Florida, has been conducting a 
longitudinal study of newly married couples. Dr. Richard Heyman, a 
psychologist at the State University of New York at Stony Brook, has 15 
years' experience conducting prevention and treatment research on 
couple and family interaction. Dr. John Gottman, who leads the 
Relationship Research Institute where he focuses on marriage, family, 
and child development, has developed and carefully evaluated some of 
the most innovative new approaches to marital education and group 
instruction. Dr. Pamela Jordan developed the Becoming Parents Program, 
a couple-focused educational research program being tested in a large 
randomized trial. Dr. Howard J. Markman and Dr. Scott Stanley, both of 
the University of Denver, developed and refined the Preparation and 
Relationship Enhancement Program (PREP).
    Among the skills-training programs, PREP is the most widely used 
with couples who are about to marry. It teaches skills such as active 
listening and self-regulation of emotions for conflict management and 
positive communication. PREP also includes substantial content on 
topics such as commitment, forgiveness, and expectations clarification. 
PREP appears to have a significant effect on marital satisfaction 
initially, but the effect appears to fade over time (Gottman, 1979), 
and there is some indication that it improves communication among high-
risk couples but not low-risk couples (Halford, Sanders, and Behrens, 
2001). Therapeutic interventions are more open-ended and involve group 
discussions, usually guided by trained professionals to help partners 
identify and work through the marriage problems they are facing. The 
most carefully evaluated of the structured group discussion models 
targeted couples around the time of their child's birth, an event that 
triggers substantial and sustained decline in marital satisfaction. 
Couples meet in a group with a trained therapist over a six-month 
period that begins before the child is born and continues for another 
three months after the birth. Initially, marital satisfaction soared 
and divorce rates plummeted relative to a similar group of families 
that did not participate in the program. But the divorce effects waned 
by the five-year follow-up point, even while marital satisfaction 
remained high for those couples who stayed together (Schultz and Cowan, 
2001). More recent work by Cowan and Cowan and by John Gottman appears 
to produce more promising results.
    Both the Cowans' model of education via structured group 
discussions and a marital-education and skills-development model 
pioneered by John Gottman led to positive effects on children. The 
Cowans found positive effects in the school performance of children 
whose parents participated in their couples instruction and group 
discussion program. Gottman describes improved cooperative interaction 
between the parents and their infant child and sustained increased 
involvement by fathers.
    While the results from the marriage education programs are 
encouraging, they are not definitive. Most of the studies are small, 
several have serious flaws, and only a few have long-term follow-up 
data (and those that do seem to show decay in effectiveness over time). 
Moreover, only a handful of the studies collected information on child 
well-being. Most importantly, all of the programs studied served mostly 
white, middle-class families, not the low-income and diverse 
populations that would be included in a wider government initiative.
Context and Low-income Families
    Not surprisingly, low-income couples have fewer resources to cope 
with life's vagaries. They are more likely to experience job loss, have 
an unexpected health or family crisis, be evicted from or burned out of 
their home, be the victim of a violent crime, and so forth. As a 
result, they face greater difficulty than middle-class individuals in 
forming and sustaining marriages. With the exception of African-
Americans, low-income couples are not less likely to marry; but they 
are more likely to divorce when they do marry. Yet evidence from the 
Fragile Families survey of 5,000 low-income couples who have just given 
birth to a child and ethnographic interviews conducted with low-income 
women in Philadelphia by Kathy Edin of Northwestern University provide 
convincing evidence that low-income people share the same normative 
commitment to marriage that middle-class families demonstrate. As Kathy 
Edin told the Senate Finance Committee last week, ``[T]he poor already 
believe in marriage, profoundly so. The poor want to marry, but they 
insist on marrying well. This . . . is the only way to avoid an almost 
certain divorce.''
    If poor families share the same commitment to marriage as better-
off couples, what is it about their low-income status that inhibits the 
formation of stable marriages? One possible explanation is the mismatch 
between a large number of stressful events they face and few resources 
with which to respond to those stressors. The imbalance places greater 
demands on the individuals in a dyad, leaving less time together and 
less time to dedicate to relationship building than might be the case 
for a middle-class couple. In addition, the problems low-income couples 
have to manage--problems such as substance abuse, job loss, eviction, 
chronic infidelity, a child with a chronic condition like asthma or 
developmental delays, and criminal activities--may be more severe than 
those confronted by better-off couples. (Edin, 2004; Karney, Story, and 
Bradbury, 2003; Heymann, 2000).
    Because the problems low-income couples confront are likely to be 
more acute and chronic than those faced by middle-class couples, it is 
an open question whether the problem-solving and communication skills 
taught by marital education programs will be as effective among low-
income couples as they appear to have been for middle-class couples 
(where the evidence base is still evolving). Clearly, the skill sets 
taught in those programs and the strategies applied by therapists and 
counselors to solve the problems couples present will need to be 
adapted. Moreover, it is possible that these kinds of stressors 
overwhelm the abilities of individuals to use the skills they are 
taught. It is difficult to be understanding of a partner's failings 
when the rent is due and there is not enough money to pay it.
    Such concerns have elicited two kinds of responses: first, efforts 
to adapt marital education programs to better meet the needs of low-
income families; and second, proposals to combine marital education 
with strategies that would directly tackle the poverty-related 
stressors on family life--for example, with help in finding a job, 
income supplements to make up for low wages, child care assistance, and 
medical coverage.
Adapting Marital Education to the Needs of Low-Income Families
    Underpinning the interest in public support for marital education 
programs is a conviction that low-income individuals do not have good 
information about the benefits of marriage. In part, this dearth 
results from their experience of having grown up in single-parent 
households where they were simply not exposed to role models that might 
inform their own relationships. In part, it is a consequence of their 
lack of access to the same kinds of supports and information, 
counseling, and therapy that are often available to middle-class 
couples contemplating marriage or divorce. Buoyed by the success of the 
model marriage education programs with middle-class families, and 
following the lead of former Oklahoma Governor Frank Keating, who was 
determined to end his state's embarrassing status as the Nation's 
divorce capital, practitioners of marital education programs have begun 
applying and adapting these models to the needs of low-income couples. 
The objective is to equip low-income couples with relationship skills 
to improve couple interaction by reducing negative exchanges (anger, 
criticism, contempt, and blaming) and strengthening positive behaviors 
(expressions of support, humor, empathy, and affection). The logic is 
obvious: When couples enjoy positive interaction and are successful in 
handling conflict, their confidence and commitment would be reinforced, 
thereby fostering satisfaction and stability. But the designers of 
these programs recognize that they must adapt marital education as 
middle-class families know it to better meet the different needs of 
low-income households. This might involve changes in the types of 
agencies that deliver services, the training leaders would get, the 
content and examples used in the training, the duration and intensity 
of services, and the balance between strengthening internal 
communication and the forging of links to community programs that can 
provide support related to the contexts in which poor families live.
Does Reducing Financial Stress Promote Marital Stability?
    While there is a strong relationship between poverty and marital 
breakup, would programs that ameliorate poverty by providing supports 
to the working poor actually improve marital relationships? There have 
been few tests of this question; the most relevant recent reform that 
has been carefully evaluated for two-parent families is the Minnesota 
Family Investment Program (MFIP). Implemented in 1994, MFIP used the 
welfare system to make work pay by supplementing the earnings of 
recipients who took jobs until their income reached 140 percent of the 
poverty line, and it required nonworkers to participate in a range of 
employment, training, and support services. For two-parent families, 
MFIP also eliminated the arcane work-history requirements and the 
``100-hour rule,'' a policy that limited the number of hours a primary 
earner could work and still receive welfare but which had the perverse, 
unintended effect of encouraging couples to divorce so they could 
remain eligible for welfare.
    MDRC's evaluation of MFIP examined program effects on employment, 
income, marriage, and other family outcomes up to three years after 
entry. Because MFIP treated two-parent family recipients (who were 
receiving welfare at the onset of the study) and new applicants 
differently, outcomes for these groups were examined separately. We 
found that two-parent recipient families in MFIP were as likely as 
those in a comparable group of welfare recipients who were not eligible 
for MFIP to have at least one parent work; but the MFIP sample was less 
likely to have both parents work, leading to an overall reduction in 
their combined earnings of approximately $500 per quarter. Yet because 
the program supplemented the earnings of participating families, the 
two-parent recipient families who participated in MFIP still had 
slightly higher family incomes (up $190 per quarter more, on average, 
when taking into account their decreased likelihood of separating or 
divorcing--and, thus, retaining access to both partners' earnings). In 
contrast, MFIP had fewer effects on parental employment, earnings, and 
income for welfare applicants, a finding that is not entirely 
surprising given their short welfare spells.
    One of the striking findings of the three-year evaluation was that, 
among the 290 two-parent recipient families who were part of a follow-
up survey sample, families in the MFIP group were 19.1 percentage 
points more likely than families in the group who received traditional 
welfare payments under the Aid for Families with Dependent Children 
(AFDC) program to report being married and living with their spouse. 
Most of this increase in marital stability was a result of fewer 
reported separations in MFIP families as compared to AFDC families, 
although some of it was a result of small reductions in divorce. 
Because there is some question about how families on welfare might 
report their marital status, MDRC also obtained and analyzed data from 
publicly available divorce records. We did this for some 188 two-parent 
recipient families who were married at study entry. (The other 100 or 
so families in the original survey sample were cohabiting, and we did 
not look for marriage records for them). The data confirmed that these 
couples were 7 percentage points less likely than their AFDC 
counterparts to divorce. This gave us confidence that MFIP did indeed 
reduce marital instability. (Again, divorce records would not tell us 
about the separations we found in the survey, so the effect should be 
smaller than the 19 percentage point effect we found there).
    These findings have two important implications. First, make-work-
pay strategies might reduce financial stress and increase the 
likelihood that two-parent families stay together. Second, given the 
small number of people followed in the MFIP survey sample, MFIP's 
marriage effects on all two-parent families should be investigated and 
the results should be replicated in other locations before the findings 
are used to make policy.
    As a first step in that process, MDRC went back to the state of 
Minnesota to obtain divorce and marriage records for the full sample of 
2,200 two-parent MFIP families (including both recipients and 
applicants) for a follow-up period of more than six years. This fuller 
record would give us the opportunity to understand whether the positive 
effects on divorce (but not the much larger effects on separation) we 
found for the 290 two-parent families in the survey sample applied to 
the larger group of two-parent MFIP families. In addition, we wanted to 
learn about MFIP's possible effect on subgroups of two-parent families 
that we could not previously examine.
    Six years later, the full-sample story on divorce is decidedly 
mixed. Overall, for the full sample of two-parent families, there is no 
discernable pattern of effects on divorce over time. When we look at 
the two-parent recipient families only, those eligible for the MFIP 
program appear to be less likely to get divorced, but the finding is 
not statistically significant until the last year of follow-up, leaving 
open the possibility that the pattern we see could still be due to 
chance. Moreover, the pattern among applicants is also uncertain--
barely statistically significant in one year, but favoring more rather 
than less divorce. The different direction in the findings for the 
recipient and applicant groups explains the absence of an overall 
effect on divorce. And in both cases, the effects we did see were 
small--about a 3 to 4 percentage point difference in divorce between 
the MFIP group and the AFDC group. Finally, recall that public marriage 
and divorce records can capture only a family's legally documented 
marital status. They cannot distinguish informal statuses like 
separations, the form of marital dissolution that drove the dramatic 
36-month recipient findings mentioned above. We are currently planning 
further analyses to better understand MFIP's effects on divorce for 
these and other subgroups. We have no reliable way of exploring the 
separation findings.
    MFIP's initial results were tantalizing in large part because MFIP 
was not specifically targeted to affect marriage, divorce, or 
separations, and yet it appeared to produce large effects on the 
likelihood that some two-parent families would stay together, 
suggesting that strategies that tackle the vagaries of poverty could 
promote marital stability by reducing some of the economic stress on 
poor families. But the full-sample findings cast some doubt on that 
promise (with regard to divorce but not separations), reinforcing the 
need to replicate programs like MFIP for two-parent families in 
different settings before reaching conclusions about the contribution 
such strategies might make toward strengthening marriage. The findings 
particularly leave open the question of the possible range of effects 
that programs could achieve if policies providing marital education 
were combined with policies designed to affect employment and income.
What We Don't Know
    While the evidence base on marital education is extensive, there is 
much left to learn. For example:

  <bullet> Will participation in marital education programs by low-
        income couples lead to an increase in marriage and in marital 
        harmony and, in turn, have lasting effects on couples' 
        satisfaction, on parenting skills and practices, and on 
        children?

  <bullet> Will the skills taught in marital education programs be a 
        match for the poverty-related stresses experienced by low-
        income families, or are additional supports such as employment 
        and income also needed to reduce divorce and increase the 
        number of healthy marriages?

  <bullet> Will marriage education programs be effective regardless of 
        race, ethnic identity, and cultural norms, and how should these 
        programs be adapted to better meet different groups' divergent 
        needs?

  <bullet> Who will participate in marital education programs? Will 
        they attract predominantly couples who already have a deep 
        commitment to each other or couples whose problems are acute? 
        Will a broad cross-section of low-income couples participate or 
        only a narrow slice of the population?

  <bullet> Will these programs facilitate the dissolution of unhealthy 
        marriages as proponents contend, or will they prolong marriages 
        that might be better off dissolving or not forming in the first 
        place?

  <bullet> Can a relatively short education course--say, 10 to 20 hours 
        spread over a few months--have a long-lasting effect on marital 
        and couple discord, or are more long-term strategies and even 
        one-on-one back-up couple-counseling services necessary? What 
        is the right duration and intensity of an initiative? Can 
        courses be short term and intense, or must they be longer and 
        more sustained to yield longer-lasting effects? What is the 
        right content? What are the implications for affordability and 
        scale?
An Opportunity to Learn
    On substantive, policy, and financial grounds, there are good 
arguments to be made for public involvement in the marriage field. If 
marital education programs could be mounted at scale, if participation 
rates among those eligible were high, and if the programs were 
effective in encouraging and sustaining healthy two-parent families, 
the effects on children could be important. The key word is if!
    The strong correlation between growing up in a two-parent family 
and improved child outcomes does not ensure that intervening to 
encourage more marriage and less divorce will have the intended 
results. Indeed, social policymaking based on correlation has an 
uncanny way of ending with unintended consequences. The only reliable 
way to understand whether marital education and other supports designed 
to strengthen marriage produces such results is to conduct a social 
experiment with the right mix of quantitative and qualitative methods 
to answer the ``what difference,'' ``how,'' and ``why'' questions.
    The Administration of Children and Families within the U.S. 
Department of Health and Human Services has launched two new projects 
to do just that. Managed by Mathematica Policy Research, the Building 
Strong Families evaluation is targeted to low-income unwed couples 
beginning around the time of their child's birth. The Supporting 
Healthy Marriage initiative, which is being overseen by MDRC, is aimed 
at low-income married couples. Both projects will involve large-scale, 
multisite, rigorous random assignment tests of marriage-skills programs 
for low-income couples. The goal is to measure the effectiveness of 
programs that provide instruction and support to improve relationship 
skills. Some programs might also include services to help low-income 
couples address barriers to healthy marriages, such as poor parenting 
skills or problems with employment, health, or substance abuse. 
Programs operated under these demonstration umbrellas will screen for 
domestic violence and help participants gain access to appropriate 
services. Done well, the results from these path-breaking projects 
should inform the marriage field, and they should add value to our 
existing understanding of the potential and the pitfalls of government 
intervention in this critically important arena.
References
    Cummings, E. M., and P. Davies. 1994. Children and Marital 
Conflict. New York: Guilford.
    Edin, K. 2004. Testimony Before the United States Senate Committee 
on Finance Subcommittee on Social Security and Family Policy. The 
Benefits of Healthy Marriage Hearing, May 5.
    Edin, K., and M. Kefalas. 2004. Promises I Can Keep: Why Poor Women 
Put Motherhood Before Marriage. Berkeley: University of California 
Press.
    Gennetian, L. and V. Knox. 2004. Getting and Staying Married: The 
Effects of a Minnesota Welfare Reform Program on Marital Stability. New 
York: MDRC.
    Gottman, J. M. 1979. Marital Interaction: Experimental 
Investigations. Oxford, England: Elsevier.
    Furstenberg, F. and A Cherlin. 1994. Divided Families: What Happens 
to Children when Parents Part. Cambridge, MA: Harvard University Press.
    Halford, W. K., M. R. Sanders, and B. C. Behrens. 2001. ``Can 
Skills Training Prevent Relationship Problems in At-Risk Couples? Four-
Year Effects of a Behavioral Relationship Education Program.'' Journal 
of Family Psychology 15, 4: 750-768.
    Hetherington, E. M., M. Cox, and R. Cox. 1982. ``Effects of Divorce 
on Parents and Children.'' In M. Lamb (ed.), Nontraditional Families. 
Hillsdale, NJ: Erlbaum.
    Heyman, R. E. 2001. ``Observation of Couple Conflicts: Clinical 
Assessment Applications, Stubborn Truths, and Shaky Foundations.'' 
Psychological Assessment 13: 5-35.
    Karney, B. R., L. Story, and T. Bradbury. 2003. ``Marriages in 
Context: Interactions Between Chronic and Acute Stress Among 
Newlyweds.'' Presentation at the International Meeting on the 
Developmental Course of Couples Coping with Stress, October 12-14, 
2002, Boston College, Chestnut Hill, MA.
    Levy, F. 1988. Dollars and Dreams: The Changing American Income 
Distribution. New York: Norton.
    McLanahan, S., I. Garfinkel., and R. B. Mincy. 2001. ``Fragile 
Families, Welfare Reform, and Marriage.'' Policy Brief No. 10. 
Washington DC: Brookings Institution.
    McLanahan, S., and G. D. Sandefur. 1994. Growing Up with a Single 
Parent: What Hurts? What Helps? Cambridge, MA: Harvard University 
Press.
    Moynihan, D. P. 1965. The Negro Family: The Case for National 
Action. Washington, DC: U.S. Department of Labor, Office of Policy 
Planning and Research.
    Offner, P. 2001. ``Reducing Non-Marital Births.'' Policy Brief No. 
5. Washington, DC: Welfare Reform and Beyond.
    Schultz, M., and C. P. Cowan. 2001. Promoting Healthy Beginnings 
During the Transition to Parenthood. Minneapolis: Society for Research 
in Child Development.
    Wallerstein, J., and J. Kelly. 1980. Surviving the Breakup: How 
Children and Parents Cope with Divorce. New York: Basic Books.
    Webster-Stratton, C. 2003. The Incredible Years. Toronto: Umbrella 
Press.

    Senator Brownback. Thank you, Mr. Berlin.
    Thank you, gentlemen.
    We're starting to delve into an area that I don't think 
we've done sufficient amount of research, as a government or as 
a society, based upon the vast social experiment that we've 
been conducting, basically, I think, since the 1960s, where we 
walked away from a society that really said, ``OK, we're going 
to really culturally reinforce this notion of a two-parent 
family, held together, and for life,'' and then moved into a 
much wider definition of family, much more accepting cultural 
atmosphere, to a point where we are today. And I just don't 
think we've studied sufficiently what's the impact on society 
and what's the impact on children. And so that's why we're 
holding this series of hearings and trying to determine what is 
the impact and what should be done.
    Just to get a baseline on this, I get different numbers on 
what are the percentage of marriages that--people that are 
married in 2004, what percent of those will end in divorce? And 
it seems like that should be a pretty straightforward number, 
but can one of you give me what that number is?
    Dr. Nock. We don't know about marriages of 2004, but life 
table estimates, which are the best predictions that we have, 
based on marriages of 1995--first marriages in 1995--have a 43 
percent probability of--43 percent will end within 15 years. 
Some fraction of marriages disrupt after 15 years, Senator, but 
very few, relatively. So, within 15 years, we have a fairly 
good estimate of the total divorce experience of the cohort. 
So, at the moment, it's in the 40s--40, 45 percent, something 
like that.
    Senator Brownback. That's 1995 data, and you said divorce 
numbers have been trending down as a percentage, but--now, that 
may also reflect the increase of cohabitation and other 
lifestyle arrangements, is that correct?
    Dr. Nock. That's correct. There are compositional changes 
in the population, especially increasing cohabitation, that 
remove some people from the risk of experiencing a divorce. 
These estimates from the National Center for Health Statistics, 
though, that I just referred to--and I'll be happy to provide 
these in written answers, if you wish--but they adjust for such 
changes in the population composition.
    So the downward trend in divorce is correct, it has been 
declining very, very minimally since 1982, but it is a very 
small change. We are probably at about the point we were in the 
late 1970s now, in terms the divorces-per-thousand-married-
women. So it's unlikely that a modest decline will have much 
effect on our projections into the future. But then again, in 
all humility, demographers did not predict a baby boom, either.
    [Laughter.]
    Senator Brownback. OK.
    Dr. Zill. I might add, though, Senator, that we would 
expect, actually, divorce to go down, because the age of 
marriage is going up, and generally people who marry at higher 
ages tend to have lower probability of divorce. Also, the 
general education level of the population is going up. So 
actually, in a sense, there are some factors that you would 
expect the divorce rate to go down, and perhaps it's not going 
down as much as one would anticipate, given those changes. So 
there still is quite high incidence of divorce.
    Senator Brownback. Now, all three of you testified that the 
best place to raise children is in a stable, two-parent family. 
Is that correct? And every study I've read, that's the social 
science on this. Is that accurate? Does anybody deviate away 
from that, on the social science data? There's pretty much 
uniform agreement on that, is that correct, Mr. Berlin?
    Mr. Berlin. Yes, I think so. You know, there are 
qualifiers. They need to be healthy marriages. There's evidence 
that biologically intact two-parent families, the children do 
best there. Sometimes adolescents are more likely to have 
problems in remarriages. So the broad statement you made is 
absolutely correct, but there are some qualifiers.
    Dr. Nock. Also, Senator, there is some research from two 
research teams that suggests that when a divorce is preceded by 
great conflict--which is fairly substantial, about a third of 
divorces--children do better as a result of the divorce. In the 
typical divorce that is preceded by low levels of conflict and 
hostility, the child does worse. So the qualifications here are 
important. Overall, I think you're correct.
    Senator Brownback. The government gets a great benefit out 
of intact two-parent families, is that correct? All of you are 
testifying to that?
    Dr. Nock. Yes.
    Senator Brownback.If that's the case, we really see this 
trend take off in the 1960s, and then really went high, and now 
we've plateaued maybe and come down a little bit, based on a 
series of factors. Are there things that we were doing at the 
1960s that we should go back to? Are there policy issues that 
changed in the 1960s that we should readdress to try to get at 
this issue, to have more stable two-parent families?
    Dr. Zill. Well, the changes that occurred in the 1960s--
there's pretty good research--were not restricted to this 
country. There were trends in a number of countries, not only 
in divorce rates, but also in crime rates going up. And, of 
course, we know the political rebellion. So it seems to be some 
sort of a mega-cultural kind of change that occurred that--and 
I think it's----
    Senator Brownback. In the industrial societies.
    Dr. Zill. In the industrial societies, yes, right. And I 
think it's a little hard to put the genie back inside the 
bottle, in terms of just turning back the clock. I think that 
the issue of, how do we deal with some of the changes? For 
example, the different views, in terms of women's role and 
rights in our society, the importance of individualism--I think 
that's something that really needs to be addressed, individual 
satisfaction and satisfying one's personal view of what one's 
fulfillment is, as opposed to one's obligations to the society 
and to others in the society. I think that balance is certainly 
critical in the whole kind of behavior that the divorce 
revolution exemplifies.
    Senator Brownback. Let me maybe put a better point on it, 
then. What was happening prior to the 1960s that led to a long 
period of fairly stable marriages, of most marriages being 
stable, to where we don't have that situation today?
    Dr. Nock. The 1950s, the parents of the baby boom, this 
period of family life is now regarded as an anomaly, 
historically. Families before and families after were more 
varied, more diverse in both their trajectories over time, as 
well as their divorce probabilities. It is true, by the way, 
divorce rates have continued to rise. But they dropped during 
the 1950s. Fertility rose during the 1950s. Age at marriage 
dropped during the 1950s. So that in many traditional 
demographic trends relating to households and families, the 
1950s were an unusual period, and there's great speculation 
about what that might be.
    But the prevailing consensus on this is that, having grown 
up in the Great Depression, experiencing very, very modest 
economic circumstances, experiencing the war, and then coming 
of age in a time of affluence, by comparison, led to 
historically early ages of first marriage and very stable 
marriages that were predicated on a family wage system where 
one person was able to support the family.
    That was not true, by the way, prior to the baby boom. It 
took two individuals to support the farm family or the small 
business of the 19th century and early 20th century. It's 
certainly not true now. But there was this period of our 
history where one person could support a family, where 
marriages were early, and where fertility was high. Whether 
that could be replicated is very debatable.
    Senator Brownback. Any of you other gentlemen have thoughts 
on this point?
    Dr. Zill. Well, a less rosy side to the picture, of course, 
is that women were economically dependent on men to a much 
greater extent in the prewar and even in the immediate postwar. 
So, in a sense, there was an acceptance of perhaps marriages 
that were less than ideal because of that economic dependence. 
And with the growing role of women in the labor force and 
somewhat greater economic independence, women were perhaps less 
willing to tolerate marriages that were maybe abusive or maybe 
less satisfying because they had some economic independence. So 
I think that's an element in the equation, as well.
    Senator Brownback. Recognizing the changes in society, are 
there things, other than what you've listed in your testimony, 
that we should be looking at to try to encourage stable two-
parent families? If this is the best place to raise children, 
if all the social data points to that, if everybody agrees to 
it, are there other policy factors we should be looking at, 
that you have not identified, to try to create more stable 
family situations?
    Dr. Zill. Well, I think that we really are only beginning, 
in the sense of really educating young people about marriage 
and families, and I don't think many schools really address 
some of the issues we're discussing, and they need to do so. 
And particularly with the evidence becoming more compelling and 
consistent, it needs to be communicated. Furthermore, there 
needs to be a slant on that communication to understand that 
having children outside of marriage is not something that's 
wonderfully rebellious and good for children or anything like 
that; that, in fact, it's a loser strategy, that those ethnic 
groups and those religious groups in our society that are most 
economically successful are those that have very low rates of 
unmarried childbearing and low rates of divorce. And it's 
ironic that some people--some scholars from some of these very 
groups say, ``Well, it's okay to have single-parent families. 
That's just an alternative family type.'' But, in fact, the 
behavior of their own group is such that divorce is low, and 
unmarried childbearing is low, and economic success is high.
    And I think if we communicated to people, ``If you want to 
advance as a group, if you want to do a favor to your kith and 
kin, then it's not by fathering children outside of marriage, 
or bearing children outside of marriage; it's not by living a 
life of `my pleasure above all.' It's by having some commitment 
to your children and taking the care and the effort to live in 
a marriage and raise those children.'' I think those messages 
have not been well communicated.
    In fact, one might say the mass media, right now, are 
communicating a very different message. Just look at what's on 
the cable stations that appeal to young people, and I think--
none of this is there at all.
    Senator Brownback. So why hasn't that message been 
communicated? If this evidence is so clear, why hasn't it been 
communicated?
    Dr. Zill?
    I mean, we communicate messages in our society about--we 
communicate to them about things we don't like, like smoking or 
things like that. We're very clear at communicating, and pretty 
good at it.
    Dr. Zill. Well, I think there's this double standard. I 
think we feel okay if it's something to do with physical health 
or the physical environment, but, once we go into the area of 
the social environment and moral behavior, that people start 
getting very reluctant to say things in that area. And I think 
that's something that we need to change, and I think that's 
something that Congress could take a lead in producing some of 
that change.
    Senator Brownback. Dr. Nock, do you have a thought on this?
    Dr. Nock. I would just add, Senator, on a slightly 
different note, there is empirical evidence--meager, but there 
is empirical evidence, nonetheless--that suggests that the so-
called ``marriage penalty'' in our tax code is a disincentive. 
It's a small one, but simulations as well as studies of Social 
Security records by various organizations have suggested that 
the tax penalty does--for two-earner married couples, middle-
income families--in fact, act as a disincentive to marriage. 
And so, at a minimum, I would suggest that the evidence would 
encourage us to continue trying to repeal this aspect of the 
tax code.
    Senator Brownback. The National Science Foundation, which 
is under the jurisdiction of the Committee, funds research on 
the issue of marriage and its impact on society. I believe, Dr. 
Nock, you have some grant money that has come from NSF. Are 
there other research needs in this particular field that you 
would like to see us focus on?
    Dr. Nock. Thank you for asking that question. It's a 
dangerous question----
    [Laughter.]
    Senator Brownback. Ask a researcher.
    Dr. Nock.--to ask a researcher what we should fund.
    I actually believe that we know way too little about the 
pathways to union formation.
    Senator Brownback. Pathways to what?
    Dr. Nock. To relationships, whether they are cohabiting 
relationships or marriages, what we used to call ``courtship.'' 
We know very little about this. The immigration patterns of the 
last decade or two have changed our understanding of how people 
enter into relationships. Culture has changed. The age at which 
people enter into relationships has changed. We know very 
little about what leads couples to transition from what we 
would--you and I might have called a ``dating relationship'' to 
a cohabiting one, and from a cohabiting one to a marriage, or 
what leads them not to. And so that's one area I think we 
should investigate.
    I also believe that the growing variety of household 
structures--including same-sex couples, remarried couples, 
multi-generational, blended, and more complex households--
deserves much more research in order to understand the factors 
that are associated with them, that produce them, as well as 
their consequences.
    And, finally, since you ask, I'll offer a personal 
preference, which is that I know that the majority of services 
to married couples, as well as to people anticipating marriage, 
are provided by faith-based organizations--pre-marriage 
education, pre-marriage counseling, counseling in times of 
trouble, and so on. We have been afraid to investigate this 
issue. The Federal Government has avoided funding this type of 
research. I think it's finally time to put some serious effort 
into understanding the role of religion in relationships.
    Dr. Zill. I would add to those recommendations, all of 
which I agree with, that we need to fund, in this area, more 
experimental and quasi-experimental research, as opposed to 
correlational research. I mean, correlational research has a 
great role, and that's--a lot of the research that I have done 
is that. But it's also the kind of study that Gordon talked 
about, MDRC is doing, where you actually try to get people--
make use of some sort of random assignment. For example, in 
marital counseling you try to have some incentives so that, 
people whose marriages are in danger of breaking up, one group 
is randomly assigned to some kind of a new kind of marital 
counseling, and another group maybe is assigned to an 
alternative treatment, and we actually see, with the same kind 
of precision that we get in drug studies, where the causal 
factors are. Because it's very difficult, with correlational 
studies, to completely answer these questions.
    So I think we really need to have a program of imaginative 
experimental and quasi-experimental research sponsored by the 
National Science Foundation and also by the National Institute 
of Child Health and Human Development.
    Mr. Berlin. I would just agree with that. I mean, if you 
stop and think about it, we're talking about these broad 
normative changes that have occurred, you know, among all 
classes of people in the country, and even worldwide, in 
industrialized countries. If we want to try to change those 
broad, sweeping, normative developments with public policies, 
it's obvious that there are lots of unknowns about whether 
that's possible and whether you'd end up with unintended 
consequences. And we've all agreed that there's this very 
strong relationship between growing up in a stable, two-parent 
household; but that doesn't necessarily mean that policies 
designed to encourage stable, two-parent households would have 
the intended effect. And the only way to really get a clear 
answer to that and understand what the costs and the benefits 
are, and what packages of services might work, what kinds of 
messages might make a difference, would be to conduct some 
field tests of these new approaches.
    And I think, to their credit, the Department of Health and 
Human Services has a couple of these underway. I think they're 
very important. But they won't succeed unless there's also 
enough money for the programs to actually run these 
initiatives. And right now those resources aren't available 
because they're tied up in the welfare reform bill.
    But I definitely agree with Nick, that in order to really 
advance our understanding about what might work, the best thing 
we could do at this stage would be to run some social 
experiments.
    Senator Brownback. Dr. Nock, in your opinion, what, if 
anything, has the government done to contribute to the trends 
regarding marriage, divorce, and, more generally, the trend 
away from living in families? What has the government done to 
contribute to that?
    Dr. Nock. I would probably agree with most demographers on 
this subject, in that the factors that have produced these 
trends are long, widespread, secular trends. To the extent that 
government has played a role, it would be a small one, because 
we see these trends in all advanced Western societies, despite 
enormous variations in government organization, government 
policy. At the same time, I think it's an intriguing question 
whether or not public policy, and Federal policy in particular, 
could affect them, and has.
    I know there has been documented evidence that the old AFDC 
system did influence the formation of single-parent households, 
minimally. It may have discouraged marriage, minimally. I know 
there's some evidence that our Federal tax code acts as a 
disincentive to marriage. Beyond that, it's hard to identify a 
single----
    Senator Brownback. No-fault divorce, state level? What do 
you think?
    Dr. Nock. These are at the state--there are enormous 
effects at state level, in terms of domestic relations laws, I 
believe. No-fault divorce is probably the best caution to all 
of us about venturing into domestic relations. I think that 
when Governor Reagan signed the first no-fault divorce law, he 
and his legislators thought that they were protecting the 
interest of women and children, they were minimizing the 
bitterness and hostility of divorce, they were equalizing the 
outcomes of divorce. I doubt very seriously that anyone 
involved thought that no-fault divorce might lead to more 
divorce. That is exactly the debate now. Thirty years after the 
passage of the first law, we're still debating whether or not 
no-fault divorce led to more divorce. And I would say half of 
those who investigate it say yes, and half say no. We'll never 
be able to sort this out.
    I personally believe it probably did jeopardize women's 
interests after divorce; it treated men and women alike, 
despite the fact that men and women had very different economic 
circumstances before divorce. So, in my opinion, no-fault 
divorce was a negative consequence for women. That's also 
reinforced by my research in Louisiana on two forms of 
marriage, one which has no-fault divorce, and one which does 
not. The divorces that have resulted in those two regimes 
produce very different consequences for women.
    Fault-based divorce is faster than no-fault divorce. It's 
less contentious, and it results in better outcomes for women, 
is what we're finding at least. Ours is----
    Senator Brownback. Really?
    Dr. Nock. Well, it has been so long, we've forgotten the 
problems that motivated no-fault divorce, and there are very 
few judges on the bench who came from those times. A no-fault 
divorce takes, at a minimum, 6 months, and often longer. A 
fault-based divorce can take place in a matter of weeks. What 
we're finding in Louisiana is that the court will award fault-
based divorces faster. But more importantly is that in fault-
based divorces there tends to be alimony awarded.
    Senator Brownback. Tends to be what?
    Dr. Nock. Alimony awarded.
    Senator Brownback. And what about the percentage of couples 
that get divorced? Or is that fair to measure--compare the two?
    Dr. Nock. In my opinion, it's probably not, because the 
sort of couple who is attracted to the more stringent marriage 
regime, the covenant marriage, is very different to begin with. 
They're better educated, they're higher income, they're less 
likely to have been married before, they're less likely to have 
children before. In many respects, they have the advantages 
going into marriage that would predict lower divorce rates to 
begin with. But, even after we adjust for those preexisting 
differences, the outcomes of divorce differ. I mean, though the 
divorce rate is lower in the covenant-couple sample, the 
outcome of divorces are better.
    Senator Brownback. On Monday, Massachusetts will enter into 
same-sex unions in their state. Do we know any data from any 
countries of the impact of that on marriage, heterosexual 
marriage, in the United States?
    Dr. Nock. Last month, at the Population Association of 
America meetings, so far as I know the first empirical paper 
was presented on this subject from The Netherlands based on 
vital records, which is what you and I would think of as 
marriage and divorce records. Same-sex marriages have been 
legal in Scandinavia for a number of years now, so it is 
possible to study these. The researchers involved were not 
interested in the outcomes for children; rather, they were 
interested in marital dissolution rates.
    The results are intriguing. They show that divorce rates 
are somewhat higher among same-sex couples--legally married, 
same-sex couples--than among heterosexual couples. They also 
find that divorce rates are higher among lesbian couples than 
among gay men. Beyond that, I think the results of this paper 
are descriptive, but, to my knowledge, it's the first paper. 
There is nothing done in the United States, because we have yet 
to have a same-sex marriage.
    Senator Brownback. What about its impact on--I've seen some 
data that suggest that you're going to--that it will have a 
negative impact on the number of heterosexual couples that will 
get married in the United States, that there's--that it tends 
to drive down the number of people that desire to get married--
heterosexual couples.
    Dr. Nock. I'm not aware of any research in that line, sir.
    Senator Brownback. Either way?
    Dr. Nock. No.
    Senator Brownback. OK.
    Gentlemen, thank you all very much. Appreciate you being 
here.
    Call up the next panel, if you want to come on forward 
while I'm introducing the overall group.
    Margy Waller is a visiting Fellow at the Brookings 
Institute. Previously, she was Senior Advisor for Welfare and 
Working Families at the White House Domestic Policy Council in 
the Clinton Administration. She'll discuss the impact of 
social-policy outcomes on the American family.
    Patrick Fagan is the Fitzgerald Research Fellow in Family 
and Cultural Issues at the Heritage Foundation, former Deputy 
Assistant Secretary of Health and Human Services during the 
Bush Administration. He will examine the relationship between 
family, community, and social problems, and will talk about the 
implications of a culture of rejection for children and the 
future of the Nation.
    And the final panelist is Gerald Campbell, President of the 
Impact Group, a charitable organization established to explore 
the spiritual dynamics of homelessness and other dysfunctional 
behaviors. He served as a Senior Advisor to USIA from 1985 to 
1990, and a Special Assistant to the Administration of the 
Office of Juvenile Justice and Delinquency Programs, U.S. 
Department of Justice, from 1992 to 1993.
    Thank you all very much for joining us today.
    Ms. Waller?

          STATEMENT OF MARGY WALLER, VISITING FELLOW, 
                      BROOKINGS INSTITUTE

    Ms. Waller. Thank you, Mr. Chairman. And I'm very happy to 
be here today. Thank you for having me.
    I'm a Visiting Fellow at the Brookings Institution, and I 
should say that my testimony today reflects my own views and 
not that of others of the institution or the institution 
itself.
    It is an honor to appear before you today to discuss the 
state of knowledge on marriage and the well-being of children. 
My testimony will review some important research findings and 
their implications for public policy. Of course, my prepared 
remarks have much more detail on both of these topics.
    To begin, as the previous panel indicated, there is much 
evidence that children raised in a household with their 
married, biological, or adoptive parents do better than 
children in other family structures, yet we don't know much 
about why this is so. And, at the same time, it is important to 
remember that while children raised in single-parent households 
are at greater risk, most will not face serious problems.
    The data that we do have about family structure and the 
well-being of low-income families suggest that Congress should 
proceed cautiously. While there is evidence that marriage 
increases household income, it may not be easy or even a good 
idea to encourage marriage for some single parents. The problem 
is figuring out which families might benefit from counseling 
and education.
    Unfortunately, the research evidence does not answer 
questions like: How much of the advantage is the result of 
family structure, and how much from economic advantages? Is it 
marriage that makes the difference, or the kind of people who 
are likely to get married when they become parents?
    The Fragile Families and Child Wellbeing Study is 
developing a rich database of information about unmarried 
parents and how they differ from married parents. The 
researchers reviewing the data conclude that about a third of 
the unmarried parents would benefit from marriage programs, as 
they face no serious barriers to marriage, and most of them 
plan to marry or live together. But marriage promotion would 
not work, or could even cause serious harm, for another third 
of the parents and their children. The remaining third might 
benefit from relationship-building skills if the marriage 
initiatives also included employment and mental health 
services. So you can see that the target population may be 
smaller than generally thought, and somewhat difficult to 
identify without trained caseworker involvement.
    Unfortunately, it appears that marriage can even create 
risks for these families. Children may suffer when their family 
structure changes, and living in a stepfamily can have negative 
effects, as well, for some children.
    Finally, the research reveals that teenagers who have a 
non-marital birth are less likely to get married later in life. 
For this group, the answer doesn't seem to be marital 
counseling, but strategies that prevent pregnancy in the first 
place.
    This summary of key findings reveals the possibility of 
unintended consequences from investment in marriage promotion 
as a means of improving child well-being. Many unmarried 
parents are at risk of factors known to contribute to marital 
disruption or conflict--domestic violence, unemployment, mental 
health problems, and others. If we encourage marriage for such 
couples before addressing these issues, we may put children at 
greater risk of experiencing marital conflict and a change in 
family structure, with all of its negative consequences.
    Given the limited knowledge about how to support healthy 
marriages that improve child well-being, Congress should 
approach public investment with care. First, further 
experimentation and rigorous evaluation of marriage promotion 
are critical, so Congress should determine whether to provide 
resources, in addition to the Administration's existing 
research investment discussed by the last panel, and, if so, 
appropriate a one-time allocation to that purpose. Second, all 
marriage promotion activity must be developed in consultation 
with domestic violence prevention experts. And, finally, until 
we know more about encouraging marriage for unmarried parents, 
the best investment may be programs proven to reduce teen 
pregnancy.
    The legislative vehicle for discussion of marriage 
promotion is the current welfare reauthorization debate. If 
Congress is committed to focusing on child well-being as a 
primary goal of welfare reauthorization, Members might consider 
adjusting the investment priorities reflected in pending 
proposals. While we are experimenting with marriage promotion 
to improve child well-being, social science already points to 
many proven programs that do not present the same risk of 
unintended consequences. In particular, services designed to 
increase household income and economic security are known to 
improve the well-being of children.
    While welfare reauthorization provides an opportunity to 
implement these strategies, all signs suggest it's unlikely 
that Members will agree on legislation this year, and current 
proposals are likely to reduce child well-being as a result of 
new mandates to increase work hours and otherwise limit state 
flexibility. This would, in turn, lead to reduced investment in 
more promising programs--like child care--and simultaneously 
decrease adult supervision of adolescents who are already 
suffering. Given these facts, the current best option for 
Congress to improve child outcomes through the welfare law 
would be a straight multi-year reauthorization of the current 
law.
    Whatever happens, investment in marriage as a strategy to 
improve the well-being of children should be limited and 
dedicated to research. The priority should be sustaining 
programs known to work, while avoiding changes that create 
risk. Policymaking should support promising research and proven 
results, but Congress should not let funding get ahead of the 
science.
    Thank you.
    [The prepared statement of Ms. Waller follows:]

         Prepared Statement of Margy Waller, Visiting Fellow, 
                         Brookings Institution
    Mr. Chairman and Members of the Committee, thank you for inviting 
me to testify today. My name is Margy Waller. I am a Visiting Fellow at 
the Brookings Institution in Washington, D.C. where my research focuses 
on poverty, welfare, and low-income working families. Please note 
however that my testimony today reflects my own views and not the views 
of any organization with which I am affiliated.
    It is an honor to appear before you to discuss the state of 
knowledge on the impact of marriage and divorce on children, with a 
particular focus on policy interventions to improve the well-being of 
children in low-income households.
    The administration proposes to encourage states to promote healthy 
marriages and in doing so to ``place a greater emphasis in TANF 
[Temporary Assistance for Needy Families] on strengthening families and 
improving the well-being of children''.
    There is little argument that the body of academic literature 
supports the conclusion that children do best when they live with their 
married mother and father, provided that the marriage is one of low-
conflict. However, other findings have important implications for 
consideration of policy interventions to promote safe, healthy 
marriages in low-income households.
    First, my testimony will review some important findings--and 
limitations of the research--for consideration in developing public 
policy to support the goals of healthy marriages and the well-being of 
children. Second, I will outline recommendations for public policy and 
Federal investment in light of the research, including implications for 
the pending reauthorization of the 1996 welfare law.
What the Research Reveals
    While there is much evidence to support the conclusion that 
children raised in a household with their married biological parents do 
better than children in other family structures, scientific data 
answering the question of why this is so is scant.
    Still, while children raised in single-parent households grow up at 
greater risk of emotional, social, educational, and employment 
difficulty, most children from single-parent households do not face 
these problems.
    Furthermore, much of the research about the effects of family 
structure and transitions has focused on middle-income families, or 
national data sets controlling for income. There is much less 
information about the particular outcomes in low-income households, and 
not much is known about the effectiveness of marriage strengthening 
strategies for poor parents.
    However, the data that we do have about family structure and the 
well being of low-income families and children suggest that we should 
proceed carefully as we attempt to fashion public policy in this arena.

  <bullet> Children in families with married biological parents have 
        lower rates of poverty than children living with single or 
        cohabitating parents.

  <bullet> A marriage simulation matching real single mothers and 
        unmarried men who are similar in age, education, and race 
        reveals that if it is possible to increase marriages to 1970 
        rates, the poverty rate would be reduced from 13.0 percent to 
        9.5 percent.

  <bullet> The Fragile Families and Child Wellbeing Study is developing 
        a rich database of information about the characteristics of 
        unmarried parents, and how they differ from married parents. 
        Researchers reviewing the data conclude that while one-third of 
        the unmarried parents face no serious barriers to marriage, 
        marriage promotion would not work or could cause serious harm 
        for one-third of the parents (and their children), and another 
        third could benefit only if the marriage initiatives included 
        employment and mental health services.

  <bullet> Ethnographic research by Kathryn Edin and others reveals 
        that low-income parents believe in marriage, but desire 
        economic security prior to marriage. Education, employment, and 
        economic status impact the likelihood of getting and staying 
        married for both men and women.

  <bullet> Income accounts for much of the difference between child 
        well-being in married households and other family structures. 
        Married and unmarried parents are different in a number of 
        ways: age, education, income, levels of domestic violence and 
        other relationship conflict, and use of substances. Parents who 
        are not married at the birth of their child are disadvantaged 
        on these measures, suggesting that marriage alone will not 
        deliver the full set of advantages that families with parents 
        married at the birth enjoy in household income or child well-
        being.

  <bullet> Some research points to household and parental income as 
        more important determinants for various measures of child well-
        being than family structure. Notably, children's lasting 
        educational deficits have been found to be more closely linked 
        to early and deep poverty, while their risk of behavioral 
        problems may be more linked to the family structure in which 
        they grew up.

  <bullet> Children may suffer when there are family structure changes, 
        and living in a stepfamily can have negative effects as well. 
        Children in stepfamilies do not do as well as those living with 
        married, biological parents, and may do no better than children 
        in single-parent or unmarried, cohabitating households. There 
        is some evidence that growing up in a single-parent household 
        leads to better outcomes for children than living through 
        family structure transitions.

  <bullet> Surveys of unmarried mothers in low-income households find a 
        higher prevalence of domestic violence than in the national 
        population. Couples experiencing domestic violence should not 
        be encouraged to marry.

  <bullet> Children of immigrants are more likely than those of native-
        born Americans to be poor, despite the fact that they are more 
        likely to live in a two-parent household and in families with 
        full-time workers.

  <bullet> Teenagers who have a non-marital birth are less likely to 
        get married later and even if teen parents do get married, 
        these marriages are highly unstable and far more likely to fail 
        than marriages between older individuals. While teen mothers 
        face a host of economic and social challenges, their children 
        bear the greatest burden and are at significantly increased 
        risk of low birth weight and pre-maturity, mental retardation, 
        poverty, growing up without a father, welfare dependency, poor 
        school performance, insufficient health care, inadequate 
        parenting, abuse and neglect, and becoming a teen parent 
        themselves.

  <bullet> Studies of a variety of programs that are often called 
        ``abstinence-plus'' provide strong evidence of effectively 
        reducing sexual activity and pregnancy among teens. 
        Interestingly, some of the most compelling results are from 
        programs that involve teens in supervised community services. 
        On the other hand, there is no strong evidence that 
        ``abstinence-only'' programs delay sexual activity or reduce 
        pregnancy among teens. The jury is still out, although there is 
        a Federal evaluation underway.
Implications for Policy and Public Investment
    A review of this research reveals the risk of unintended 
consequences from investment in marriage promotion as a means of 
improving child well-being, particularly in low-income households.
    While we know that growing up in a household with biological 
parents in a low-conflict marriage is better for child well-being, we 
do not know why this is true. If we do not know exactly why it is true, 
then we are not certain how or whether to go about encouraging similar 
outcomes for children in single parent households.
    For example, if marriage is encouraged and supported for step-
parent families, it is not clear that children will be better off.
    Many unmarried parents are at risk of factors known to contribute 
to marital disruption or conflict: domestic violence, unemployment, 
mental health problems, infidelity and others. If we end up encouraging 
marriage for such couples before addressing these issues, we put 
children at greater risk of experiencing marital conflict and a change 
in family structure with all of its negative consequences. If the 
policy goal is to encourage marriage, then the policy should also 
support programs intended to ensure that the marriage will last.
    There are serious questions about which parent population to 
target. For example, does it make sense to encourage step-parent 
marriages for cohabiting households when we have little evidence that 
one family structure is better than the other? Should we promote 
marriage for teenage parents? Is marriage a positive step for parents 
struggling with unemployment, mental health barriers, or a lack of 
education and skills to be self-sufficient? Should we focus on doing 
more to prevent people from becoming unmarried parents in the first 
place?
An Agenda for Improving Child and Family Well-being
    The social science research provides important lessons for 
improving child and family well-being, with policies narrowly designed 
to support marriage, and using a broader approach in the pending 
welfare reauthorization legislation.
    Given the limited knowledge about how to support healthy marriages 
that improve child well-being, Congress should approach public 
investment and public discourse on the issue with care.
Policies Intended to Encourage Marriage

  <bullet> Marriage Promotion Experimentation. Given the lack of social 
        science research that provides a roadmap for marriage promotion 
        and support among low-income families, Congress should proceed 
        cautiously and with the goal of learning more about how to 
        encourage marriage, while reducing the risk of harm to 
        children. Research evidence that provides guidance for 
        improving child well-being is growing, and the best investments 
        are those that may indirectly promote marriage. (See below.) 
        Congress should not put funding ahead of the science: a 
        relatively small investment in marriage promotion research 
        makes sense, if carefully targeted. The legislation should 
        dedicate funding to experimental designs, focused on the 
        strategies with promise--particularly those that combine 
        counseling and education with barrier removal activities like 
        education, training, and mental health services.

  <bullet> Domestic Violence Prevention. The research evidence is clear 
        that low-income mothers targeted by the marriage promotion 
        initiatives are at high risk of domestic violence. Accordingly, 
        all marriage promotion programs and experiments must include 
        requirements that (1) the program design be developed in 
        coordination with local, state, or national domestic violence 
        prevention advocates or experts; and (2) all participants are 
        advised that the program is voluntary.

  <bullet> Teen pregnancy prevention. While promoting marriage for 
        teens who become parents is not likely to improve child well-
        being, we know that giving birth outside marriage reduces the 
        likelihood of marriage. Thus, one of the most effective 
        marriage promotion investments is programs proven to reduce 
        teen pregnancy. Unless new research results provide evidence of 
        delayed initiation of sex and reduced pregnancy as an outcome 
        of abstinence-only programs, the existing research suggests 
        that resources should be directed to programs with proven 
        effectiveness such as those that provide supervised community 
        service opportunities for teens.

  <bullet> Public Discourse. Since the research regarding the benefits 
        of marriage for child well-being is quite slim, and applies to 
        those children living with married, biological parents in low-
        conflict relationships, it is irresponsible to overstate the 
        importance of marriage for child well-being. As we have 
        experienced with the public debate over work-based, time-
        limited welfare reform, public understanding of policy shifts 
        can impact culture and behavior. It would be a serious 
        disservice to single parents and their children if the public 
        comes to believe incorrectly that these children are 
        necessarily worse off than they would be if their primary 
        caretaker were to marry.
Welfare Reauthorization and Lessons from Research about Child Well-
        being
    While the administration is apparently moving ahead of 
Congressional action by using existing funds for marriage promotion 
activities, the primary legislative vehicle for discussion of marriage 
promotion is the current debate over welfare reauthorization. If 
members of Congress and the administration are committed to focusing on 
child well-being as a primary goal of welfare reauthorization, they 
should shift the investment priorities reflected in pending proposals. 
Current knowledge of the benefits and risks of encouraging marriage for 
low-income parents is limited. This suggests that further 
experimentation and rigorous evaluation is critical. Since we have no 
evidence of what works, Congress should provide a relatively small 
appropriation dedicated to research purposes.
    Overlooked for the most part in the marriage promotion debate is 
existing research on welfare and children that provides strong evidence 
of successful approaches to child well-being that policymakers should 
pursue in reauthorization. Some of these strategies may prove to 
support safe, healthy marriage indirectly, as well. In particular, 
programs designed to increase household income and economic security 
(by providing work supports like child care and transportation 
assistance or by improving employment income with education and 
training services) are known to improve the well-being of young 
children.

  <bullet> Make work pay and increase household income by

    <ctr-circle> providing new resources for education and training, 
            including transitional jobs,

    <ctr-circle> creating a new credit to reward states for job 
            placement rather than caseload reduction, with extra 
            incentives to place recipients in higher paying jobs,

    <ctr-circle> allowing states to count education, training, and 
            barrier removal activities as primary work participation, 
            and

    <ctr-circle> providing an appropriation (not just authorization) 
            for a car ownership demonstration program and evaluation.

  <bullet> Provide adequate funding to maintain current levels of child 
        care assistance to working poor families and add significant 
        new resources for eligible families not currently receiving a 
        child care subsidy. (Of course, any changes in work 
        participation rates would require additional funding for the 
        children of working welfare recipients.)

  <bullet> Protect families and children from the harm of income 
        reducing sanctions by requiring outreach and review for 
        alternatives to benefit reduction before eliminating household 
        income. Do not require states to impose full family sanctions.

  <bullet> Do not mandate expensive work participation requirements 
        that create incentives for states to utilize unpaid work 
        (workfare) activities for the purpose of fulfilling Federal 
        requirements. Increasing work participation and work hours will 
        lead to reduced state investment in more promising programs 
        that are proven to improve child well-being. In contrast, 
        increasing work hours decreases adult supervision of and 
        interaction with adolescents who are already suffering 
        academically when their parent(s) are participating in welfare-
        to-work activities.

  <bullet> Make it easier for states to reform child support rules so 
        that children receive more of the child support collected for 
        them as a means to increase household income and reduce 
        poverty.

  <bullet> Allow states to provide legal immigrant households with 
        ``make work pay'' supports, education, and other services 
        intended to increase earnings.
Reauthorizing current welfare law appears more likely to produce better 
        outcomes for children than House and Senate proposals
    While welfare reauthorization provides an opportunity for 
policymakers to implement strategies and services likely to improve 
child well-being, all signs suggest that it is highly unlikely members 
can agree on legislation this year. The welfare law expired in 
September 2002, and Congress has passed six short term extensions of 
current law since then. Most recently, serious disagreements between 
members of the Senate and the administration led to the withdrawal of 
the bill from floor debate. The current extension will expire at the 
end of June.
    These short term extensions create uncertainty for welfare 
administrators, program providers, and low-income families.
    Furthermore, the current proposals are likely to reduce child well-
being as a result of new mandates to increase work hours and otherwise 
reduce state flexibility. Since the proposals were introduced, many 
states and localities have created new marriage promotion initiatives. 
In 2002, some observers may have concluded that state policymakers were 
overlooking the opportunity to promote marriage as part of welfare to 
work initiatives. For good or for ill, that is not the case today.
    Given these facts and the policy choices under consideration, the 
current best option for members of Congress to improve child outcomes 
through the welfare law would be a straight, multi-year reauthorization 
of the current law.
    If Congress nevertheless chooses to implement a marriage promotion 
experiment while reauthorizing current law, a balanced approach is 
critical. Members should couple a small, targeted experiment with 
additional funding for child care because it is a strategy known to 
improve child well-being.
    Policymaking should support promising research, but Congress should 
not let funding get ahead of the science.
Selected References
    Bachman, H.J., Coley, R.L., & Chase-Lansdale, P. L. (2003). 
Marriage or Partnering? Effects of Cohabitation and Family Structure 
Changes on Child and Adolescent Well-Being. Paper presented at the 
first annual conference of the National Poverty Center, Washington D.C. 
Working paper available at: http://www.npc.umich.edu
    Edin, K. (2000) How Low-Income Single Mothers Talk About Marriage. 
Social Problems, 47 (1), 112-133.
    Gibson, C., Edin, K., & McLanahan, S. (2003) High Hopes But Even 
Higher Expectations: The Retreat from Marriage Among Low-Income 
Couples. Center for Research and Child Wellbeing Working Paper # 2003-
06-FF.
    Hamilton, G. (2002) Moving People from Welfare to Work: Lessons 
from the National Evaluation of Welfare-to-Work Strategies. Washington, 
D.C.: U.S. Department of Health and Human Services and U.S. Department 
of Education.
    Haskins, R. & Sawhill, I. (2003) Work and Marriage: The Way to End 
Poverty and Welfare. WR&B Policy Brief #28. Washington, D.C.: 
Brookings.
    Kaye, K. (2004) Effects of Marriage on Family Economic Well-Being: 
Summary. Washington, D.C.: U.S. Department of Health and Human 
Services.
    Kirby, D. (2002) Do Abstinence-Only Programs Delay the Initiation 
of Sex Among Young People and Reduce Teen Pregnancy? Washington, D.C.: 
National Campaign to Prevent Teen Pregnancy.
    Kirby, D. (2001) Emerging Answers: Research Findings on Programs to 
Reduce Teen Pregnancy. Washington, D.C.: National Campaign to Prevent 
Teen Pregnancy.
    Lichter, D.T. & Graefe, D.R. (2001) Finding a Mate? The Marital and 
Cohabitation Histories of Unwed Mothers. In Wu, L.L. & Wolfe, B. 
(Eds.), Out of Wedlock: Trends, Causes and Consequences of Nonmarital 
Fertility, 329. New York: Russell Sage Foundation.
    McLanahan, S. (2003) Fragile Families and the Marriage Agenda. 
Princeton, NJ: Princeton, Center for Research on Child Wellbeing.
    McLanahan, S. & Sandefur, G. (1994) Growing Up with a Single 
Parent: What Hurts, What Helps. Cambridge, MA: Harvard University 
Press.
    National Center for Children in Poverty. (2002) Letter to Members 
of Congress: Researchers discuss the effects of welfare reform on 
children's well-being. Available at: http://www.nccp.org/item_25.html
    Parke, M. (2003) Are Married Parents Really Better for Children? 
What Research Says About the Effects of Family Structure on Child Well-
Being. Washington, D.C.: Center for Law and Social Policy.
    Parke, M. (2004) Who Are ``Fragile Families'' and What Do We Know 
About Them? Washington, D.C.: Center for Law and Social Policy.
    Reardon-Anderson, J., Capps, R., & Fix, M. (2002) The Health and 
Well-Being of Children in Immigrant Families. Washington, D.C.: Urban 
Institute.
    Seefeldt, K.S. & Smock, P.J. (2004) Marriage on the Public Policy 
Agenda: What Do Policy Makers Need to Know from Research? University of 
Michigan, National Poverty Center. Available at: http://
www.npc.umich.edu/publications/workingpaper04/paper2/04-902.pdf
    Sigle-Rushton, W. & McLanahan, S. (2003) For Richer or Poorer?: 
Marriage as an Anti-poverty Strategy in the United States. Princeton, 
NJ: Princeton, Center for Research on Child Wellbeing.
    Thomas, A. & Sawhill, I. (2002) ``For Richer or for Poorer: 
Marriage as an Antipoverty Strategy.'' Journal of Policy Analysis and 
Management, 21(4), 587-599.

    Senator Brownback. Thank you.
    Mr. Fagan, thank you for joining us today.

        STATEMENT OF PATRICK F. FAGAN, THE WILLIAM H.G. 
 FITZGERALD FELLOW IN FAMILY AND CULTURE ISSUES, THE HERITAGE 
                           FOUNDATION

    Mr. Fagan. Thank you for having me, Senator Brownback. It's 
an honor to be here to testify today.
    I think that the central message of the social science data 
is already covered in the first panel--it's fairly simple, and 
I think it's profound--that when parents belong to each other, 
the more that they do that, the more each individual in the 
family, both the parents themselves and the children, thrive; 
and the more that there is rejection between the parents, 
either in divorce or in out-of-wedlock births where eventually 
they each go their own way, the more the entire family suffers, 
and most especially the children. Not all children suffer the 
same way, but if you look at cohort groups overall, they all 
suffer to some extent. And none of them probably reach the 
capacity they would have reached had they had parents who did 
belong to each other.
    I put a chart, into the testimony, that gives a picture of 
the extent that this form of rejection has grown over the last 
five decades. If we just take the beginning and end point, in 
1950, if you take the number of children entering the Nation as 
the base, the number of children born that year, and, against 
that, measure the number that entered a broken family that 
year--and the two ways of entering it are being born out 
wedlock, where the family has not formed, or where the parents 
divorce--and in 1950, for every hundred children born, twelve 
children entered a broken family. By the year 2000, it has 
grown to sixty. So there's a five-fold increase.
    What that indicates, actually, is there has been a huge 
shift in what I call the infrastructure of the culture, from a 
culture of belonging, overwhelmingly, for most people, to now 
overwhelming, for the children of this nation, it's a culture 
of rejection. And on any measure you take, that the indicators 
go down for each cohort involved.
    Because of this new culture of rejection, most of our 
children will not attain the fullness of their capacity, and 
neither will the Nation attain the fullness of its capacity to 
fulfil its destiny and role. And though this is far removed 
from the point of this hearing, I think this cultural 
phenomenon is now a foreign policy issue, as well. To be the 
leader of the free world, which we are claiming, we need a 
culture we are proud of, and a source of domestic strength and 
happiness. And for our children, that is not the case.
    Instead of achieving the fullness of their capacity, the 
children of parents who reject each other suffer in more 
emotional pain. It's not that they all suffer these things to 
great extents; there are varying levels, of course, and there 
are individual children who will not suffer this. But if you 
take the cohort outcomes for any particular group, you will 
find there's more emotional pain, ill health, depression, 
anxiety, shortened life span--more drop out of school, less go 
to college. They earn less income. They develop more addictions 
to drugs and alcohol. They engage in increased violence, or 
suffer it within their homes.
    Society also suffers, with more gangs, more assaults, more 
violence against women and children. The safest place, by the 
way, for women and children is in the married family. It's not 
totally safe, it's not without domestic violence, but any other 
structure outside of that has more.
    There's an increased need for healthcare, for supplemental 
education, for addiction programs, foster care, homelessness 
programs, and on and on it goes. The expansion of all these 
social program budgets is directly linked, in my read of the 
data, to the breakdown of marriage.
    And there's not a single area of government concerned, not 
a single social budget of a major social policy area, that has 
not grown in size when marriages fail at this level, or when 
parents--another way of saying that is, when parents reject 
each other, picking up the pieces is not just the work of the 
fragmented family and the extended family, but also of society 
and the taxpayer.
    The breakdown has now reached such a level as to be 
massively expensive. And with these results, we can say that 
this cultural change, America's latest experiment in its 
history of experiment with freedom, but this experiment with 
freedom has been a big failure, especially for the children of 
those parents.
    So the question then arises, How do we reverse the 
situation? And I don't think it's easy, by any means. As a 
nation, we need to set about restoring the conditions that will 
grow again a culture of belonging with all the ingredients that 
go into such a culture--some of these mentioned in the past 
panel: courtship, marriage, worship--key link within this--and 
forming communities of families where neighborhoods are places 
you like to come home to.
    Looking at neighborhoods is a key issue. We've all--all 
of--anybody around my age, in their 50s, remember neighborhoods 
where kids played a lot more, where families visited each other 
a lot more, a neighborhood that sustained family life much 
easier. There's huge stress on marriages today because the 
demands for relational capacities are almost entirely on the 
marriage because the communities don't support them, don't 
provide this other support that makes human life so much more 
human and humane.
    So George Washington, in his farewell speech--I want to 
segue into the issue of worship and religion--in his farewell 
speech to the Nation, he drew attention to the need for the 
American people to be a people of worship if our experiment 
with freedom and our Democratic form and Republican form is to 
succeed. But I think the social science data in this whole area 
gives a clear nod in his direction.
    For instance, on something that the whole country and this 
Senate constantly talk, worry about, put a lot of budget money 
into, and all the rest, is grade point average and how kids are 
doing in school. Children from intact families that worship 
frequently--and intact, there I would include the intact 
cohabiting as well as the intact marriage where there's no 
rejection, living together--put those two groups together, and 
then you look at how frequently they worship, and what you find 
is that the children do best in grade point average 
significantly--and there's a chart in there, too--where they 
score significantly higher. And those who score lowest are 
those from fragmented families that don't worship at all, or 
very little. And then the ones in between have an in-between 
score.
    And similar outcomes occur no matter almost what measure 
you take. This comes out of the National Longitudinal Survey of 
Youth, which is--or the Add Health--sorry--the Add Health 
survey, which is our largest survey ever done on adolescents, 
which we can track now through the third wave. These 
adolescents are now into their mid-20s.
    So the big thing that I think that is needed, more than any 
particular program--if there is one program that's needed, it's 
right here in the Senate--it's a program of debate that will 
probably have to last many years. Because, given the sort of 
nation we are, we are not one people, we don't have a history 
of a particular culture. We are a political nation, and the 
Senate is the place where we most debate how we will go 
forward.
    We've had an experiment that has failed. It's going to take 
a lot of debate and a lot of fleshing out, aided by all of the 
suggestions that have been made here--on programs, on data, on 
correlational, on experiments and quasi-experiments--so that 
these things can be fleshed out. And that debate and its 
consequences out into the media and elsewhere, I suggest that 
program of debate, which you are beginning, and others, by 
having hearings like this, will have a much bigger impact, 
because it will change the ideas and will form, gradually, a 
consensus again. It'll take quite some time.
    Who knows what way it's going to end up. But you will 
gradually emerge a view of how we are going to move forward and 
restore the culture of belonging in our families, rather than a 
culture of rejection which we now have.
    Thank you very much.
    [The prepared statement of Mr. Fagan follows:]

  Prepared Statement of Patrick F. Fagan, The William H.G. FitzGerald 
      Fellow in Family and Culture Issues, The Heritage Foundation

    Good afternoon Mr. Chairman and Members of the 
Subcommittee. Thank you for the opportunity to testify before 
you today on the challenge that family life in America presents 
to the children and the leaders of our Nation.
    The family is the building block of our society. It is the 
place where everyone begins life and to which they always 
belong. The more that members of a family belong to each other, 
the more each individual and each family thrive. When rejection 
occurs in the family, especially between the parents when they 
separate or divorce, or even when they never come together, the 
entire family and especially the children, suffers.
    The accompanying extended remarks in the form of a booklet 
called ``The Map of the American Family'' illustrate in charts 
the trends and the dynamics of belonging and rejection in the 
United States over the last fifty years. These charts are 
mainly from Federal surveys and give a snapshot of what is 
occurring within America's families. (British data are used 
when there is no corresponding U.S. Federal survey . . . a 
situation that should be remedied.)
    The effects of belonging, rejection, and indifference are 
illustrated in these graphs. National survey data repeatedly 
and consistently show that the highest levels of positive 
outcomes are in those families where the parents have always 
belonged to each other and to their children: the intact 
married family. These families (adults and children) are less 
likely to live in poverty, less likely to be dependent on 
welfare, more likely to be happy, and to have a host of other 
positive outcomes. Further, the children in these families are 
more likely to exhibit positive outcomes (such as higher grade 
point average) and less likely to exhibit negative ones (such 
as depression).
    Though these charts are correlational--deliberately so, to 
give the best picture or snapshot of what is happening with 
America's children--the regression analysis and causative 
exploration by the Nation's top family sociologists repeatedly 
find that the intact married family is the best place in which 
children thrive.
    When parents reject each other by divorce or an out of 
wedlock birth that eventually ends in totally separate lives 
for the father and mother, the strengths of their children are 
not as developed as they could be, and more weaknesses occur in 
major outcomes such as deprivations, addictions, abuse and 
failure.
    When fathers and mothers belong to each other in marriage 
their children thrive. When they are indifferent or walk away 
from each or reject each other, their children do not thrive as 
much, and many wilt a lot.
    The chart below gives a picture of how many children have 
been affected by changes in family structure over the past 
fifty years, changes in the levels of belongingness and the 
levels of rejection during these five decades.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    This chart shows that in 1950 for every hundred children 
born, that year, 12 entered a broken family--four were born out 
of wedlock and eight suffered the divorce of their parents. By 
the year 2000 that number had risen five fold and for every 100 
children born 60 entered a broken family: 33 born out of 
wedlock and 27 suffering the divorce of their parents.
    We must conclude that over the last fifty years America has 
changed from being preponderantly ``a culture of belonging'' to 
now being ``a culture of rejection''.
    Because of this level of the rejection by fathers and 
mothers of each other this growing cohort of children has not 
nor will not attain the fullness of its capacities. Neither can 
the Nation attain the fullness of its capacity to fulfill its 
destiny and role.
    The children of parents who reject each other suffer: in 
deep emotional pain, ill health, depression, anxiety, even 
shortened life span; more drop out of school, less go to 
college, they earn less income, they develop more addictions to 
drugs and alcohol, and they engage in increased violence or 
suffer it within their homes.
    Society also suffers with more gangs, more assaults, more 
violence against women and children, more sexual abuse of women 
and children, and much bigger bills for jails, increased need 
for health care, supplemental education, addiction programs, 
foster care, homelessness programs and on and on. The expansion 
of all these social program budgets is directly linked to the 
breakdown in marriage.
    There is not a single area of governmental concern, not a 
single budget of a major social policy area that does not grow 
in size when marriages fail, or when parents reject each other. 
Picking up the pieces becomes not just the work of the 
fragmented family itself but of all taxpayers and the whole of 
society. The breakdown has now reached such a level as to be 
massively expensive. With these results we can say this 
cultural change--America's latest experiment with freedom--has 
been a big failure.
    Though it may seem far removed from the point of this 
hearing, this cultural phenomenon is now a foreign policy 
issue. To be the leader of the free world we need a culture 
that we are proud of, a culture that is a source of domestic 
strength and happiness.
    How do we reverse this situation?
    As a nation we need to set about restoring the conditions 
that will grow again a culture of belonging, with all the 
ingredients that go into such a culture: courtship, marriage, 
worship and communities of families that form neighborhoods 
that are nice places to come home to: neighborhoods in which 
romance, courtship and marriage are normal and frequent. Behind 
this simple goal--some might, without grasping its import, say 
simplistic goal--lies a huge amount of work especially for 
everyone, including this body.
    The Senate, which has played such a critical role so often 
in shaping the ideas that guide and correct the unfolding 
American experiment in freedom, and which has helped shape the 
ideals of this Nation so often, is now called again to play 
again its foremost role in bringing this about the changes 
needed: debate.
    We are a political nation, founded on a political ideas and 
ideals that animate our constitution and our national history. 
And the Senate is the institution designed most to be that 
place where America debates the next form of its ongoing 
experiment with freedom: more than the House, more than the 
Supreme Court, more even than the Presidency. This is the 
preeminent institution of debate in this country--so at least 
was the intention of the Founders, and so still is the need of 
the people.
    George Washington in his Farewell Speech to the Nation drew 
attention to the need for the American people to be a people of 
worship if this experiment in freedom is to work. The latest 
data show us that these families--those that worship most, are 
those that most belong to each other, that give us the most of 
what we want in all our social policies, and produce the least 
of what we try to prevent in all our social programs . . . but 
that is a topic for another hearing, one well worth having.
    When mothers and fathers belong to each other and strive to 
belong to God in worship the greatest strengths emerge and the 
least problems are present. For instance on something the whole 
country and this Senate constantly talk, and worry about, and 
spend a lot of money on--education attainment and outcomes--
children from the intact family that worships God most 
frequently has the highest Grade Point Average, while children 
from the fragmented family that worships least or not at all, 
as a group, has the lowest Grade Point Average, as the attached 
chart illustrates from the National Longitudinal Survey of 
Adolescent Health, our biggest and most comprehensive survey 
ever of adolescent outcomes. A host of other outcomes 
illustrate the same basic point.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    There is much in the scientific literature that points 
towards religious practice as a great preserver and fosterer of 
marriage and family strengths.
    Thus we increasingly have data pointing towards two 
fundamental strengths for this nation: love between fathers and 
mothers in marriage, and regular worship of God. Significantly 
both are premised on America's most fundamental premise, 
freedom: both marriage and worship can only truly happen with 
the totally free undertaking of the people involved. There is 
absolutely no room for any form of coercion in these great 
enterprises . . . hence the importance of the role of debate 
and persuasion, especially debate in the Senate.
    In this time of an obvious failure of one phase of 
America's experiment with freedom, the challenge before you, 
the leaders of this nation, is how to lead America back to 
having a culture of belonging rather than being a culture of 
rejection; to being a country where people and families belong 
to each other and especially fathers belong first to the 
mothers of their children and mothers belong first to the 
fathers. Parents belonging to each other are what children need 
more than anything else this Nation can give them.
    The first step on how to get there is being taken by 
discussions such as this. This and the debate that will follow 
among your colleagues is a major service to the whole nation.
    I sincerely thank Senator Brownback and Senator McCain for 
inviting me to testify before this committee. It is a great 
honor for me. I hope my testimony has been helpful to you.
                                ------                                

    The Heritage Foundation is a public policy, research, and 
educational organization operating under Section 501(C)(3). It 
is privately supported, and receives no funds from any 
government at any level, nor does it perform any government or 
other contract work.
    The Heritage Foundation is the most broadly supported think 
tank in the United States. During 2003, it had more than 
200,000 individual, foundation, and corporate supporters 
representing every state in the U.S. Its 2003 income came from 
the following sources:

 
 
 
Individuals                                                        52%
Foundations                                                        19%
Corporations                                                        8%
Investment Income                                                  18%
Publication Sales and Other                                         3%
 

    The top five corporate givers provided The Heritage 
Foundation with 5 percent of its 2003 income. The Heritage 
Foundation's books are audited annually by the national 
accounting firm of Deloitte & Touche. A list of major donors is 
available from The Heritage Foundation upon request.
    Members of The Heritage Foundation staff testify as 
individuals discussing their own independent research. The 
views expressed are their own, and do not reflect an 
institutional position for The Heritage Foundation or its board 
of trustees.
                                ------                                


                               Attachment

                  The Map of America's Family Culture

    The family is the building block of our society. Family is 
the place where everyone begins life and to which they always 
belong.The more that members of a family belong to each other, 
the more each individual and each family thrives. When 
rejectionoccurs in the family, especially between the parents 
when they separate or divorce, the entire family suffers.
    The following charts illustrate the dynamics of belonging 
and rejection. These charts are mainly from federal surveys and 
give asnapshot of what is occurring within America's families. 
(British data are used when there is no corresponding U.S. 
federalsurvey.) The issues of belonging, rejection, and 
indifference are powerfully illustrated in these graphs as we 
see the highest levelsof positive outcomes consistently 
occurring in the always-intact family, where the parents have 
always belonged to each otherand to their children. These 
families are less likely to live in poverty, less likely to be 
dependent on welfare, more likely to behappy, along with a host 
of other positive indicators. Further, the children in these 
families are more likely to exhibit positiveoutcomes (such as 
dinner with their family) and less likely to exhibit negative 
ones (such as depression). For the well-being of thefamily, it 
is vital that the parents always belong to each other and the 
children to the parents.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Brownback. Thank you. Very interesting thoughts.
    Mr. Campbell, thank you very much for joining us today. The 
floor is yours.

          STATEMENT OF GERALD L. CAMPBELL, PRESIDENT, 
                     THE IMPACT GROUP, INC.

    Mr. Campbell. Thank you, Mr. Chairman.
    I'd like to go beyond the data, and ask a basic question. 
Why does this crisis exist?
    Senator Brownback. Mr. Campbell, get that microphone a 
little closer to you, if you would. Appreciate that, thank you.
    Mr. Campbell. Can you hear me now?
    Senator Brownback. Yes.
    Mr. Campbell. Can you hear me?
    Senator Brownback. Yes.
    Mr. Campbell. I'd like to go beyond the data, and ask the 
question, Why does this crisis exist? What is its root cause? 
Is it crisis of material conditions and circumstances, or is it 
a crisis of the spirit? Since it strikes rich and poor alike, 
the answer seems clear. But if it is a crisis of the spirit, is 
there a unique explanatory principle to guide us to 
understanding? I believe there is.
    The principle to which I refer is the unmet need to belong. 
These words resonate with us all. They denote a crying out for 
love that springs from the depths of the human spirit.
    My focus on the unmet need to belong began 14 years ago. 
For 5 years, after leaving the United States Information 
Agency, I roamed the streets of Washington, D.C., taking 
photographic images and recording stories of homeless people. 
This work expanded to include violent youth, substance abusers, 
gang members, and a wide array of issues associated with these 
people.
    The unmet need to belong that I encountered reflects an 
inborn logic rooted in the existential depths of the human 
person. Its formal reality is revealed in a deep-seated 
yearning of the person to be united, through love--with others, 
through love and community. To authentically exist as a person 
is to coexist through love. Love constitutes the intrinsic 
meaning of human life.
    Yes, every person cries out for love. But, at the same 
time, within the heart of every person there also resides a 
spiritual inadequacy, an unconditional incompleteness. The 
chilling truth is that no human being can reconcile the unmet 
need to belong, except through the love of another person. 
That's an irrefutable logic. One may cry out to belong, but it 
is only by being permitted that an individual can transcend 
their separateness and their spiritual alienation.
    From this insight, a fundamental truth emerges about the 
root cause of the behavioral pathologies. The root cause of 
behavioral pathology, including the crisis we're discussing 
today, I believe, is rooted in the living dynamics of love and 
alienation that emanates from the existential core of the 
person. Within this nucleus, one discovers, at a single glance, 
the existential need of the person, which is a crying out for 
love and belonging, and the antithetical, yet primary, 
condition of the individual, the fact that they come into the 
world separate, that they are born alienated, and that they're 
crying out to overcome that alienation.
    It is the struggle of the need for love to transcend the 
primary condition of separateness that I think is at the root 
of all social disorders. From this originating source, we can 
arrive at the intrinsic principle, I think, that governs human 
behavior. It goes something like this. To the extent that an 
individual is alienated from another, separate from another, at 
the spiritual level, he will be intrinsically compelled to do 
whatever is necessary to create at least some semblance of love 
or community in his or her life, no matter how imperfect it may 
be or how high its cost. Spiritual alienation cannot be 
tolerated by the human heart; it must be reconciled.
    Now, when you go into the family, what is the center of 
gravity? Taking what I've just said, the center of gravity is 
the love between the father and the mother. That is the center 
of gravity for the whole thing. These relationships--the 
relationships, the intrinsic relationships, between the mother 
and the father generate, between them, a radiance of love that 
suffuses the life of the child. Joy ensues, separateness 
diminishes, and the child slowly opens to the nurturing 
potential of the civilizing virtues and an engaging life with 
others.
    I've had many people on the street tell me this, ``It's not 
the mother that I want the love from. It's not the father that 
I want the love from. What I want is to share in the love that 
they have for each other.'' This has been said over and over 
again.
    And the intrinsic logic of this is indisputable, because if 
there is no love that is really secure between the father and 
the mother, there's separateness; and that separateness also 
fragments the life of the child. And so when you have discord 
in the marriage bond, then this love becomes seriously 
attenuated in the life of the child. The child feels alone, 
feels isolated, withdrawal occurs, spiritual alienation 
intensifies, and what the child begins to do is to look for a 
new center of gravity in his or her life.
    And what happens? Well, an alienated boy may turn to 
substance abuse as a way of belonging, with a group--he'll go 
outside the family--or of numbing the pain that comes from 
being alienated. A lonely boy may be encouraged to sell drugs 
on the street by one who cares, a kind of ``big brother''; or 
he may do so just to belong. A student may disrupt class to get 
the attention that was not received at home. Or a young boy may 
commit a violent act, even murder, to get the respect of 
others. What's surprising to most people is that murders in a 
gang occur because of the love that they get when they come 
back to the gang. It's about love.
    Traditionally, public policy has dealt with material 
circumstances and conditions and a set of incentives and 
disincentives to change behavior or to change the conditions 
that underlie behavior. What I'm suggesting is that the crises 
or marriage and the family, as well as the crises of 
homelessness and gangs and substance abuse and youth violence 
and risky sexual behaviors--what I'm suggesting is that, at the 
core, these crises are a spiritual crisis.
    And this poses a serious challenge to public policy, 
because the question arises, Can public policy address a 
spiritual crisis? It has never done before--it has not been 
organized to do that. But the question is, Can it? Can it get 
to the root cause of the issue, or is it going to be content 
with addressing material conditions and circumstances? If it 
does the latter, then all that can come out of the policy is 
treatment, not prevention. Prevention requires that we go to 
the root cause, address the root cause as it is, in and of 
itself, and then we can begin to change the impact that that 
cause has upon behavior. If the root cause, as I am suggesting, 
is spiritual, then we have to have a way of addressing that 
type of thing.
    Now, the spiritual crisis that I'm talking about is not to 
be confused with a moral crisis. It is deeper. It's an 
intellectual crisis. It's a crisis of ideas. What we have in 
our society is a war of ideas in which the notions of freedom, 
or the person, or responsibility, or love, or alienation, or 
marriage, or family, or root cause, or human purpose all have 
conflicting meanings. We don't really know what these things 
mean. But they do have a meaning, depending on the perspective 
you take.
    And so what we have to do, then, is, I think, begin to 
engage the ideas that are at the root of our policy. The very 
fact that we look upon some of these problems in terms, solely, 
of material conditions and circumstances means that underlying 
this there's a philosophy involved, a philosophy of what man 
is, a philosophy of what freedom is, a philosophy of what the 
person is, what man's purpose is, and so on.
    So what I'm suggesting is four things. Very briefly, I 
think we need a new political language, a new political 
lexicon, where we can begin to develop a way of talking about 
spiritual dynamics, such as I'm talking about, as well as the 
mechanical dynamics of human behavior. There are both. They do 
both exist. If you go out and you talk to someone on the street 
about what's going on in their lives, they don't talk about 
material conditions and circumstances; they talk about love, 
they talk about alienation, they talk about relationships.
    So we need a new language. We need to recapture the word 
``spiritual'' and take it away from its association with 
religion. We need to realize that ``spiritual'' is about ideas, 
it's about things that are not material. Alienation is a 
spiritual concept. Love is a spiritual concept. Freedom is a 
spiritual concept. We need to talk to people and collect 
stories about them so we can begin to develop this language 
that describes spiritual dynamics. We need to become concrete. 
We need to humanize these problems.
    The second point is that we need a leadership that will 
begin to take this language and engage debate to encourage new 
research along these lines, new conversation to widen the 
intellectual horizons. I think a small nucleus of Members in 
the House or Senate, or both, could begin to do this. This is a 
long-term project. It's not unlike the kind of project that, 
when I was at USIA, we conducted overseas, in Eastern Europe. 
It was a 60-year project.
    Senator Brownback. Mr. Campbell, if you could conclude, 
here, I'd appreciate that, so we could go to some questions.
    Mr. Campbell. And then, finally, we have to recognize that 
the best means to address this problem, I think, is to be able 
to reach beyond programs into the hearts and minds of people 
themselves, because that is where the energy resides that's 
going to make a difference in the family. It's in the 
individual who is married, the individual who lives that on a 
daily basis. And that's why using language as a means of 
reaching out and changing the dynamics in this country is, I 
think, a different kind of approach, but one that would be 
beneficial.
    Thank you.
    [The prepared statement of Mr. Campbell follows:]

         Prepared Statement of Gerald L. Campbell, President, 
                         The Impact Group, Inc.

 The Unmet Need to Belong: Crisis of Marriage, the Family, and Culture

    Thank you, Mr. Chairman. It's a great honor to be here today.
    For over a quarter century, Americans have been generally quiescent 
as a ``crisis of marriage and the family'' has raged in silence across 
the land. No longer can this dispassion stand firm. The family is too 
troubled to concede such luxury. Its structure is fragmented. Its 
intrinsic dynamics have gone awry. Its integrity labors under great 
stress. That is our collective judgment today. That is our collective 
fear. And we struggle to make it otherwise.
A Human Tale
    Unquestionably, the story of this crisis is a sad tale. The vast 
array of empirical evidence and information presented here today 
supports that conclusion. But considered in isolation, scientific 
assessments portray a sterile and cold reality. They sketch a crisis 
disengaged from freedom and dignity, an abstract reality without human 
personality. Such is not the milieu of this crisis. Much more is 
involved. The individual is an organic unity, not a collection of 
discrete pieces. It has a spiritual center--the person.
    To appreciate the full significance of this story--and to better 
transform a destructive energy into an ethos of reconciliation--we must 
explain why this crisis exists and what efficiency, or root cause, 
creates it. Somehow we must be able to see beyond the labyrinth of 
quantitative data and objective correlations into a seething spiritual 
energy that flows quietly through the inter-subjective relationships of 
marriage and the family.
The Unmet Need to Belong
    A phrase that aptly expresses this energy is ``the unmet need to 
belong.'' These words denotes a spiritual dynamic. I first became aware 
of this need through my studies of the homeless, violent youth, 
substance abusers, gang members, and individuals engaged in risky 
sexual behavior. It is a spiritual dynamic whose presence has become 
all too pervasive and disruptive in our national life and culture.
    These words--``the unmet need to belong''--have reference to the 
authentic person. They contradict the common view that the individual 
is essentially self-contained, that it is ego-centric, that its 
relations are a matter of mere choice or convention. Instead, the 
``unmet need to belong'' symbolizes the person as intrinsically 
relational. It is a spiritual dynamic that reflects an inborn logic 
rooted in the existential depths of the person. It discloses the formal 
reality of this logic as a deep-seated ``yearning'' of the person to be 
united with others through love in community. All this goes to say that 
the very being of the person is a transcendental inclination to belong. 
To authentically exist as a person is to co-exist through love. Love 
constitutes the intrinsic meaning of human life.
    A violent teenage offender, incarcerated for murder, explained 
belonging to me this way. He said: ``To me--from what I can see and the 
life I've lived and know on both sides of the fence . . . and the 
negative things I've done and the positive things I've done . . . 
everybody needs love. I can't see in my mind where a human being could 
live without love, regardless of the ways of getting it. I'm not 
talking about whether you get it this way or that way. I'm talking 
about love in general. I think every human being needs love.''
    It is this insight into the nature of the person that enables us to 
explain why the crisis of marriage and the family exists.
The Root Cause: A Dialectic of Belonging
    Considered abstractly, the causal origins of this crisis are rooted 
in the living dynamics of love and alienation that emanate from the 
existential core of the human person. Within this nucleus, one 
discovers at a single glance the central impulse of the person--``a 
crying out for love and community''--and the antithetical, yet primary 
condition of the individual--a spiritual alienation, or separation from 
others. It is the struggle of this existential impulse to transcend the 
primary condition of spiritual alienation that forms the dialectical 
nucleus of all social disorders.
    From this insight, we can deduce the following principle of human 
behavior: to the extent that an individual is alienated from another, 
he or she will be intrinsically compelled to do whatever is necessary 
to create at least some semblance of love or community in his or her 
life, no matter how imperfect it may be, or how high its cost. 
Spiritual alienation cannot be tolerated by the human heart. It must be 
reconciled.
Example: A Mother and a Child
    To illustrate the outlines of this dialectic, let's begin with the 
most innocent of human encounters, the relationship between a mother 
and a newborn child.
    The newborn child symbolizes separateness as an original condition. 
Each person enters the world alone, spiritually isolated from others. 
But separateness is not merely a brute fact. From birth, the child has 
an innate sense of his or her separateness and struggles to mitigate 
its alienation by being accepted and loved by the mother. Its 
outstretched arms and legs, beseeching the mother for love, is a 
powerful symbol of this struggle. The mother, aware of her identical 
need, accepts this plea and extends the warmth and comfort of her 
person to the child.
    It is by virtue of this mutual gift of one person to another--each 
``crying out'' for the love of the ``other''--that both mother and 
child alleviate their separateness, their spiritual alienation. Each 
stands in a relation of gratitude to the other. A loving, enduring, and 
dynamic relationship has begun to be forged.
    As a child is brought into loving relations, they slowly open 
themselves to the nurturing potential of the civilizing virtues. In 
this way, they are set on a path that will lead to a more complete and 
engaging life with others. But, if the child is not permitted to 
belong--if the child is not the beneficiary of the gift of self, of 
loving relationships--the training and discipline necessary to instill 
the virtues will itself become a source of coercion. Slowly, ever so 
slowly, the distance between the child and the mother will increase. 
And, since love has not intervened, the child will easily retreat into 
an egocentric existence where hedonistic and utilitarian self-
indulgence can easily become a lifelong affliction.
Marriage and the Family: A Matter of Freedom
    At this point, it is beneficial to raise a question about personal 
freedom. Is the nature of personal freedom to be found in the creation 
of a self-sufficient ego--an ego that is alone and distant from the 
intrinsic life of others? Or is freedom to be more fully expressed in 
an integral self, a relational self, a self that is united to others 
through love in community? These questions are not merely about matters 
of choice. Rather they are about the intrinsically relational nature of 
the person and the ``unmet need to belong.''
    If freedom is reflective of egocentric, self-contained existence, 
it follows that the structure and living dynamics of the family will 
become a fractured totality. It will degenerate into increasing 
fragmentation. The family will be akin to a conventional organization 
of individuals, related by mutual interests, but characterized by 
individual autonomy, like so many billiard balls on a table. It will 
lack intrinsic cohesion.
    But, if freedom has an intrinsic relationship to the person and 
``the unmet need to belong'', it will realize itself through the 
building of loving relationships. Family unity will reach into the 
inner being of the person. It will evolve as a community of love. It 
will be intrinsically spiritual and replete with richness.
    And so, the fundamental question that will determine the future of 
marriage and the family can be stated this way: What shall we do with 
our freedom? Shall freedom be intrinsically relational and, like the 
person, be enriched with love, or should it reflect the autonomous 
individual and remain self-absorbed?
Love: A Center of Gravity
    The center of gravity in the family lies in the quality of 
intrinsic relationships that unite husband and wife. These most 
intimate relationships range all the way from the gift of self through 
love, truth, justice, fidelity, and solidarity to simple helpfulness 
and mutual associations of domestic life. When qualitative 
relationships cement the existential reality of husband and wife, a 
radiance of love is generated and suffuses the life of the child. The 
``unmet need to belong'' in the child finds a degree of fulfillment and 
separateness diminishes. A degree of restfulness ensues.
    But when love does not unite husband and wife, the radiating 
presence of love to the child becomes seriously attenuated. The child 
is automatically placed in the position of the autonomous self. The 
loving bonds within the family, bonds that alone can alleviate 
existential aloneness, are fractured or weakened. The child feels alone 
and isolated and, because of the intrinsic dynamics of ``the unmet need 
to belong'', begins a new, possibly destructive, journey. The look for 
a new center of gravity begins.
Emergence of a Secret Life: A Dialectic of Indifference
    Alienated by a fractured relationship between mother and father, 
young persons begin to look outside the family for love and 
understanding. They begin to form their own social networks, their own 
support groups, their own friends. They enter into dialectical 
relationship with strangers, defining new needs, developing new 
interests, and discovering new ways of alleviating internal conflicts. 
They engage in give and take with others. They make an advance here and 
a retreat there. The art of compromise evolves and erosion begins to 
eat away. Little by little, the dynamics of existential yearning forge 
a new inner substance, a new consciousness, a new set of sensibilities, 
a new moral horizon, and a new set of behavioral imperatives.
    Out of these convulsions, the young develop a keen sense of what 
acquires duration for them, of what satisfies their felt needs and 
perceived good. They struggle to balance unfulfilled desires and outer 
demands. They seek to resolve internal conflict. They reach out for 
approval with others. They want to be included and accepted. They want 
to be recognized as something special. They want to stand out. Above 
all, they want to be loved and, in particular, they want to be loved by 
someone they cry out to love.
    Having judged carefully how to fit in, how to belong, how to be 
united with others, they become less and less constrained from within. 
They become more and more open to entreaties from without. Tomorrow's 
hopes and dreams often collapse and find expression in today's needs. 
Time stops its seemingly intractable flow to the future. Its 
continuity--a flow of past, present, and future--is dissolved into 
discrete moments, each slightly tinged with hedonistic seductions, each 
crying out like a siren song laced with the lure of pleasure, 
advantage, or other reward. Time has become the here and now. But it is 
a here and now that is not only deceptive, but also alluring, 
imperious, and dangerous.
    Bit by bit, this nascent web of relationships begets a secret inner 
life, a haughty life that swallows up previous innocence. A new, 
clandestine, and seductive center of gravity emerges. It is driven by 
the existential need to belong. Yet this need has an elusive side and 
can easily tempt one to descend into a darkness where impersonality and 
servitude take command. Here, where the allure of authentic 
relationships was anticipated, only existential retribution and sorrow 
is to be found.
    For our part, we notice in our children traces of silent 
disengagement. We perceive in them qualities and dispositions that 
never were--the brooding, the vacant smiles, the ill humor, the 
crankiness. We perceive subtle departures in attitude, interests, and 
behavior. We discern an unpleasant indifference to past friends and 
activities that once caused happiness and joy. We detect vague 
incongruities between the past and the present.
    We take note of these changes, but confusion clouds our thoughts 
and fear forces a wavering judgment. We are flushed with uncertainty 
and torments of doubt. Seeing only through blurred outlines, our hearts 
refuse to acknowledge that we have arrived at the crossroads. We resist 
suggestion that our children have retreated into the distance. We seek 
solace and strength in what remains familiar about them. But we also 
take notice that a subtle metamorphosis has occurred. Something about 
them is different. Something about them is troubling. Yet, we fail to 
realize that we cannot penetrate the obscure shadowy depths of their 
now secret lives. Without ever knowing what has happened, they have 
become lost to us. They have become strangers.
    This same dialectic can be written of either husband or wife. It is 
an existential dialectic that flows out of the intrinsic structures and 
dynamics of the human person.
The Human Person: A Spiritual Inadequacy
    The chilling truth is that, like the helpless infant and the young, 
no human being can reconcile spiritual alienation--``the unmet need to 
belong''--except through the love of an other. One may cry out to 
belong, but it is only by being permitted that an individual can 
transcend their separateness, or spiritual alienation.
    The simple truth is: within the heart of every person resides a 
spiritual inadequacy, an unconditional incompleteness. No individual, 
regardless of socio-economic or other conventional status, has an 
intrinsic capacity to become self-sufficient.
    The mythology of the self-contained individual--a myth that shapes 
and distorts much of our culture and socio-economic life--is only a 
mask that enshrouds an inner emptiness and aloneness. It is the same 
mask worn by Citizen Kane whose lust for power denied him the 
fulfillment he sought. It is the mask worn by Tom and Daisy in The 
Great Gatsby. It is a truth that permeates the paintings of Edward 
Hopper and the photographs of Robert Frank. It is the cry of anguish 
unleashed by the spirituals of the cotton picker, the pain of the rural 
and urban Blues artist, the social voice of 1960s R&B, and the modern 
prophets of the street, the poetic artists of Rap and Hip Hop.
    Neither power, nor wealth, nor reputation can free a man from this 
aloneness. Behind every Horatio Alger story is a human tragedy waiting 
to unfold. Only love is liberating. Only love can make man free.
    Only by being permitted and affirmed through the love of the other 
can alienation be mitigated and the person made whole. Such is the 
intrinsic logic of the human person. Such is the intrinsic logic of 
freedom. Such is the intrinsic logic of marriage. And such is the 
intrinsic logic of the family.
Impact of Spiritual Alienation: The Stories of Youth
    The impact of fractured relationships between husband and wife--
father and mother--on the spiritual life of the child is immense. 
Examples abound. An alienated boy may turn to abusive substances as a 
means of belonging to a group or of numbing the pain that comes from 
not belonging. A boy or girl may join a gang as a substitute for the 
family he or she never had. A lonely boy may be encouraged to sell 
drugs on the street by one who cares--a kind of big brother--or he may 
do so just to belong. A student may disrupt class to get the attention 
that was not received at home. A young girl may decide to have a child 
in order to love and to be loved. A group of estranged teenagers may 
steal a car to satisfy their need to be with others and, in doing so, 
will test and verify the strength of their bonding. Or a young boy may 
commit violent acts--even murder--in an attempt to gain the respect of 
others.
    The following are excerpts taken from recorded, free-flowing non-
structured conversations I've had with troubled youth. They, each in 
their own way, underscore the spiritual dynamic of ``the unmet need to 
belong.'' Here's one:

        ``My biological father, he was never around. He had his own 
        house . . . he had other kids. So . . . he came around only on 
        holidays. I called them holidays because that's the only time I 
        see him at all. And when I'd call . . . try to go over to his 
        house . . . it was no, or wait, or something. He was rejecting 
        me all the time and when I wanted to go places with my mother 
        or my stepfather it'd be the same thing--rejection!''

    Here's another:

        ``I'd rather be with people I didn't know . . . because they 
        seemed to care about me more than my own family cared about 
        me.''

    And another:

        ``My family didn't care so I'd just do my own thing. All my 
        attention . . . everything was towards gangs. That's all I 
        wanted . . . gangs were my life, you know what I mean, because 
        I loved them and they loved me.''

    And another:

        ``I committed my crimes because of him . . . because I wanted 
        that acceptance from him. And that's where a lot of crimes come 
        from . . . they want acceptance from other people. They want to 
        feel big and be seen as being big in the eyes of others. They 
        don't want to be seen as scared, or weak, or feel rejected by 
        anybody. Because that's what they're scared of--scared to be 
        alone!''

    And another:

        ``Separating teen pregnancy, substance abuse, gangs, and 
        violence is a waste of time because I've got them all in my 
        life. They all revolve around the same thing . . . it all 
        revolves around love . . . that's all I really needed. I gang 
        banged for love and attention. I did drugs because I was lonely 
        and needed some understanding. I did violence to gain the love 
        of someone else. I got females pregnant because I wanted love 
        and attention. So, they all stem from the same thing . . . love 
        and understanding.''

    And finally:

    ``And I'd tell the parents--get to know your kids . . . get to know 
us . . . ask us about us . . . ask the kids: `Who are you, really.' 
They might think it's a joke at first, but just ask them: 'Who are you 
really.' What do you like? What kinds of things do you like to do? What 
don't you like. What do you want to be in life? How do you feel? Am I a 
good parent to you? . . . Listen to them when they say: `I don't feel 
that you love me enough. I don't feel that you give me enough 
recognition. Can you understand what I'm going through.' . . . Talk to 
them. Understand the kids. That's all parents need to do. Just get down 
to their level.''

    Lest we have forgotten, let met state in concise terms what is at 
issue in these stories: whenever a nation's young people become 
spiritually alienated, the collective future of the entire society--
including all that for which preceding generations have struggled and 
died--is called into question.
    To be sure, the precise way these spiritual forces might impact 
tomorrow cannot be foretold. But we can reasonably expect that whatever 
happens will neither be desirable nor welcome.
Culture and Society: An Ethos of Spiritual Alienation
    To an extent that would have seemed impossible only a few decades 
ago, America has been transformed by spiritual alienation. Individuals 
today carry greater burdens in their hearts than they do on their 
backs.
    Reflect for a moment. Who is unaware that our national language has 
become coarse and shrill, self righteous and judgmental? Who is unaware 
that our legal system has become excessively litigious, that 
competition takes precedence over cooperation, that bureaucratic 
control prevails over genuine human interaction? Who is unaware of the 
pervasive atmosphere of cynicism and distrust, violence and fear, 
intemperance and injustice, isolation and aloneness, spiritual 
emptiness and indifference?
    All these are forces of spiritual alienation. They dishonor our 
national life. Yet they are the spiritual dynamics shaping our future.
    Plato argued: ``the state is man writ large.'' This statement could 
be amended to read: ``the state is marriage or the family writ large.'' 
Whatever happens in our own lives, and the relations that govern 
marriage and the family, also takes place in the state or culture. 
Conversely, if there is an ethos of alienation ranging throughout 
society and culture, a dialectical exchange will penetrate the family, 
impacting the relationships between husband and wife, father and 
children, mother and children, and even among children. It will suffuse 
and fragment the general life of the entire family.
    The exigencies of the ``unmet need to belong'' flows through the 
family and into society and the culture. Once outside the family, they 
shapes our relations with other individuals. The same dialectic 
continues on a new battlefield. Children want to be accepted by their 
friends. Parents seek acceptance outside the home. The person who feels 
alienated at work, brings that alienation back into the home. The child 
who is bullied at school becomes alienated and seeks refuge wherever 
possible. Each person struggles to find a way to belong with whomever 
they associate. The struggle to belong is the central quest of life.
    Even ideas impact the structures and dynamics of society and the 
relations between husband and wife, mother and father, and children. 
And they determine the formation of the child. They do so by defining 
our aspirations and goals, and the meaning of the freedom and dignity 
of the human person. They define our sense of responsibility and our 
future. The utilitarian notions that define success in society, and the 
hedonistic notions that define pleasure, are brought into the home and 
affect relationships within the family. Our common practical 
materialism places primacy on having and doing over being, on things 
over persons, on subservience over personal creativity, on manipulation 
and control over openness and service to others. Our understanding of 
the quality of life emphasizes economic efficiency, excessive 
consumerism, physical beauty, and pleasure over spiritual qualities.
    There should be no doubt. Ideas have consequences. Insofar as they 
promote spiritual alienation, ideas have the capacity to seep turmoil 
into the life of the person, unleash fragmentation into the dynamics of 
marriage and the family, and effect widespread disruption throughout 
society and culture. Yet, insofar as they promote loving relationships, 
they have the capacity to heal the spiritual alienation and rid the 
aloneness that undermines personal existence.
Decisions: The Concreteness of Spirituality
    The question of personal freedom was raised earlier. It must be 
raised again. What are we to do with our freedom? How shall we exercise 
creativity? Shall freedom be used to create a self-sufficient ego, 
alone and distant from the intrinsic life of others? Or shall freedom 
heed the intrinsic call to belong and create an integral self made 
whole by the love of others? Is the human person intrinsically 
relational or merely an opaque density? These are our choices. Only one 
choice is responsible. Only one leads to freedom.
    The crisis of marriage, the family, and culture is a spiritual 
crisis. To alleviate this crisis, we must choose. But simple practical 
choices will not suffice. Success requires that choice be proportionate 
to the nature of the crisis. For this reason, the choices to be made 
must be spiritual.
    But, what are spiritual choices? What do they look like? Are they 
something set apart from other choices?
    The answer is simple but difficult to grasp. In essence, spiritual 
choices are about the quality of relationships we establish with 
others. They give a dimension to choice that either generates 
alienation or qualitative relations with others. They bring an aspect 
of transcendence to the concrete.
    Alienation or love, aloneness or brotherhood, indifference or 
compassion, emptiness or purpose, pride or humility, judgment or 
mercy--these contradictory qualities depict the unavoidable spiritual 
choices each person must face in every concrete situation and every 
moment of their lives. Whether rich or poor, socially placed or 
displaced, educated or uneducated--whether Caucasian, Afro-American, 
Hispanic, Asian, or Native American--each person must struggle along an 
inescapable yet perplexing path in order to come to terms with these 
transcendent and universal challenges.
    There is an unavoidable concreteness to these spiritual choices. 
Indeed, spiritual qualities constitute the very substance of every 
thought we consider, every action we undertake, and every relationship 
we establish. Too often we forget how concretely it matters whether our 
thoughts, actions, and relationships are suffused with alienation or 
love . . . indifference or compassion . . . judgment or mercy. And yet, 
it is the dialectical clash of these destructive and perfecting 
qualities that shapes our lives, shape our marriages, shape our 
families, and impact the lives of whomever we encounter.
    A display of personal indifference will not only sour one's own 
life. It can easily cause radical and enduring disruption in the lives 
of others. And, when the dynamics of alienation gain the ascendancy and 
begin to ripple throughout society, they can easily acquire the 
momentum to unleash a collective intensity that can quickly fragment 
and distort the spiritual fabric of a marriage, the life of a family, 
the integrity of our Nation's most fundamental institutions, and the 
``living dynamics'' of our entire society.
    Freedom, like the person, also depends upon the quality of 
relationships individuals have with one another. Wherever spiritual 
alienation exists, freedom--and the person--have already been 
diminished.
The Crisis of Marriage and the Family: A Crisis of Public Policy
    The crisis of marriage and the family poses a serious challenge to 
public policy.
    Traditionally, social policy has rested on two practical 
assumptions. The first is that causes of human behavior are correlated 
to the material conditions and circumstances of the individual. The 
second is that behavior can be rectified through the management of a 
complex system of material incentives and disincentive whose purpose is 
to alleviate the impact of risk factors on the life of the individual.
    These assumptions are adequate for a treatment strategy. The 
material conditions and circumstances of the individual can indeed be 
changed and the life of the individual be improved. But they are 
inadequate as a foundation for a strategy of prevention.
    Prevention requires, more than anything else, a clear apprehension 
of the nature and root cause of the threat in question. Without a 
substantive articulation of these formal and efficient elements, there 
will invariably ensue an incongruity of means and ends, and a failed 
result.
    But, here lies the critical challenge for public policy. The crisis 
of marriage and the family--not to mention a host of other behavioral 
problems, including: homelessness, substance abuse, youth violence, 
gangs, and risky sexual behavior--is a spiritual crisis. It is a crisis 
rooted in ``the unmet need to belong.''
    The question is: can public policy address a spiritual crisis? Can 
it complement its characteristic focus on improving the material 
conditions and circumstances of the individual and begin a new 
initiative that will enhance the quality of relations among persons? It 
is my judgment that it can.
Towards a Strategy of Prevention
    The crisis of marriage and the family--a spiritual crisis--is 
essentially a crisis of intellect and of truth. It is at bottom a ``war 
of ideas'' in which fundamental notions like freedom, the person, 
responsibility, love, alienation, marriage, family, root cause, and 
purpose have conflicting meanings. Yet, these contradictions are never 
discussed or even acknowledged in policy debate. Whether the person is 
intrinsically relational or not makes a fundamental difference in how 
issues are addressed. Yet, those differences are never addressed. The 
same can be said for other ideas such as freedom, responsibility, and 
so on.
    To address this crisis--and to prepare the way for a strategy of 
prevention--it seems to me four things must be addressed:

        A. A New Political Language Reflecting the Spiritual Dynamics 
        of 
        Behavior

        There is a great need to enrich our political lexicon by making 
        way for a new political language that includes a recognition of 
        the contribution of both spiritual dynamics and mechanical 
        dynamics, including their interrelationship. An understanding 
        of the spiritual dynamics of love and alienation is as 
        important to comprehending social dysfunctions as are 
        correlations, material conditions. and circumstances. We also 
        need to reclaim the word spiritual--and disassociate it from 
        its religious connotations--so that we can meaningfully debate 
        in the public forum the intrinsic dynamics of such ideas as 
        freedom, the person, responsibility, belonging, love, 
        alienation, dignity, and their impact on human behavior and 
        interaction. The intrinsic content of these ideas is as 
        critical for understanding policy issues as are extrinsic 
        factors. Policy debate would be further enriched if, as the 
        debate deepens, there is an effort made to reach out to the 
        creative community--the artists, lyricists, dramatists, and 
        others. They are keenly aware of the cultural and spiritual 
        dynamics that operate in our society and culture.

        B. A New Political Leadership

        Armed with a new political language, policy debate in the 
        Congress on critical issues like marriage and the family--and 
        homelessness, youth violence, substance abuse, gangs, risky 
        sexual behavior, and even obesity--will begin to take on new 
        meaning. New questions would be asked at hearings. A new body 
        of knowledge would emerge. Research would be encouraged along 
        new lines. People never before involved in public policy--
        philosophers, artists, musicians, experts in culture, for 
        example--would enrich the debate. Intellectual horizons would 
        expand. New possibilities for action would emerge. The 
        constraints that currently stifled public policy would be 
        lifted. Individuals would become engaged. A small nucleus of 
        Members of the Senate and the House would be sufficient to 
        begin the development of this language.

        C. Mass Means of Communication

        As a new language is developed and utilized, new ideas would be 
        introduced into the public forum. Senate and House resolutions, 
        Member's speeches, floor statements, Dear Colleague letters, 
        Special Orders, and other means of congressional 
        communications--much of which is transmitted over the C-Span 
        television network--could be employed. This language would 
        engender a dialogue among religious, community service 
        organizations, business, fraternal and student organizations, 
        government agencies and departments, and think tanks. A new 
        dialectic of ideas would emerge. Over time, ideas would be 
        circulated through newspapers, magazines, television, radio, 
        drama, musical lyrics, and other modes of expression that 
        impact popular opinion. A national dialogue would evolve.

        D. Hearts and Minds

        Ideas sufficiently profound would strike a resonance with the 
        ``hearts and minds'' of individuals throughout the country. The 
        more profound the more striking the resonance. The ``cry for 
        freedom''--an idea located in the mysterious depths of the 
        human spirit--resonated throughout Eastern Europe and the 
        Soviet Union and unleashed a democratic revolution that is 
        still ongoing. In a similar way, a new political language of 
        community will reach beyond institutions and programs into the 
        ``hearts and minds'' of individuals. It can have a profound 
        transformative effect on the spiritual dynamics of the person, 
        the family, the society, and eventually the culture. In this 
        way, untold energies would become involved in bringing about 
        change.

    In conclusion, let me admit that many will judge the prospects I 
have set forth to be overly ambitious and insufficiently practical. And 
that should come as no surprise. History records that the ``hounds of 
cynicism'' are always on guard along the pathway to human betterment.
    And yet, it would be wrong to allow ourselves to be deterred by 
these forces. Cynicism should be challenged wherever it is found. 
Indeed, a mighty and revolutionary power already lies dormant within 
the spiritual depths of each individual--within their hopes and dreams, 
their existential desires and talents, and their intrinsic ``crying 
out'' to belong with others through love in community--and this 
spiritual potential is waiting patiently for the trumpets to call.
    If we can begin to tap into that source of strength--and introduce 
subtle changes in the prevailing assumptions that shape how we think, 
act, create, and relate to one another--a new creative dynamic can 
slowly be unleashed that will give greater substance and new creative 
energies to the living dynamics of our families, our neighborhoods, our 
institutions, and our entire society. Such is the power of dialogue in 
the hard practical life of man.

    Senator Brownback. Thank you, Mr. Campbell. And that's a 
very thought provoking and, I think, accurate description--
discussion.
    Mr. Fagan, I want to go to yours first. I was looking at 
that chart that you put in the first of your testimony of where 
we were in the 1950s, 1960s--early 1960s--and then this thing 
just takes off like a rocket on the number of children--for 
every hundred children born, those experiencing--you title it 
``rejection'' from their family, it goes on a virtual direct 
ascent forward. What happened, then, that caused that to occur?
    Mr. Fagan. Could I have the Encyclopaedia Britannica 
length?
    Senator Brownback. But, I mean, there obviously must have 
been something in this period of time, because you're going 
from 1962 to 1972, a ten-year time period, and you go from 20 
percent of the children experiencing family rejection to 50 
percent in a ten-year time period.
    Mr. Fagan. Sure. I think one of the central, but, by no 
means, the only--each one, each issue, was built on something 
that leads before that's underneath. But on the behavioral 
level, which is the most surface of all, the huge difference 
that happened here--Francis Fukuyama, in his book, The Great 
Disruption, which is probably the biggest analysis of these 
trends, not only in this country, but right across the 
developed West--the thing that he, from regression analysis, 
regression upon regression, pinpoints, is a sexual revolution 
occasioned by the development of mass marketing of 
contraceptives of many different sorts, which then changed the 
nature of the sexual relationship, the relationship between the 
sexes, and the orientation of marriage away from being just 
within--our sexuality just being within marriage, to, 
essentially, it moving outside. And I would be inclined to 
agree that that was one of the big phenomena. Now, what caused 
that is a--you can keep going back further. But that is the 
huge attitudinal, behavioral, market, economic, sex role, 
marital--within marriage, outside of marriage--phenomenon that 
occurred.
    Senator Brownback. Ms. Waller, would you agree with that?
    Ms. Waller. I think it's something more than that. And some 
of the folks on the last panel--some of the last panelists, I 
think, addressed some of those issues.
    I would commend to you a summary of the literature that I 
cite in my references, which was prepared by some of the 
researchers at the University of Michigan, and they identify a 
number of explanations for the decline of marriage mentioned in 
the last panel.
    Senator Brownback. But I want to get right--if we could--if 
you could focus in on that number of children that are then in 
a either out-of-wedlock or divorced situation and how it just 
took off in that ten-year time period.
    Ms. Waller. Your question goes to what was the cause?
    Senator Brownback. Yes, what happened there?
    Ms. Waller. Well, I still think--I think women's economic 
independence was an important factor, a change in social norms 
about the expectations regarding sex outside of marriage, 
cohabitation outside of marriage, divorce itself, a changing 
expectation of what marriage means to couples--that is, whether 
it's about economic dependence, which I think it had been for 
quite a long time, to an expectation that there should be 
something for both individuals, a kind of a compatibility, 
relationship satisfaction. The standards are higher.
    In some communities, particularly in low-income African-
American communities, I think the lack of what would be called 
``marriageable men,'' those men who have jobs or have good 
economic prospects, was another factor.
    Senator Brownback. Are there policy issues we could do now 
to take this number down from the nearly 60 percent level, Mr. 
Fagan, that we could see that number go down as precipitously 
as we saw it go up?
    Mr. Fagan. Well, if you define policy in its broadest 
sense, the way I would, but a sense that I don't think 
government normally defines it, which is the strategy one 
takes, even the cultural strategy, the fundamental ideas--
normally when we talk about policy we're talking about 
individual programs packaged together to deliver goods.
    And actually if you look at the evaluation research on 
this, it is a sad and sorry state. Evaluation research on how 
good government is at doing these things is not good.
    I was Deputy Assistant Director at ASPE, Planning and 
Evaluation, and I remember getting a cross section of the staff 
together when I first went there to look over precisely in this 
social-policy area. And we got together once a week for about 2 
months. At the end of 2 months, I did--I broke a rule 
deliberately. I said to the staff, ``Look, you know I'm a 
conservative Republican, and I suspect most of you are good 
liberal Democrat bureaucrats. And the only reason I bring that 
up is, I may be biased. Tell me what's working.'' Zero. The 
staff could not find--and ASPE probably is the biggest 
repository of evaluation data.
    Now, there are some thing where--I didn't go in looking for 
that. I come out of a background as a clinical psychologist, 
working in programs, knowing there are certain things that 
work. But when you get to the macro level of Federal and state 
government, it is a very sorry state in government's capacity 
in policy to effect changes behaviorally here--that what I 
think is probably going to be much more effective is a change 
in the culture itself. Dr. Nock did refer to that the 1950 were 
very--were probably, you know, a halcyon era, where things are 
very good.
    But there was, before, a great breakdown in marriage, in 
the 1800s. And then it came right back up again. We've seen 
this. And if you look further back over history, there are 
things in the culture, totally outside government, where 
leaders led, not through programs, but through ideas. The ideas 
that take hold are much more powerful than any government 
program, in my estimation.
    So that's why I suggest that actually the biggest program 
is a debate here in the Senate, to flesh out and change the 
ideas. Whatever ideas are controlling us, are dominant, are 
clearly not working for the best for our children. We bought 
into, we're locked into ways. We maybe--programs may tinker 
around the edges. It's not a strategic sea change in the way 
we're approaching. And that, I think, is where, I would 
suggest, Mr. Campbell is touching on some of these deeper 
things. But that is very much in the culture. And the role of 
the Senate, I think, would be to head toward those things which 
would provoke a much wider debate by raising these issues, 
these deeper issues.
    When I put the--if I put the research in terms of structure 
and correlations, as the chart book that I have as the extended 
testimony, I get resistance from people who are out in the 
field working, good social workers who are probably, at the 
core, liberal on policy, using the political terms, than I am. 
But if you put it in the deeper terms of belonging and 
rejection, their attitude toward the data totally change; the 
capacity to talk about these deeper things is very, very 
different because you're getting to more universals.
    People know that rejection never helps anybody. There's 
nobody who has been improved or strengthened by being rejected. 
We know it in the workplace. It makes us more anxious, makes us 
less productive. We know what it's like at home. We know what 
it's like when it happens between friends. All of these things 
weaken us, weaken us socially. What we do grow in strength by 
is when we're together.
    So to come back to your question, What can people begin to 
do to be more aware of how they drive wedges between themselves 
and increase the probability of rejecting each other? What are 
the ways you've got to build belonging to each other within 
marriage and outside of marriage? There are lots of things in 
the data. I think the data and the research is very 
provocative. Clearly, what I'm saying is not something that 
everybody would agree with. But that itself, I think, is reason 
for engagement in debate, because we do have to change the 
ideas that are leading us to have 60 percent of our children 
reaching age 18 without ``mom and dad.'' And behind every one 
of those is that rejection.
    Senator Brownback. You know, it's--I mean, it seems to me 
that that's a key reason and a thing that we've got to start 
talking about in here. And you raised that we need to have a 
debate in the Senate. I think we clearly need to have a big 
discussion on this as a nation. And the data's here, it's in 
every family. My--you know, you see it everywhere.
    Mr. Fagan. It's in every family, yes.
    Senator Brownback. And, you know, the closer you are--and 
I'm close to a number of people that have had this sort of 
alienation. It is so tough. And yet then we pretty quickly 
break it out into partisan categories, ``OK, I'm going to win 
on this one, and you're going to lose on that one,'' and then 
we're back in the soup here of what we know best how to do, 
which is fight with each other, but where we generally get the 
least amount of results. But if you could back up and just say, 
``You know, wait a minute, none of us like where this situation 
is today. This just isn't good. It isn't good for society, it's 
not good for America, it's not good for the world, it's not 
good for kids, it's not good for anybody,'' OK, what--how do we 
unravel the fight position that everybody gets in, and how do 
we get to a more basic stance of--I mean, we've got a big 
problem here. How would you start to really engage that?
    Mr. Campbell, I'm very taken by your thoughts. I think 
they're accurate. I also see them in my state. We had a survey 
a couple of years ago in the New York Times. They were 
surveying high school students about suicide. And half of the 
kids in high school that they had surveyed either knew somebody 
close that had committed suicide, or they themselves had 
thought of committing suicide. And I thought, well, that's--
that might be New York's survey, but it isn't Kansas. So I 
started doing a bunch of high school meetings, and met with 
senior classes in different places across the state. The same 
number. It's about half.
    And I was just--I was stunned at it, at first, and then you 
just ask the students just a little bit, ``Well, why? Why are 
you even thinking about suicide? I mean, you live in the 
greatest nation on the face of the Earth, you've got 
opportunities, you've got your life ahead of you.'' And almost 
all of them would come down to some real alienating thing 
inside of them, you know, ``I broke up with this person. I 
don't know where my Dad is. I this, I that,'' and it was just--
it was a real deep interior spiritual alienation that was there 
within them. And they'd cry. They'd cry right there in front of 
me.
    The principal of the high school would be astounded that 
this is going on in his own school, or her school, and she 
didn't even know about it, like it was--it was like this thing 
that was so obvious, but nobody would even dare touch it, 
because, ``How do I deal with this?'' Just they--they didn't 
know how.
    And so I'd get--a lot of times, the school administration, 
afterward, would be apologizing to me, and say, ``Well, I don't 
know if these kids really know what they're talking about. I'm 
not sure about this or that.'' And when you really look at it, 
it was enormous, and a huge impact.
    I hope these hearings can maybe start us on some sort of 
new level of discussion about this. Actually, I think the 
debate we're engaged in on the institution of marriage across 
the country in the issue of same-sex unions is, in a way, going 
to probably stimulate the debate here that we've not seen 
stimulated for 40 years. But this has been building, it's a 
trend, and now we've got an enormous issue in front of us. And 
I think you're going to see people start to talk a lot more 
about that central alienation that we've had grown between the 
marital union that's happened.
    Mr. Campbell. What's interesting about suicide is that if 
you take the 12 years of the Vietnam War, you had 54,000 
deaths. But if you take a 12-year comparable period, the number 
of suicides in the United States is around 360,000.
    Senator Brownback. In just this--what, this last 12-year--
or the most recent 12-year cohort?
    Mr. Campbell. Just take--I did this about 4 or 5 years ago. 
But the rhetorical question, you know, Why is it that we are a 
country who has so many people committing suicide? And then 
when you take homicides, when you put that with it, it's a huge 
number. And yet, at the same time, we are blessed with all 
these material, you know, circumstances. And so there's 
something deeper going on, and it seems like there's an 
incongruity between what we are looking for inside and what we 
can express outside, and that leads to all kinds of things. 
And----
    Senator Brownback. Well, we are both physical and spiritual 
beings, and we're much better at addressing the physical than 
we are the spiritual being, and that's always been a difficult 
debate in this country.
    Mr. Campbell. Could I make one more point?
    Senator Brownback. Yes, please.
    Mr. Campbell. Very quick? The reason why I got--when I was 
involved with the United States Information Agency doing public 
diplomacy, the reason why I got involved in the homeless was 
because people overseas were concerned--that we brought here--
wanted to see the homeless. And they had never been here 
before. And that struck me as very important, because, in 
talking with them, I found out that what was happening was that 
we were transmitting pictures of the homeless, and then gangs 
and violence, overseas, that we were very quietly presenting to 
the world a different image of this country than they had ever 
seen before. And when you begin to talk about terrorism and the 
conflicts that we currently have, part of what this is all 
about is that we are projecting something that isn't very 
pretty to the world, and they see it on a day-to-day basis.
    And so what we're talking about here has national-security 
implications.
    Senator Brownback. Oh, it does. As I travel around the 
world, you get a number of people commenting on the U.S. 
culture, as much as any of it.
    Thank you very much. You remind me of a gentlemen I met in 
Marysville, Kansas, who was 107 years old. And I got to meet 
and talk with him. He had served in World War I. His son was 
there, and took me in. And his son was not a spring chick, 
either. When your dad's 107, you're not going to be young 
either. But I asked him, I said, ``What's the biggest thing 
you've seen change in our country in the years you've been 
here?'' And he didn't have to think at all. He just said, ``You 
know, the thing I've seen change is that when I was younger we 
had a lot less, but we were a lot happier.'' That was his 
conclusion of the years that he had observed. And I thought, 
there's something wrong with that picture if that's the case.
    And we really do need to have a good debate, and we need a 
good language about it. And, frankly, I don't think it's much 
of a debate, more than it is, How do we find common ground to 
move on and address this?
    You've all been very helpful. I appreciate that. I am 
hopeful we can talk about these issues much more in much 
greater depth, and address them.
    Thank you very much for coming. The hearing's adjourned.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Testimony of the Children's Defense Fund on the Impact on Children of 
                 Proposed Federal Marriage Initiatives
    Mr. Chairman and Members of the Subcommittee:

    The Children's Defense Fund (CDF) appreciates the opportunity to 
submit this testimony on the issue of proposed Federal marriage 
promotion initiatives.
    CDF is a leading private, non-profit organization with a more than 
30 year history of advocating for children, particularly poor and 
minority children and those with disabilities. The mission of CDF is to 
Leave No Child Behind and to ensure that every child has a Healthy 
Start, a Head Start, a Fair Start, a Safe Start, and a Moral Start in 
life as well as successful passage to adulthood with the help of caring 
families and communities. Under the leadership of Marian Wright 
Edelman, CDF's President and Founder, the organization has been a 
strong and effective voice for those who cannot lobby or speak for 
themselves. Issues of family structure are of vital interest to CDF, 
given the importance of family in the lives of children and the 
influence of parents on children's well-being. As such, we feel it is 
critical to thoroughly examine the advisability and likely effects of 
President Bush's proposals to invest Federal resources in marriage 
promotion.
Background on the Administration's Marriage Promotion Proposal
    In the Personal Responsibility and Work Opportunity Act of 1996, 
promoting marriage was defined as one of the major purposes of welfare 
reform. However, because states were not required to spend Temporary 
Assistance for Needy Families (TANF) funds on marriage programs, they 
were granted significant flexibility in meeting this goal. Throughout 
the TANF reauthorization debates of 2002-2004, the Bush Administration 
has been much more insistent in advocating for marriage promotion to 
play a more central role in welfare programs. Reauthorization bills 
recently passed by the House of Representatives and awaiting action on 
the Senate floor each propose to spend $1.6 billion over five years to 
promote marriage, including matching funds that states must provide out 
of already-stretched budgets. Allowable uses of marriage promotion 
funds include activities such as research, demonstration projects, pro-
marriage public advertising campaigns, programs in marriage education 
and divorce reduction, and marriage mentoring. Both the House and 
Senate bills also mandate that in order to participate in TANF, states 
must have a marriage promotion program and must set ``specific, 
numerical, and measurable performance objectives'' for meeting program 
goals. At the same time as this money was being dedicated toward 
promoting marriage, efforts to include or increase funding in TANF 
bills for basic income support programs with proven effectiveness in 
helping families (such as transitional jobs, tribal welfare programs, 
and childcare) have been opposed or defeated by the Administration and 
some Members of Congress on the grounds that these investments are not 
necessary and that there are not enough funds available.
    In addition to the proposal to redirect TANF funds for marriage 
promotion activities, the Department of Health and Human Services (HHS) 
has already begun to spend significant resources on marriage promotion 
by redirecting monies from programs whose purposes are only 
tangentially related to issues concerning marriage. Roughly $100 
million in grants and contracts is being awarded for this purpose using 
funds appropriated for the Child Support Enforcement Program, the 
Refugee Resettlement Program, Child Welfare Programs, and the (Native 
American) Social and Economic Development Strategies Program, among 
others. Shifting funds from proven strategies and critical work 
supports such as child care into marriage activities that do not have 
the same likelihood of meeting the needs of the TANF population is of 
enormous concern to CDF.
Social Science Research on the Effects of Marriage
    The base of social science research on marriage has grown 
dramatically in recent years. A consensus has emerged that healthy 
marriage appears to be related to some positive outcomes for both 
children and adults. A significant body of research demonstrates that 
children living with their married biological or adoptive parents are 
less likely to experience poverty, food or housing insecurity, 
behavioral or emotional problems, or academic difficulties when 
compared to children living with single or cohabiting parents.\1\ In 
one study, the odds of experiencing psychological problems were 39 
percent greater among sixteen-year-olds whose parents had divorced 
compared to those whose parents had stayed together.\2\ Adults in 
satisfying marriages are less likely to be depressed or dissatisfied 
with their lives than those who are unmarried,\3\ and more likely to 
enjoy longer, healthier lives.\4\
---------------------------------------------------------------------------
    \1\ For a brief review of this literature, see Parke, M. (2003). 
Are Married Parents Really Better for Children?, Couples and Marriage 
Series, Brief No. 3. Washington, DC: Center For Law and Social Policy. 
Available at www.clasp.org.
    \2\ Chase-Lansdale, P. L., Cherlin, A. J., & Kiernan, K. E. (1995). 
The long-term effects of parental divorce on the mental health of young 
adults: A developmental perspective. Child Development, 66, 1614-1634.
    \3\ Myers, D. G. (1999). Close Relationships and Quality of Life. 
In D. Kahneman, E. Diener, N. Schwarz (Eds.), Well-being: The 
Foundation of Hedonic Psychology. New York: Russell-Sage Foundation.
    \4\ Waite, L. J., & Gallagher, M. (2000). The Case for Marriage. 
NY: Doubleday.
---------------------------------------------------------------------------
    Recent research also suggests, however, that many of the positive 
outcomes that are related to marriage may not be due to marriage 
itself. Instead, these outcomes may be due to differences in the 
characteristics of people who marry versus those who do not.\5\ For 
example, studies have shown that upbeat, happy people are more likely 
to get married than people with an unhappy disposition.\6\ Another 
recent study found that cohabiting parents are less likely to work, are 
less well-educated, and are younger than married parents.\7\ The 
characteristics of those who tend to marry, including being happy, 
employed, and better educated, have been shown to lead to better 
outcomes for families.\8\ Promoting marriage among those who would not 
otherwise have married will not magically imbue them with the personal 
characteristics responsible for many of the apparent benefits of 
marriage.
---------------------------------------------------------------------------
    \5\ Same as footnote 1.
    \6\ Same as footnote 3.
    \7\ Acs, G. & Nelson, S. (2004). Should We Get Married in the 
Morning? A profile of Cohabiting Couples with Children, Assessing the 
New Federalism, An Urban Institute Program to Assess Changing Social 
Policies, Discussion Papers. Washington, DC: The Urban Institute. See 
also Manning, W., & Brown, S. (2003). Children's Economic Well-Being in 
Cohabiting Parent Families: An Update and Extension. Bowling Green, OH: 
Center for Family and Demographic Research, Bowling Green State 
University.
    \8\ Ricciuti, H. N. (2004). Single Parenthood, Achievement, and 
Problem Behavior in White, Black, and Hispanic Children. The Journal of 
Educational Research, 97, 196-206.
---------------------------------------------------------------------------
Concerns about the Administration's Proposal
    Although marriage can entail some benefits for families and their 
children, promoting marriage through TANF involves a very complex set 
of issues and requires a deep understanding of the fundamental 
realities of the lives of Americans living in poverty. Furthermore, in 
the course of implementing marriage promotion programs, the 
Administration must ensure that TANF recipients and their children are 
not inadvertently harmed, either via these programs themselves (for 
example, by ignoring, precipitating or prolonging domestic violence) or 
through a diversion of funds away from much-needed social services and 
safety net programs. If, as stated, the goal of Federal marriage 
promotion programs is to improve child well-being, than child well-
being must be front and center in the development and implementation of 
these programs and policies. Any legitimate marriage promotion proposal 
must address key concerns including whether marriage can be considered 
a ``cure'' for poverty, the need for economic supports and education/
training among families living in poverty, the fact that current 
marriage programs are not well evaluated, and issues of domestic 
violence.
1. Is marriage a ``cure'' for poverty?
    On its own, marriage is unlikely to pull substantial numbers of 
people out of poverty. In fact, research suggests that marriage has 
limited utility in this regard.
    One in four American children live with an unmarried parent (27 
percent in March 2002)-a figure that has more than doubled since the 
early 1970s. The majority of these children live with their mothers; of 
all children in the United States, 23 percent live with their mother 
only. Single families are disproportionately poor. Forty percent of 
female-headed families lived in poverty in 2002 and nearly two-thirds 
of all poor children live with a single head of household.\9\
---------------------------------------------------------------------------
    \9\ CDF calculations based on Census Bureau data.
---------------------------------------------------------------------------
    Some conclude from statistics such as these that the solution to 
child poverty is to encourage more marriage, but marriage would not 
lift the majority of these children from poverty. Cause and effect are 
often unclear in analyzing marriage and poverty; parents who stay 
together generally start out better off financially and emotionally 
than parents who split up. A study by the Census Bureau showed that, 
even before the father departs, child poverty rates are 75 percent 
higher in families that later break up than in those where the marriage 
remains intact.\10\ Taking these dynamics into account, Donald 
Hernandez, former chief of the Census Bureau's marriage and family 
branch concluded that overall child poverty rates for both Blacks and 
Whites would still be two-thirds of what they are now, even if all 
fathers who do not live with their children and children's mothers were 
reunited with them.\11\ Marriage, while economically beneficial, would 
not end the majority of child poverty.
---------------------------------------------------------------------------
    \10\ U.S. Bureau of the Census. (1991). ``Family Disruption and 
Economic Hardship: The Short-run Picture for Children'', Table C, 
Series P-70, No. 23, Current Population Reports. Washington, D.C.: 
Government Printing Office. Available at www.census.gov.
    \11\ Hernandez, D. J. (1993). America's Children. New York: Russell 
Sage Foundation.
---------------------------------------------------------------------------
    Nor is it the case that unmarried women will inevitably be poor. 
Sweden and Denmark have much higher rates of out of wedlock births, but 
much lower rates of child poverty and hunger as compared to the United 
States.\12\ These countries and many others spend a greater proportion 
of their resources providing a safety net for families with children 
than does the U.S. Rather than focusing on marriage as a cure-all for 
child poverty, these countries are ensuring that their children do not 
become poor in the first place.
---------------------------------------------------------------------------
    \12\ Coontz, S., & Folbre, N. (2002). Marriage, poverty, and public 
policy. Poverty Research News, 6, 9-11.
---------------------------------------------------------------------------
2. Boosting the economic stability of families living in poverty should 
        be primary
a. Policy changes that boost the economic prospects of low-income 
        families should come before marriage promotion.
    Prior to spending large sums of money on marriage promotion 
programs, the Bush Administration should invest in programs that 
increase the economic and educational status of Americans living in 
poverty. The promotion of marriage should not and must not be used as a 
substitute for such programs.\13\ Unmarried couples living in poverty 
face many barriers and obstacles including sporadic or no employment, 
lack of affordable housing, lack of access to childcare, transportation 
problems, difficulty in purchasing food and household necessities, and 
many other stressors. Poor married couples often face similar 
obstacles, illustrating that even with investment in marriage 
promotion, families will continue to need an economic safety net. 
Helping single parents succeed requires policies aimed at boosting 
their educational and economic prospects. Once economic stability has 
been achieved, marriage may become a more attractive option.
---------------------------------------------------------------------------
    \13\ See also Ooms, 2004, and Barbara Whitehead's testimony before 
the Senate Health, Education, Labor and Pensions Committee hearing on 
Healthy Marriage: What Is It and Why Should We Promote It?, held on 
April 28, 2004.
---------------------------------------------------------------------------
    Data from the ``Fragile Families and Child Wellbeing Study 
(FFCWB)'' \14\ highlights the fact that for unmarried mothers living in 
poverty, economic stability is seen as a prerequisite to marriage. 
FFCWB is the first national study of unmarried parents, their 
relationships and the well-being of their children. 3,712 of the 
children in the study were born to unmarried parents. Three quarters of 
the unmarried mothers in the study had incomes below 200 percent of 
poverty. The results of this study showed that the majority of unwed 
parents were strongly connected to each other at the time of their 
child's birth and that the majority expressed positive attitudes about 
and high hopes for marriage. Nonetheless, few of these couples had 
married one year later. More intense follow-up questions with a subset 
of this sample revealed that these couples considered marriage viable 
only after they had achieved economic stability. Employment was highly 
prized as was economic security and the accumulation of some assets.
---------------------------------------------------------------------------
    \14\ Parke, M. (2004). Who Are ``Fragile Families'' and What Do We 
Know About Them?, Couples and Marriage Series, Brief No.4. Washington, 
DC: Center For Law and Social Policy. Available at www.clasp.org.
---------------------------------------------------------------------------
    Several other studies are consistent with the conclusion that the 
lack of economic stability is an impediment to marriage. Researchers 
have found that the inability of poorly educated, low-skilled men to 
economically support their families is a major influence on the fact 
that they often do not marry the mothers of their children.\15\ One 
study of the marriage market found that in the 1980s, at age 25, there 
were three black women for every black man with adequate earnings.\16\ 
According to the researchers who conducted the FFCWB study \17\ the 
poor want to marry but like their wealthier peers, they want to marry 
well; otherwise they fear that their relationships will not last. 
Indeed, they have some basis for this fear: a large body of empirical 
research shows that education and employment are positively associated 
with marriage and negatively associated with divorce.\18\
---------------------------------------------------------------------------
    \15\ Testimony of Theodora Ooms before the Senate Committee on 
Finance, Subcommittee on Social Security and Family Policy hearing on 
The Benefits of a Healthy Marriage, held on May 5, 2004.
    \16\ Lichter, D. T., McLaughlin, D., LeClere, F., Kephart, G., & 
Landry, D. (1992). Race and the Retreat From Marriage: A Shortage of 
Marriageable Men?''American Sociological Review, 57, 781-799.
    \17\ Testimony of Kathryn Edin before the Senate Committee on 
Finance, Subcommittee on Social Security and Family Policy hearing on 
The Benefits of a Healthy Marriage, held on May 5, 2004.
    \18\ Garfinkel, I., & McLanahan, S. (2003). ``Strengthening Fragile 
Families'', in One Percent for the Kids, Isabel Sawhill (Ed.). 
Washington, D.C.: Brookings Institution Press.
---------------------------------------------------------------------------
    There is also some direct evidence that the relationships of 
unmarried low-income parents can be strengthened if their incomes are 
increased. One source of such evidence is an evaluation of the 
Minnesota Family Investment Program (MFIP).\19\ MFIP employed a 
strategy that combined financial incentives to work (in the form of 
greater earned income disregards) with mandated participation in work-
focused activities for TANF recipients. As a result of higher 
employment combined with these wage supplements, MFIP participants 
experienced increased income which was shown to have a stabilizing 
effect on marriage and to decrease domestic violence. Married parents 
participating in MFIP were 38 percent more likely to remain together 
after three years than those in a welfare program that lacked these 
additional economic supports and incentives. A follow-up study found 
that the impact remained strong even after seven years.
---------------------------------------------------------------------------
    \19\ Miller, C., Knox, V., Gennetian, L., Dodoo, M., Hunter, J. A. 
& Redcross, C. (2002). Reforming Welfare and Rewarding Work: Final 
Report on the Minnesota Family Investment Program. New York: Manpower 
Demonstration Research Corporation.
---------------------------------------------------------------------------
    Clearly, for those living in poverty, economic stability is a 
priority and a pressing need that weighs heavily in their family 
choices. Unfortunately, many low-income Americans lack sufficient 
resources and skills to lift themselves and their families out of 
poverty. Encouraging women in this position to marry as a way out of 
poverty leaves them extremely vulnerable and without control over their 
lives and the lives of their children. For example, a mother who 
marries the father of her child may find herself in a violent 
relationship that she cannot ``afford'' to leave for fear that her low 
skill level and inability to get a job will leave her and her children 
hungry and living on the streets. Placing these children in a violent 
home is often more detrimental than the poverty which the mother sought 
to escape in the first place. Another mother may marry the father of 
her child and go on to have two additional children with her husband, 
only to be left by him a few years later. If this mother has been 
caring for her children while her husband developed a resume and job 
skills, she will be left with more children and further limited 
opportunity for financial stability. Policies that support single 
mothers in their own skill development and economic independence 
present an opportunity to escape poverty permanently. In order to best 
help TANF recipients, the Administration should support a package of 
programs aimed at increasing the economic prospects of these families 
and their children. Specifically, when TANF is reauthorized, States 
should also be allowed to count education and job training as ``work'' 
for longer periods of time in their welfare programs. Getting an 
education is a prerequisite for obtaining a job that pays a living 
wage. In addition, substantially more money should be provided to pay 
for childcare for the poor. It is a fact that parents cannot work if 
their children are not cared for, so child care is the most basic 
support needed to allow a family to develop economic independence. 
States should also ``pass through'' to families a greater proportion of 
the child support money that is paid on their behalf. There are 
numerous other policy and legislative changes that would help lift poor 
children out of poverty. These include raising the minimum wage, 
extending tax cuts that benefit low-income families and increasing the 
number of families that can obtain housing vouchers. Only after changes 
like these have been made should the Administration spend large sums of 
money promoting marriage.
b. Removing marriage penalties from social service programs can 
        simultaneously 
        encourage marriage and provide income supports for the working 
        poor
    While investing limited Federal resources in unproven marriage 
promotion schemes is ill advised, the Federal Government should 
certainly not create barriers to healthy marriages. As such, the 
Administration should pursue anti-poverty strategies that remove 
marriage penalties from TANF and other programs targeted at the poor. 
If encouraging marriage is the goal, building disincentives to marriage 
into TANF and income support programs is counterproductive. Many states 
have begun this process by changing their welfare program rules in 
various ways including by removing restrictions on two-parent family 
eligibility, eliminating marriage penalties in computing welfare 
benefits, or suspending child support arrearage collections if non-
custodial and custodial parents marry. An additional example of a 
program that has benefited from marriage penalty relief is the Earned 
Income Tax Credit (EITC) program, which is widely cited as one of the 
most successful anti-poverty tools available. In the EITC, marriage 
penalties occurred when two people with earnings married and their 
combined, higher income placed them at a point in the EITC ``phase-out 
range'' at which they received a smaller EITC (or no EITC at all) than 
one or both of them would have received if still single. A reprieve for 
low-income families that phased out some of the EITC marriage penalty 
in the 2001 tax package was nearly eliminated in the 2004 tax debate in 
the House of Representatives, but was retained at the last minute. The 
Bush Administration should make clear its support for maintaining and 
expanding this version of marriage penalty relief. This represents a 
positive step in the direction of supporting marriage while 
simultaneously providing income supports to the working poor.
3. Further marriage promotion programs should not be funded until 
        current programs are evaluated
    There is little evidence currently available that can address the 
question of whether marriage promotion programs are likely to be 
successful among those living in poverty. One reason for this is that 
most prior relationship and marriage skills programs have targeted 
white middle and upper-class couples who are engaged or already 
married. Almost nothing is known about how these programs need to be 
modified if they are to be used with poor/minority populations and with 
couples who may not exhibit high levels of relationship commitment. 
Couples living in poverty are likely to experience unique relationship 
stressors arising from their economic circumstances that make them 
dissimilar to the couples that have participated in marriage promotion 
programs to date.
    A second reason why it is unclear whether marriage promotion 
programs are likely to be successful is that, in general, few such 
programs have been rigorously evaluated. This point is frequently made 
by experts in this field, including a majority of the scientific 
witnesses at a hearing on marriage before the Senate Finance Committee 
in May, 2004.\20\ Recognizing a need for increased evaluation of 
marriage programs, the Administration recently awarded several multi-
million dollar contracts to prominent research organizations (e.g., 
MDRC and Mathematica Policy Research) to conduct large marriage 
promotion test projects which would include rigorous scientific 
evaluations. The results of these studies will not be known for some 
time.
---------------------------------------------------------------------------
    \20\ Testimony of Scott Stanley, Theodora Oorns, and Ron Haskins 
before the Senate Committee on Finance, Subcommittee on Social Security 
and Family Policy hearing on The Benefits of a Healthy Marriage, held 
on May 5, 2004.
---------------------------------------------------------------------------
    Given that it is currently unclear whether marriage promotion 
programs targeted at low income individuals will be successful, the 
best course for the Administration to take would be to proceed slowly 
and cautiously. Officials should allow trial programs that have already 
been funded to proceed, these programs should be rigorously evaluated, 
and only then should decisions be made concerning allocations of 
additional funding for marriage promotion. It is standard practice that 
major initiatives begin with pilot studies prior to full-scale project 
implementation and the commitment of millions of dollars. New marriage 
initiatives should not be funded before the results of projects that 
are already underway are known.
    The Administration must also ensure that any marriage programs it 
does fund in the future are empirically-based, continually refined, and 
scientifically evaluated. There are many marriage promotion and pre-
marital pregnancy prevention programs operating in the United States at 
the moment that do not meet these criteria.\21\ Scientifically-based 
programs that can be shown to produce results are the only marriage 
promotion activities that are worthy of federal support.
---------------------------------------------------------------------------
    \21\ For some examples, see U.S. Department of Health and Human 
Services. (2002). Strengthening Healthy Marriages: A Compendium of 
Approaches. Washington, D.C. Available at http://www.acf.hhs.gov/
programs/region2/index.htm.
---------------------------------------------------------------------------
4. Domestic violence must be addressed in marriage promotion programs
    Domestic violence is a tragic reality for many women on TANF and 
marriage promotion programs must be particularly sensitive and 
responsive to this issue.
    Although such violence can be a problem for all American women, 
those living in poverty or on welfare experience dramatically high 
levels of abuse. In the general population, about 22 percent of women 
experience domestic violence at some point in their adult lives, while 
most studies estimate that the lifetime prevalence of violence among 
welfare recipients is in the range of 50 percent-60 percent.\22\ 
Estimates of the percentage of TANF recipients experiencing recent 
violence consistently range from 15 percent-25 percent.\23\ It is also 
quite common for children in households where domestic violence takes 
place to witness this violence or to be victimized themselves. A great 
deal of research now documents that exposure to domestic violence has 
serious negative effects on child development and can result in 
attachment problems, cognitive and emotional deficits, anti-social 
behavior and posttraumatic stress disorder, among other problems.\24\
---------------------------------------------------------------------------
    \22\ Lawrence, S. (2002). Domestic Violence and Welfare Policy: 
Research Findings That Can Inform Policies on Marriage and Child Well-
Being. New York, NY: National Center for Children in Poverty.
    \23\ Raphael, J., & Tolman, R. M. (1997). Trapped by Poverty, 
Trapped by Abuse: New Evidence Documenting the Relationship Between 
Domestic Violence and Welfare. Ann Arbor, MI: University of Michigan 
Research Center on Poverty, Risk, and Mental Health.
    \24\ Same as footnote 15.
---------------------------------------------------------------------------
    Unfortunately, research documents that the majority of TANF 
recipients who experience domestic violence are unlikely to report this 
fact to welfare caseworkers. Many states do not track reports of 
domestic violence but where data does exist, the rates are between 5 
percent and 10 percent of the caseload, which suggests significant 
under-reporting. This is consistent with evidence that in general, 
domestic violence advocates are four or five times more likely than 
welfare caseworkers to obtain reports of domestic violence from 
women.\25\
---------------------------------------------------------------------------
    \25\ NOW Legal Defense and Education Fund. (2002). Surviving 
Violence and Poverty: A Focus on the Link Between Domestic and Sexual 
Violence, Women's Poverty and Welfare. Washington, D.C.: NOW Legal 
Defense. Available at http://www.legalmomentum.org/issues/wellsurvi
ving.pdf.
---------------------------------------------------------------------------
    With such a large percentage of the welfare caseload experiencing 
domestic violence, any marriage promotion programs that are targeted to 
women on welfare must pay serious and comprehensive attention to this 
issue. The Administration has made some assurances that domestic 
violence issues will be taken into consideration when these programs 
are implemented,\26\ however their proposals to date have failed to 
include comprehensive and detailed information about violence 
prevention efforts and safeguards. While, the Senate TANF bill contains 
some requirements that domestic violence experts be consulted in 
developing marriage promotion programs, these protections are 
conspicuously absent in the House bill. The Administration must do more 
to ensure that domestic violence is not treated as a sidebar in the 
discussion of marriage promotion. Fully half of the adult women on the 
TANF rolls are likely to be affected by domestic violence at some 
point, as are their children.
---------------------------------------------------------------------------
    \26\ Testimony of Wade Horn before the Senate Committee on Health, 
Education, Labor, and Pensions, Subcommittee on Children and Families 
hearing on Healthy Marriage: What Is It and Why Should We Promote It?, 
held on April 28, 2004.
---------------------------------------------------------------------------
    It is likely that the majority of these women will not inform 
caseworkers of this fact, even as they turn to welfare as a crucial 
source of income while they seek to escape their abusers.
    Aggressively promoting marriage in this population of women can 
have dangerous consequences. In order to minimize this risk, experts in 
domestic violence must be integrated into every facet of marriage 
promotion program development and implementation. At a minimum, 
caseworkers must be extensively trained to evaluate women for domestic 
violence and in no case where a woman has suffered abuse should she be 
encouraged to remain with or marry her abuser. An even better solution 
is to hire domestic violence experts to discuss this sensitive issue 
with TANF clients and to provide counseling and other forms of 
assistance if needed. If the goal of these funds is truly to promote 
only healthy marriages, the Administration's marriage promotion 
proposal must be amended such that domestic abuse counseling is an 
allowable use of marriage promotion funds.
    Members of the Administration have also said that participation in 
marriage promotion programs will be completely voluntary.\27\ However, 
some marriage programs may subtly coerce women to marry, whether or not 
they are portrayed as voluntary. For example, nine states and one 
tribal agency offer welfare recipients financial incentives or 
``bonuses'' to marry.\28\ For women living in poverty who are in 
desperate need of income, this could be very tempting and may push them 
toward marrying an abusive partner. Incentives for marriage such as 
these must not be allowed as a component of marriage promotion programs 
because they may inadvertently push financially vulnerable women into 
making poor life choices.
---------------------------------------------------------------------------
    \27\ Same as footnote 18.
    \28\ Ooms, T., Bouchet, S. & Parke, P. (2004). Beyond Marriage 
Licenses: Efforts in States to Strengthen Marriage and Two-Parent 
Families. Washington, D.C.: Center for Law and Social Policy. Available 
at www.clasp.org.
---------------------------------------------------------------------------
Conclusion
    The Administration asserts that the over-arching purpose of 
marriage promotion programs is to improve the well-being of American 
children who are living in poverty. Given that it is clear that 
marriage promotion is not the most consistent and proven direct path to 
reach this goal, the Administration should ensure adequate investments 
have been made to meet the employment, child care and education needs 
of single parents before investing scarce Federal resources in this 
unproven method. As we have described, if marriage promotion programs 
are to succeed at improving child well-being, they must be designed 
very carefully and must address a series of important issues. Of 
particular importance, in order to avoid unintentionally harming women 
and their children, marriage programs must be designed to address the 
high levels of domestic violence experienced by women on welfare and 
their children. Domestic violence experts must be integrated into all 
levels of program planning and implementation, they should be hired to 
counsel women who have experienced abuse, and domestic violence 
counseling must be an allowable use of marriage education funds. In 
addition, all marriage programs must be voluntary and TANF recipients 
must not be subtly coerced into marriage via financial ``bonuses'' if 
they marry.
    As we have described, marriage programs targeted at individuals 
living in poverty are rare and those that do exist have not been 
evaluated. The Administration should allow currently funded trial 
programs in marriage promotion to be assessed prior to funding new 
programs in this area. All programs, regardless of when they are 
funded, should be empirically (rather than ideologically) based, 
scientifically evaluated and continually updated and revised as new 
information becomes available.
    Given the problems surrounding domestic violence and program 
evaluation as well as the unmet need for basic services among those on 
welfare, spending large sums of money on marriage promotion programs 
does not represent a wise use of funds. Rather, the Administration 
should invest in programs that will provide TANF recipients with the 
skills and resources they need to lift their families out of poverty. 
These families need education, training, child care, substance abuse 
treatment, a greater proportion of the child support money that is paid 
on behalf of their children, help with transportation, and other forms 
of assistance to support them in their efforts to find work and earn 
enough to support their families. They also need relief from ``marriage 
penalties'' that act as disincentives to marry. In the fight against 
poverty, marriage promotion programs should be seen as secondary to 
programs that more directly help families escape poverty.
                               Attachment
          Prepared Statement of William J. Murray, Chairman, 
                      Religious Freedom Coalition
Civil unions: A boon for gays or a bane for the American culture?
Date published: 1/18/2004

    ON PAPER and without forethought as to human nature, civil unions 
for gays sound harmless. However, civil unions cannot be reserved for 
``same-sex'' couples, and that is the real danger.
    The California and Vermont civil-union laws, because they are 
contractual laws, could not pass legal standards unless they were 
offered to any two people. Many heterosexual couples, when they see 
that civil unions offer financial advantages while being very easy to 
dissolve, will choose this alternative to marriage.
    Thus, civil unions will promote cohabitation not only among 
homosexuals and lesbians but among heterosexuals as well. The civil 
unions grant privilege without responsibility. The group most likely to 
utilize civil unions is not same-sex couples but rather the elderly.
    About one million elderly adults in America currently cohabit--
about half a million couples. They do not marry because of inheritance, 
tax, and other, mostly financial, issues. Civil unions will legitimize 
these relationships in the eyes of the states and allow medical and 
social benefits they do not now have.
    For example, one partner may have superior medical-insurance 
benefits because of having worked for the Federal Government or for a 
large corporation. His or her partner would become eligible for those 
same benefits under the terms of a civil union.
    Civil unions will quickly become popular with young couples as 
well. A man will be able to share his insurance benefits with his live-
in partner but can ask her to leave at any time because they are ``not 
really'' married.
    Within a few decades civil unions could overtake marriages as the 
preferred arrangement of those who want a live-in relationship. Sound 
impossible? Right now only 60 percent of marriages are conducted in the 
church and sanctified. The rest are conducted by government officials 
such as judges. These marriages are secular in nature and have nothing 
to do with the biblical base of marriage vows. Why would these 40 
percent bother to marry at all if they can have the same ``privileges'' 
of marriage in a civil union, without the potential difficulties of 
divorce? This group will also move toward the civil union.
    The fact is that the vast majority of homosexuals will not want to 
use civil unions. In the Dec. 1 issue of The Weekly Standard, Maggie 
Gallagher rightly points out that General Motors, with more than 
342,000 employees, has only 166 people who have applied for health 
insurance for a same-sex partner. What will that figure be if the plan 
is opened to heterosexual couples that are simply shacked up together 
in civil unions? These figures should also give us pause in 
understanding how few homosexuals there really are compared to the 
power of their voices in Washington.
    The problem with civil unions does not lie just in giving same-sex 
``couples'' the privileges of marriage, but also in establishing a 
second class of marriage using another name that will bestow benefits 
to couples who want to shack up without ever really getting married.
    The homosexual aspect of civil unions that is perhaps most 
dangerous lies within the confines of our public school system and what 
will be taught in sex-education classes. If same-sex civil unions are 
legal, will the educational system, which is basically run by the 
radical National Education Association, force ``how-to'' homosexual 
education on the youth of the nation? The answer is of course, the NEA 
will do just that. Already the NEA is working to promote ``safe'' 
homosexual-sex classes in the schools. Civil-union laws will empower 
that organization to push for more illustrative classes.
    Lastly, even though civil unions go by a different name than 
marriage, they do give an important legal stamp of approval to 
homosexuality, which is why the majority of homosexuals are pushing 
this issue, even though they wouldn't actually want to be involved in a 
civil union. Once same-sex unions are sanctioned by law, it becomes 
very difficult to voice any disapproval of homosexual behavior in the 
schools or the workplace.
    Will a boy who refuses to date another boy be singled out for 
psychological treatment by school authorities because he is 
``homophobic''? Will a teacher who voices any disapproval of homosexual 
behavior be more likely to face lawsuits and loss of employment? Will 
refusing to date someone of the same sex prove prejudice and result in 
workplace discipline? we have already seen cases of Federal employees 
being threatened and punished for refusing to attend pro-homosexual 
seminars.
    Congressional leaders are beating a drum that says only that the 
word ``marriage'' is important and that as long as that word is 
protected they have won the battle. This is far from true. Creating a 
second class of marriage by another name is a danger to our society.
                                 ______
                                 
        Prepared Statement of Irene Weiser, Executive Director, 
                          Stop Family Violence

                Welfare Reform and Marriage Initiatives

Marriage Diaries
    Pending legislation that would reauthorize the Temporary Assistance 
to Needy Families (TANF) Program includes a proposal by President Bush 
to spend $1.5 billion on government marriage promotion programs. This 
proposal is a waste of taxpayer money that will increase the risk of 
domestic violence, fail to stop the rise in poverty, and do nothing for 
the institution of marriage. Women are 40 percent more likely to be 
poor than men. And women on welfare need education, job training and 
child care more than ever to be able to compete in the marketplace. To 
squander $1.5 billion on unproven programs urging marriage upon poor 
women, particularly in this economy, is fiscally foolish and morally 
reprehensible.

        Kansas--``I was married to a verbally abusive man [who] was 
        also an alcoholic, which explains a lot of what happened . . . 
        verbal abuse does not show physical signs, but there are 
        definitely scars that remain far longer. Many women have come 
        from abusive relationships but did not have the education I 
        did, these women need opportunities to gain [an] education [in 
        order] to allow them to better themselves and become self 
        supportive for their children as well. There must be a way for 
        women to gain success from within themselves.''

    Of particular concern are the increased risks of domestic violence 
associated with such a program. The reality is that as many as 60 
percent of women welfare recipients are survivors of domestic violence. 
These women need economic security so they can escape abuse, not 
government pressure to remain with their abusers. The Administration 
claims that it would never pressure someone to marry, or remain with, 
her abuser. But there are no provisions in the House marriage promotion 
proposals to ensure that officials will screen out couples in abusive 
relationships. It is therefore vital that if marriage promotion 
provisions are ultimately passed, the protections included in the 
Senate bill be retained and or strengthened and be included in any 
final welfare reauthorization bill. Trying to escape an abusive 
relationship can be one of the hardest things for a woman to do, 
particularly when a women is financially dependent on her abuser. Women 
need to hear about how to leave the relationship, not get lectures on 
how to work through typical marital strife or cash incentives that risk 
further danger.

        Mississippi--``Marriage isn't the answer . . . I thought it 
        was, then that one vicious man taught me with violence that 
        marriage wouldn't fix everything. And I'm grateful I got out 
        before it led to my son's or my [own] death. We were lucky . . 
        . but there are plenty of women who get trapped thinking that 
        marriage is the only way to make it and provide for their 
        families. . .and some of these women pay with their lives to 
        the husband they trusted.''

    Government marriage promotion sends the message that the way out of 
poverty for women is dependence on someone else to act as a 
breadwinner, rather than economic self-sufficiency. They divert welfare 
funds from basic economic supports; coercively intrude on private 
decisions; place domestic violence victims at increased risk; waste 
public funds on ineffective policies and inappropriately limit state 
flexibility.

        Oregon--``Receiving state assistance has literally been a form 
        of survival for my family and me. We would not have made it 
        without these supplement programs in place.. When I divorced, I 
        decided it was better to be poor by myself than to be married 
        to someone who was potentially dangerous to me and my family, 
        and someone who was not reliable or even trustworthy 
        financially as well. This is my story; I hope it helps you to 
        understand that being unmarried with children can ultimately be 
        very good and empowering for some families.''

    These Marriage Diaries have been collected by the organization Stop 
Family Violence, and they provide real examples of how critical it is 
not to coerce women into marriage as a means to move them out of 
poverty, but rather to provide them with education, job training, child 
care, domestic violence-related services, and health care--programs 
that will help move them out of violent relationships, as well as out 
of poverty. Unproven marriage promotion programs divert precious funds 
away from what we know works.
    Inside, you'll find narratives submitted by women from Arkansas, 
Florida, Kansas, Louisiana, Massachusetts, Mississippi, Montana, New 
Jersey, Oregon, Texas, and Virginia. These powerful stories (a small 
sample of the hundreds received from around the United States) show the 
importance of public assistance--including education, training, 
counseling, child-care, food stamps and health care--in helping women 
escape domestic violence and become self sufficient. For more 
information on marriage promotion, as well as diaries from other 
states, please contact Irene Weiser at Stop Family Violence at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="96ffe1d6e5e2f9e6f0f7fbfffaefe0fff9faf3f8f5f3b8f9e4f1">[email&#160;protected]</a> or visit www.stop
familyviolence.org.
Arkansas
    I know this is hard to believe. I couldn't believe it either. On 
the day of our wedding, my husband-to-be threw me down a flight of 
steps, and said; ``Now you know how it's going to be and who's the 
boss.'' Up to that moment in our relationship, he had been perfectly 
charming. I went through the service and it took six months and many 
beatings before I got out of the marriage.
Florida
    I am a 34-year old mother of one. I met my abuser at age 15 and 
married him at age 17. I felt financially and emotionally trapped in 
this marriage--unable to escape the abuse. After 16 years of being with 
the abuser, I finally got the courage to get out because of the effect 
on my daughter and fear that I would be dead either by his hands or due 
to my own through depression
    [from] my living conditions. Due to public assistance, I was able 
to leave and am attending college full time. I will get my degree next 
year and become a teacher. At which time, I plan to teach and continue 
my degree in law so that I may be able to help those who were in a 
situation similar to my own. The welfare system needs to be available 
to women in these situations in order to be able to get out and make a 
better life for themselves and their children. I believe education 
needs to be pushed, not marriage, and that is my story.
                                 ______
                                 
    ``Hello, my name is Suzanne and this is my story. I was married in 
1984 to someone that I had known since I was 5 years old. We went to 
the same grade school and high school. One month after we were married, 
my husband tried to kill me with a razorblade. I was in shock for a 
while after that. You see, I did not come from an abusive family and 
had never experienced something like this and had never known anyone 
that had been abused. I was embarrassed and convinced that it must have 
been my fault. I was young and didn't know any better. The abuse didn't 
stop and it wasn't what you would call the `normal' pattern of abuse. 
My abuser is what they call in domestic violence circles a `cobra'. You 
never know when they will strike or for what reason. He actually never 
needed a reason--he just hit me.
    About 2 yrs after we were married, I had a son. When my son was 3 
weeks old, my husband had a screaming fit over his bassinet and that 
was it. I picked up my child and left him (for the first time). He went 
to a treatment program for alcohol and drugs and stopped drinking and 
abusing drugs. But the abuse did not stop. I left him twice in the next 
few years but in 1990 decided to try it again for my son. We moved to 
another city and the day that we moved, he threw a phone book at me and 
broke my nose. But I went anyway. During this time, I went to my church 
to seek help, but instead of help, they told my husband that I had told 
them about his abusive behavior. As you can imagine, that was not a 
good idea. I was beaten for that.
    In 1992, he left me with 2 mortgages on 2 houses and one income. I 
eventually lost my job due to stress and in 1995, I received a phone 
call from my 9-year-old son that he had a brother, who I wasn't the 
mother of. That was the straw that broke the camel's back. I filed for 
divorce and it was final in November of 1995. I also ended up having to 
file bankruptcy and went through a foreclosure.
    In 1997, I moved back to my hometown and went back to college. At 
that time, I started working as a case manager under the Welfare Reform 
Act. I helped women who had been in similar situations learn to rely on 
themselves instead of the abuser. I helped them get jobs and go back to 
work. I helped them regain their self-esteem.
    In 2002, I graduated from college with a B.A. in English and am 
currently in my second year of law school. My goal is to help women who 
have experienced the same things that I have. No one should have to go 
through the things that I did alone. Most of the women that I dealt 
with in my caseload had little or no education and multiple children, 
each from a different father. They never had anyone who could teach 
them how to take care of themselves. Most have no family members that 
are financially or emotionally able to help them. Offering these women 
financial incentives to marry the men in their lives is not the answer 
to their problems. Education and jobs are what is going to help them. 
Teaching them how to proud of themselves is what is going to help them, 
not encouraging them to rely on someone else.
    My ultimate goal is to offer my legal services to people who cannot 
afford them. My story is not unique. What is unique is my drive to rise 
above my past and change my life, for the better. I knew that the only 
way I could increase my income and better my life for my son and myself 
was to go back to college and get my degree. I truly believe that I 
have a moral obligation to help other women overcome their abusive 
situations and realize their true potential and become self-sufficient 
and successful. But take it from someone who is there right now and 
continuing the fight--it is not easy. Our society, to this day, frowns 
on single women still and does not encourage women to stand on their 
own two feet.
    Thank you for letting me share!''
Kansas
    In my first marriage I had no access to money to leave. My husband 
controlled the finances. He counted my change from the grocery store. I 
got three different jobs in two years. He called one and told them I 
quit. He beat me up so bad that I was fired from the second one for 
missing work. I finally got out with the third one.
    My second marriage was abusive as well. I believed in working for a 
good relationship. My husband and I attended church regularly. When he 
started beating me I thought the minister could help. The minister told 
me he was a good guy and I should give him some time to change. I did, 
but the abuse continued. I tried to leave him several times. Once I got 
away for four months. I was living on my own and started attending a 
different church. My husband started attending the new church as well, 
even though I had a restraining order against him. The minister there 
was impressed with my husband's work ethic and contribution to the 
church. He encouraged me to give him another chance. He said he would 
provide counseling. In the counseling the minister told my husband he 
was wrong, that his actions were a sin. But he counseled us together 
and never spoke to me separately. He never asked me if things were 
still going well. They weren't. He was becoming more and more 
unpredictable. I wanted to move away, to leave him, but I had no money. 
I worked a good job and made over $30,000 a year, but my husband 
refused to pay any of our bills and continued to run them up. I was 
only able to escape when a friend offered me a place to stay in another 
town and enough money to move. I also was able to get a new job in the 
new town. Without those things I would have been forced to continue 
being a good wife, being raped, and being beaten.''
                                 ______
                                 
    I was married to a verbally abusive man [who] was also an 
alcoholic, which explains a lot of what happened, and is still 
happening. Verbal abuse does not show any physical bruises, but there 
are definitely bruises of another sort. I divorced this man over 6 
years ago, but our 4 children are still suffering. After I left him 
with our 4 children (whom he had heavily influenced against me), I was 
in a low paying job, renting a 2 bedroom house, not receiving any child 
support, and on welfare. At that time, welfare was the only way I could 
support my 4 children. My ex-husband called me awful names in front of 
our children and in the front yard of my home when he would come pick 
them up for his visitation. This continued until I obtained a better 
paying job and could move away from him. I was able to get off welfare 
at that point. But the verbal abuse continued, by phone and e-mail. 
After he called me a b**** on the phone to our daughter, I charged him 
with harassment. He pled guilty and was ordered to go through anger 
management, but it was nothing more than a slap on the wrist since it 
was not enforced. He filed for a change of custody after our children 
had been with me for almost 5 years. He lied to the court about his 
work history, and was successful in coercing our children into hating 
me. Now, he has another failed marriage, been through alcohol treatment 
for only 5 days, still drinking, and my children have finally seen him 
for what he really is. I have been remarried for 5 years and am in a 
successful job.
    I did not want to be on welfare because I knew that was not what 
would sustain my children or me. I had an education before all this 
began so I just needed to put it to use after I could get out of the 
chains of the verbally abusive relationship. I remarried because I 
found someone who was loving, patient, and not abusive. He has helped 
me to overcome some of the abuse. But he has been very patient in this 
process, since I still have a lot of the abuse to work through. As I 
said before, verbal abuse does not show physical signs, but there are 
definitely scars that remain far longer. Many women have come from 
abusive relationships but did not have the education I did, these women 
need opportunities to gain [an] education [in order] to allow them to 
better themselves and become self supportive for their children as 
well. There must be a way for women to gain success from within 
themselves. Forcing them to marry when they are not ready or to try to 
remedy another situation is not the answer. My success came from me, 
not from the government or any government program. Do I still have the 
verbal abuse to contend with from my ex? YES. This will always be there 
until HE learns how to help himself. No government program will stop 
him from being abusive. What have my children gained from this? From 
their dad, hate. From their mom (me), unconditional love and support. 
They now realize I have been there all along for them. But they still 
have scars, just like me.
Louisiana
    ``I was married to a man for 8 months, [and] had known him less 
than a year when we got married. I thought he was my soul mate. I 
discovered after a few months that he was an alcoholic, and when 
cocaine was around he `had' to have some. One night after drinking 
about half a fifth of whiskey and snorting some coke, he physically 
threw me out of the house. I didn't go back then, we divorced, but he 
continued to stalk me and threaten my family and me. After he 'dried 
out' for several months, our relationship started again. He promised to 
never drink again. Long story short, he starting drinking again and 
violence became a part of my life. Not only was there the emotional, 
mental, and financial abuse, there was more physical abuse. I have 
stared down the barrel of a .357, being promised that he would take my 
life in a second. I have had that same .357 fired into the concrete 
floor of our house and had bullet fragments & concrete miss my left eye 
by less than an inch. I have been beaten, had teeth knocked loose, 
[and] been told that he would kill me and everyone in my family if 
that's what it took. The last night I spent in our house, he choked me, 
screamed in my ear that women didn't deserve respect that they were 
worthless, except for one thing--sex, had my head slammed into the 
concrete floor, had my clothes torn off my body, [and] had bruises and 
scratches on various parts of my body. He then told me to get the ** 
out of his house and life. I immediately threw on clothes and grabbed 
my purse--the whole time praying I would get out of the driveway before 
he could open the safe containing an SK47 and an AK47 along with lots 
of ammo. By the grace of God I escaped and survived. I am a very low 
statistic. We had counseling and he would tell the counselor exactly 
what they wanted to hear, just as he would tell me that he would quit 
drinking, get a job and start treating me the way I deserved to be 
treated--like a human. But he never did. Please, please do not tell 
these women that marriage is the solution for them and their children. 
Marriage is NOT a solution--it can become the end to the lives of their 
children and them or it can make those children orphans.--Gail Kilman''
Massachusetts
    I'm a therapist who currently works in a battered women's shelter; 
prior to this I did family stabilization (short-term, intensive home-
based work w/at-risk youth and their families). While the vast majority 
of my clients have been poor, single-parent families, the idea that 
marriage will come to their rescue and to imply in any way that the 
lack of a legal commitment is the root of the problem is pathetically 
naive and absurd. These women do not need a legal commitment to a man 
who is also poor, who is often abusive, and often abusing substances. 
First of all, good luck even finding the father(s) of the women's 
children. These are women whose lives are often at risk because these 
men have been at worst dangerous and violent, at best irresponsible and 
non-committal. How about starting with teaching boys to be responsible, 
caring, sensitive, committed partners and teaching girls to be 
empowered, in control of their own lives, teaching them they have 
choices? How about starting with quality, honest, sex education that 
includes information about birth control and HIV protection? How about 
expanding outreach and mental health services in schools and 
communities so that the trauma epidemic can be addressed and young 
people can heal and get in the driver's seat in their lives? What 
century does Bush think he's living in?
                                 ______
                                 
    ``In 1980 I divorced my first husband because he was a violent 
alcoholic. Back then, there was a program called the W.I.N. Program, I 
believe in stood for Women In Need. This Program was handled through 
the local welfare office in Southbridge, Massachusetts. The program 
allowed me to attend a secretarial program at the MacKinnon Training 
Center; it reimbursed me for my mileage, provided day care for my 3 yr 
old son. It also helped restore my self-esteem and self-worth. Before 
completion of the course, I finished all the necessary curriculum and 
was hired on a temporary basis at a hospital as a ward clerk to fill in 
for someone out on maternity leave. I took the position to obtain the 
experience and to have something on my resume. However at the end of 
the eight weeks she decided not to return and the job was offered to 
me. I stayed at the job for five years, during which time I passed the 
National Unit Secretary Exam. I then went to work for my local school 
department in the Business Office, starting out as a clerk, I worked 
there for 16 years and left as the Secretary to the Asst. to the 
Superintendent, transferring to the Police Department as Records Clerk. 
By the way, I have been remarried for the past 17 years. I do know that 
should anything happen to my husband, I can and will be able to take 
care of my daughter and myself.
    So instead of looking to marry off people on welfare, you should be 
looking to make them productive human beings with a sense of pride and 
purpose. Those people will then pass on to their children the same 
sense of pride and purpose making this country a more productive place. 
I strongly agree that there needs to be welfare reform. However, I take 
GREAT OFFENSE to the Cupid Project as another male way of insulting and 
degrading the women of America. Our constitution states, ``All men are 
created equal. . . .'' Let us all live by that and provide single/
divorced parents male or female with the assistance and education to 
support their families--instead of just marrying them off and making 
them a MAN'S responsibility.''
Mississippi
    ``I am now a single mother of two children. Granted I was never 
married, but it was very close, and I was very lucky to get out of it. 
My experience began when I only had one child. I tried my best to make 
ends meet on my own when my son's father ran away from us . . . but it 
was difficult. I am well educated, but finding jobs that paid well 
enough to pay the bills, afford daycare, and provide the basic 
necessities was hard. I got re-involved with an ex-boyfriend from high 
school, who was at this time my closest friend. I thought I knew 
everything about him. Things were going quite well until we agreed to 
get married. Then things really changed.
    I was no longer allowed to dress as I chose . . . I became a Barbie 
doll for him. I was not permitted to have any friends, though he 
brought many over. I was forbidden from speaking my opinion because it 
was not my place. He made me quit my job and stay at home with my son, 
which wasn't so bad. But his temper and drinking problems escalated 
until I was afraid to move without permission. I was trapped with a son 
I couldn't provide for without this man's help. There were many battle 
wounds throughout my home. Holes in the walls to mark just how bad it 
could be . . . holes through the doors to remind me that even locking 
my son and I up away from him, was not a safe alternative. Everything I 
owned and had worked so hard for was broken in front of me. Dishes were 
shattered on walls behind me as I dodged them time after time. My 
little boy got cut in the back of his head from one of the plates that 
missed me and hit the wall, only to ricochet to him where he hid. He 
has scars on his knee where he was cut by other broken dishes when he 
crawled away. His lip had been split by being hit so hard in the face 
when at 1 year old, he mimicked the words that came out of my fiance's 
mouth. But I was still too scared to leave him. I figured I'd never 
make it on my own. How could I raise a child without someone's help?
    One day when I went shopping with a friend who I rarely ever saw . 
. . I came home to find the house in complete darkness, a busted pipe 
in the hallway leaking water all over my carpet, and every phone in my 
home was clipped neatly near the phone plug. That was when I knew I had 
no choice but to leave. I called the cops, who weren't too willing to 
help . . . but they put patrols out. I lived in fear. My son and I 
slept on a mattress in the living room so that we would have numerous 
routes of escape. Our door was barricaded nightly. I found myself 
completely in debt and looking at being on the street if I couldn't 
repair the damages my fiance caused. I found we had been 3 months 
behind in rent, though he never mentioned it to me.
    I finally sought help. [I] applied through the states job program 
to find work. [I] applied for medical assistance for my son, received 
food stamps to feed us, got daycare assistance so I could afford to 
work, without paying it all to the daycare centers, and sought 
counseling for myself. The state services provided all these venues to 
help guide me and get me back on my feet. After all, I had a child to 
raise.
    Now I am working at a decent job in a new state. I have two 
children, who make my life worth living, and make me more determined 
than ever to protect what is in there best interest. I am receiving WIC 
and am applying for Medicaid here so that my children can see a doctor 
when they need since my work doesn't provide insurance. I am a 
hardworking mother just trying to do her best. I understand I have 
never been married, but my experience was just the same. I trusted and 
loved a man who I had known for 10 years . . . and I never knew how 
cruel, angry and violent he was until we were almost at the altar.
    No, I have no intention of marrying anyone for a long time. Because 
I have two very important children to look after . . . and no man will 
ever hurt my kids again. It was very hard for me to first apply for any 
public assistance money that the government provides . . . but I had 
to. I do everything I can on my own, but I do need help. Losing this 
kind of assistance, which only helps to put back the pieces broken in 
someone's life isn't fair. I never asked for a man's cruelty, but I got 
it anyways. Marriage isn't the answer . . . I thought it was, then that 
one vicious man taught me with violence that marriage wouldn't fix 
everything. And I'm grateful I got out before it led to my son's or my 
[own] death. We were lucky. . .but there are plenty of women who get 
trapped thinking that marriage is the only way to make it and provide 
for their families . . . and some of these women pay with their lives 
to the husband they trusted. I refuse to be one of those women. I am 
stronger. That experience was almost 3 years ago. I am almost able to 
make it on my own now, but I wouldn't be able to say that if the public 
assistance wasn't there to help out when I needed it. Please take that 
into consideration before doing something that will lead to the demise 
of women like me. There are reasons that some women are single mothers 
by choice--and it's usually fear and love. They fear what they already 
had to endure . . . and they love their children too much to do it 
again. Thank you.''
Montana
    I am a Crime Victim Advocate who works in the criminal justice 
system. Just last week a woman came into my office to receive an Order 
of Protection against her husband. The story she told me is a good 
example of why this legislation is a bad idea. Because this woman did 
not have potatoes ready for dinner one night, her husband became angry 
and violent. He gave her a black eye in front of their children. The 
next Sunday she went to church (one that professes to be very 
community-oriented, and tight-knit) and NOT ONE PERSON asked about her 
eye. Her mother, who does not belong to the same church, called the 
pastor to ask that he intervene with the husband (who respected the 
pastor). The next time this woman saw the pastor, he said to her, ``You 
just need to do what he says.'' Over the next few days, several women 
from the church visited her and insisted that she return to the 
husband, despite the violence. When she came to my office, she was 
distraught about the violence, but even more so about the attitude of 
her church community. She knows she needs to leave this relationship or 
she and/or her children will get seriously hurt, but she is also in 
fear that God will strike her down for breaking up the family. She is 
also concerned that she will be unable to support her children when she 
leaves the relationship. She is reluctant to go on welfare, having been 
told that it is bad to take handouts from anyone outside the church, 
but she knows that neither she nor her children are safe within their 
church--and they must eat and have a roof over their heads. She has not 
been allowed to hold a job while married to this man, and has few job 
skills.
    This is not an unusual story of those we hear in my office--of the 
1,500 people or so we talk to a year, we frequently hear stories of 
women who are forced to live in poverty by their abusers (I remember 
one woman who was not allowed to buy shoes for herself or the children, 
and so came to my office in flip-flops on a snowy day); who are not 
allowed to develop their job skills while in the marriage, and so, if 
they choose to leave the violence, must go on welfare to survive; and 
who are abandoned by church communities that hold rigid gender 
expectations--and thus, perhaps inadvertently in some cases, support 
abusive behavior by the men in the church. Additionally, throughout the 
country, women are threatened by social services with [the] removal of 
their children if they ``allow'' themselves to be abused in front of 
them. Yet, if they don't allow it, and get divorced, legislation such 
as this threatens both women and their children with more severe 
poverty. This is an unacceptable double bind.
    We must protect women in this country by not forcing marriage upon 
anyone. [Marriage] is not the solution to poverty or violence. Job 
skills, child care, and a focus on the person who perpetuates the 
violence rather than the victims of violence are the only ways that 
women living in poverty will be able to leave poverty and begin to 
support themselves.
New Jersey
    ``I am 42 years old and I am a survivor of an 11 year marriage to 
an abuser. I survived because I was able to receive food stamps and 
cash assistance. I was also fortunate enough to meet a woman who ran a 
group for battered woman. For the first time in my life I was told I 
DIDN'T need a man to be okay. I was taught from my parents that 
marriage made you who you were as a person. My marriage showed me I was 
worthless, stupid, ugly, and needed to be beat into submission.
    I now work under that wonderful woman Geri Esposito Reale and I 
spend countless hours empowering women to depend on themselves and to 
begin their journey alone. Our Agency gives woman a choice in their 
future. I can remember living in a trailer counting bread and eating 
less so I could feed my children because the man I entered into 
marriage with almost destroyed my soul. I thought many times about the 
security I left when I ended my marriage. I knew my children would eat, 
I never knew, however, if they were going to watch their father drag me 
by the hair or spit in my face. Marriage for many women is worse than 
prison. Living in this relationship for many, includes having no money, 
he controls it all. Having nothing that belongs to you alone including 
your thoughts, opinions and your body. Everything you do or say is 
subject to his approval. I survived and raised three children because I 
was empowered by welfare and the Cumberland County Women's Center to 
further my education, to begin to think whole thoughts, and have 
feelings that were all mine. I was empowered to break the ridiculous 
notion that I needed a man to be whole.
    Ending Domestic Violence is to begin to empower women to depend on 
themselves. Marriage is a dangerous place for an abused woman.''
                                 ______
                                 
    I was married to an abusive alcoholic and had a child with him. The 
courts gave him visitation [rights] even though I had a restraining 
order against him. I made a home and a life for us and though it wasn't 
easy it was a lot better than the abuse we suffered. The last thing a 
women needs to feel is that she can't make it on her own. We should be 
encouraging these women instead of keeping them down. They need to feel 
secure and made to feel that they can accomplish things on their own 
instead of feeling that the need to depend on others.
Oregon
    ``To Whom It Concerns:

    I would like to start off by just saying that I have been married 
and divorced twice. So as far as the theory that marriage is an answer 
to all problems, I would have to strongly disagree. In my particular 
case, it actually made things worse. Instead of just carrying the 
weight of my children, I began to have to pull more than my share of 
responsibilities. Which is typical for a woman, however, not at all 
realistic for a good, lasting, strong, healthy relationship. We are 
taught to have to learn to deal with this. There is only so much a 
person can take.
    A marriage should be a sacred union between two people who vow to 
work together no matter what obstacles [arise]. Not an ongoing battle 
to protect yourself and your family from your own husband. There are 
men in this world today who spend bill money on drugs, or other women, 
or who go out with their buddies all the time. There are men who refuse 
to hold down a job. There are men who owe most of their checks for 
child support in prior marriages. There are men with no skills who 
don't earn enough to provide for their families. Not having enough 
finances is the root of bitterness, resentment, and finally anger or 
rage. That is when abuse can start to take place. A lot of the time the 
abuse factor is already there as well.
    There are controlling husbands who will not allow their wives to 
have a job, or go to school. There are men who won't help out with the 
kids. You see, there are a number of reasons why marriage is not the 
answer, in fact quite the problem in certain situations. It is 
unhealthy for children to grow up in an environment that is counter-
productive. Where only one parent is making all of the efforts for the 
whole family. One cannot survive on bread alone. It takes two willing 
people in a marriage. Children will grow up to mimic this thought 
process and ultimately become a part of the vicious cycle.
    Receiving state assistance has literally been a form of survival 
for my family and me. We would not have made it without these 
supplement programs in place. When I divorced, I decided it was better 
to be poor by myself than to be married to someone who was potentially 
dangerous to me and my family, and someone who was not reliable or even 
trustworthy financially as well. This is my story; I hope it helps you 
to understand that being unmarried with children can ultimately be very 
good and empowering for some families. I feel that if there was more 
affordable housing for people this could also make a huge difference 
for the better.

Respectfully,
From someone who remains hopeful''
                                 ______
                                 
    I spent 15 years with an abusive husband. When I was finally able 
to extract myself from this nightmarish existence I was forced, for 
survival's sake, to receive welfare. I had a son to raise and no means 
of support. When I attempted to attend college, so as to become 
employable in a family wage job, I was immediately removed from the 
state aid. The message my removal from welfare sent was received loud 
and clear: We don't want you educated; ``We don't want you independent; 
we want to force you to return to a violent husband.'' Well, I was one 
of the lucky ones. I didn't return (I would rather have died than 
returned to the violence), and I eventually got my college degree, but 
I did so in abject poverty. I spent much of my time not knowing if I 
would have enough to eat, have electricity, or be able to clothe my 
son.
    If I had stayed with this man as the, ``system,'' would have 
preferred, I would be dead today. Please do not continue to send 
battered women the message that I was sent, that abusive marriage is 
the place to stay if you want financial security. Women do deserve to 
be educated, independent, and live violence free. These are rights 
routinely afforded men.

S. Star
Texas
    Mine was a second marriage, four years following my divorce. The 
wealthy, controlling man I married, promptly took over my life. After 
two beatings with two trips to the emergency room, I began divorce 
proceedings. Then my troubles really started. He felt that because he 
was wealthy (and I wasn't) he could get away with anything. He 
constantly harassed me by phone (until I had it changed), and at work 
by calling my boss and telling him lies about me. He brought lawsuits 
against me for libel. He sued many of our friends, saying they had 
libeled him. Then he called me at work and told me that he had hired 
someone to follow me and he would eventually kill me with a baseball 
bat! This was after I had obtained a warrant to keep him away from me. 
In the midst of all this he remarried (90 days after our divorce), but 
his harassment of me continued. He would follow me in his car to and 
from work. The police at the time (1986) would do nothing, saying that 
only after he did something could they take any action. He refused to 
pay me the court ordered divorce settlement, saying, ``Sue me!'' I 
finally had to quit my job, and move to Ohio. But the phone calls and 
letters continued, until about two years later he died of a heart 
attack. Only then did my life return to normal. There is a constant 
fear of being hunted, [and] being physically and psychologically 
abused. At the time it seemed that no one could help me. I am so 
grateful that now women in that position have shelters, and some of the 
laws have changed to perhaps stop cases of similar terror. All 
terrorists are not from other countries. . .many of them are married to 
abused women . . . and appear to their communities to be model 
citizens.
                                 ______
                                 
The Ruppert Wedding Album
    Hi, my name is Cyndy. I had my first child in March of 1994, and 
was on welfare during my pregnancy and for a short time following. This 
assistance helped me greatly. I was able to get the medical attention I 
needed and buy formula and food. This allowed me to eventually become 
self-sufficient. However, I knew I needed an education to be able to 
get a good paying job, one that would sufficiently support my child and 
I, so I signed up for college. During this time, I met a man with whom 
I fell in love with. After my first semester of college, I found out I 
was pregnant with my second child. My boyfriend at the time asked me to 
marry him. So we married in February of 1996. My husband worked in the 
semi-conductor industry making $86,000.00 a year. At that time, I 
didn't know how much money he made, but I thought we would make it as a 
married couple, and that our relationship would benefit our family. In 
the spring came a new semester, but my husband discouraged me from 
returning to school. He said that since I was pregnant, I should return 
to work to help support our child. I did not return to school, but 
instead received training to become a real estate agent. Upon 
completion of the courses, I prepared to take my real estate exam; only 
to discover my husband would not pay the fees required to do so. He 
then told me, it would be better if I stayed home with the kids while 
he worked.
    The physical abuse started when I was 5 months pregnant. My husband 
pushed me into a playpen in the heat of an argument while my son was in 
the playpen. My husband then started calling me repeatedly, up to 12 
times a day from work. With each phone call, he would become more and 
more angry until he was cursing at me and humiliating me. When I was 6 
months pregnant, I received my first beating. It started in the kitchen 
and finished in the bathroom. He was hitting me on my back and head as 
I was bent over with my arms wrapped around my stomach trying to 
protect my unborn child. He took the phone off the hook and did not 
allow me out of the bedroom for the remainder of the night.
    A friend of mine suggested counseling, and my husband and I went to 
a local Christian Counseling Center to seek help. The first thing my 
husband told me was that I didn't need to mention anything about his 
hitting me, because after all, I was partially responsible. I did 
mention it to our counselor during one of our sessions, and he then 
refused to go back. Marriage counseling won't work unless both partners 
really want the help.
    The violence continued even after we separated, and he was never 
arrested for any of it. If he had paid his support, I would not have 
qualified for food stamps or Medicaid. This assistance helped me 
tremendously during this time in my life. My ex-husband would not 
provide medical insurance for our child, even though he had a full-time 
job and had his other children on his insurance [plan]. Without 
Medicaid, my child would not have had access to good medical attention, 
which he needed for his eczema and other health problems. My oldest 
child had asthma, and I wouldn't have been able to afford his 
medication without Medicaid. The food stamps helped our family as well. 
I was able to feed both of my children and myself.
    Marriage is not the answer. Education, childcare, and temporary 
financial help are. I have since gone back to school and on June I will 
receive my associate's degree. My plan is to go to a four-year 
university in the fall of 2004 to receive my Bachelor's degree in 
Government with an emphasis in legal studies. My children and I have 
lived violence free since January 1998. I have chosen not to marry for 
now, but if I do I know I must take serious precautions. I don't ever 
[again] want my children and I to be exposed to living in a violent 
household. As a matter of fact, my children have told me they prefer 
[that] I do not marry until they are grown up and gone. They feel safer 
knowing it's just us. Your legislation to encourage single mothers on 
welfare to marry will not solve the problem, but may actually add to 
it, and affect and endanger the lives of countless women and children. 
If anything, increase financial funding for single mothers going to 
college to obtain an education [in hopes of] better supporting their 
children. Give them a chance to save money and receive assistance 
simultaneously so they may become self-sufficient and in turn teach 
their children the values of a good education.
    I'm Kerry Bibens-Gray and that's my story. Thank you.
Virginia
    ``I was married to an abusive man. Marriage did not help keep me 
out of poverty. My (now ex) husband wanted to control all of the money, 
including the money I earned [money] from working, and [saved] the 
money my parents had set aside for me to attend college. He refused to 
pay our rent on time even though he made twice as much as I did. He was 
always making threats on my life and was physically and emotionally 
abusive as well. I finally realized that I might lose my life if I 
continued to stay in this marriage, so I escaped with our son in 1999. 
My infant son and me had to stay in a shelter for battered women for a 
few days because I was afraid of what my husband would do to us when he 
found out that we had escaped and I had taken out a protective order on 
him. When I petitioned the court to get legal custody of our son, my 
husband said that he didn't want to pay child support and that nothing 
would make him happier than to see me spend my last dime in the courts.
    He was able to get legal aid to represent him while I had to empty 
my savings account, take out a bank loan, max out my credit cards, and 
drain my college account in order to pay for my attorney's fees. Thank 
god the judge saw through all of my ex-husband's and his family's lies 
and gave me sole custody of my son and supervised visitation to my ex-
husband. I have since had to declare bankruptcy, which has a very 
negative impact on one's credit rating, as a result of all of the 
thousands of dollars I've had to shell out in attorney's fees. My ex-
husband continues to use the court system to harass and control me. I 
have been forced to appear in court at least 75 times in the past five 
years because my ex-husband continues to ask the court for custody, 
even though custody was decided years ago. I had to go on public 
assistance for a period of time and even lost my apartment after I was 
forced to declare bankruptcy.
    I now have two children and my ex-husband continues to abuse the 
judicial system and harass me by bringing me to court almost every 
month. Trying to get women to marry abusive men is not going to solve 
anything--it just creates more problems.

Signed, Angela D. Sargent''
                                 ______
                                 
   Prepared Statement of Lisalyn Jacobs, Vice President; and Sherry 
             Leiwant, Senior Staff Attorney, Legal Momentum
Welfare Reform and Marriage Initiatives
    Legal Momentum (formerly NOW Legal Defense and Education Fund) 
appreciates the opportunity to submit this testimony on the issue of 
TANF Reauthorization and building stronger families.\1\ We adhere to 
our long held belief that anti-poverty efforts must focus on 
initiatives that will empower individuals to become economically self-
sufficient and permanently free them from poverty.
---------------------------------------------------------------------------
    \1\ The authors would like to thank Shawn Chang for his invaluable 
assistance in completing this testimony.
---------------------------------------------------------------------------
    Legal Momentum is a leading national not-for-profit civil rights 
organization with a 31-year history of advocating for women's rights 
and promoting gender equality. Among Legal Momentum's major goals is 
securing economic justice for all. Throughout our history, we have used 
the power of the law to advocate for the rights of poor women. We have 
appeared before the Supreme Court of the United States in both gender 
discrimination and welfare cases, and have advocated for protection of 
reproductive and employment rights, increased access to child care, and 
reduction of domestic violence and sexual assault.
    Our testimony today focuses on why, from a policy perspective, 
government involvement in personal issues of family formation would not 
reduce poverty, but would create a dangerous precedent for the 
individual liberty of all Americans. Emphasis on marriage and family 
formation sidesteps the underlying causes of poverty, particularly the 
poverty of women and children--such as lack of job training and 
education, ongoing sex and race discrimination, violence and lack of 
child care. At a time of huge budget deficits and high unemployment it 
is irresponsible to spend over a billion dollars on untested, unproven 
marriage promotion programs. Further, government involvement in highly 
personal decisions such as marriage is a departure from our most basic 
principles; a threat not just to poor women, but to all citizens who 
believe that liberty entails making fundamental personal decisions 
without governmental interference. In addition, because of the 
prevalence of violence among women forced to turn to public assistance, 
promotion of marriage can raise particular and severe dangers. Finally, 
the amount of money currently being spent on marriage promotion by the 
Department of Health and Human Services is enormous, over $100 million. 
The programs currently being funded have not been reviewed or tested to 
see if they are useful or successful. Common sense dictates treading 
cautiously in this area and waiting for the results of the programs 
already funded before throwing another $1.6 billion at promotion of 
marriage among the poor.
    Poll after poll shows that most Americans are against the 
government's involvement in individual decisions regarding marriage and 
oppose use of scarce public dollars to promote marriage. This is not 
surprising as Americans value their personal privacy and their right to 
make personal decisions free of government intrusion, and most adults 
who have experience with intimate relationships are rightfully 
skeptical that the government can or should try to influence them. 
Opposing use of scarce public dollars for this purpose is not the same 
as being ``anti-marriage,'' but rather recognizes that there are some 
issues that should not involve government. In addition, it is important 
for those in Congress to remember that there are currently more non-
marital families than married families in America. These include 
single, separated, divorced, widowed, cohabitating, gay and lesbian, 
and extended families, among others. Members of Congress are elected by 
members of these families as well as by those in traditional nuclear 
families and should care about supporting the well-being of all 
families, regardless of how they are constituted.
I. Federal and State Marriage Proposals
    Both Federal and State initiatives with respect to marriage are 
alarming in their invasion of personal privacy and, at the same time, 
raise serious questions about the effective use of scarce government 
funds, the competence of government to administer programs dealing with 
intimate decisions such as marriage, and the very real possibility that 
marriage promotion programs will be administered in a way that 
discriminates against women. (A Federally funded marriage promotion 
program in Allentown, Pennsylvania did just that, offering employment 
skills training to the men but not the women in that program.) We are 
particularly concerned that scarce public funds will be diverted away 
from desperately needed economic supports, child care and job training 
into questionable programs unlikely to have any positive effect in 
reducing poverty.
    Federal Initiatives: Current law allows but does not require states 
to use Temporary Assistance to Needy Families (TANF) funds for marriage 
promotion and for initiatives aimed at decreasing out of wedlock 
births. Proposals to reauthorize the TANF program (the House passed 
H.R. 4 and the Senate Finance Committee bill, PRIDE) include 
significant funding for marriage promotion initiatives. Although there 
is no new TANF funding for economic support in either bill, they both 
authorize $100 million a year in specifically dedicated Federal TANF 
funding for a Marriage Promotion competitive grant program. States 
would be required to match the $100 million and would be allowed to use 
their basic Federal TANF allocation to do so, thus potentially 
diverting an additional $100 million of TANF funds from economic 
support to marriage promotion. Both bills also authorize an additional 
$100 million a year for new TANF demonstration project funding to ``be 
expended primarily'' on ``Healthy Marriage Promotion Activities.'' 
Finally, both bills create a fatherhood program funded at $20 million 
(in H.R. 4) a year ``to promote and support involved, committed, and 
responsible fatherhood, and to encourage and support healthy 
marriages.''
    Both bills also add new requirements that in order to participate 
in TANF, states must have a program to ``encourage the formation and 
maintenance of healthy 2-parent married families'' and must set 
``specific, numerical, and measurable performance objectives'' for 
promoting such families. This language suggests that in order to 
qualify for any TANF funding, states might have to set numerical goals 
for increasing the state marriage rate and reducing the state divorce 
rate.
    The Department of Health and Human Services (HHS) is already 
spending a great deal of money on marriage promotion--over $77 million 
in contracts and over $25 million in grants. Grant money has been taken 
from appropriations for the Child Support Enforcement Program ($2.4 
million),\2\from the Refugee Resettlement Program ($9 million),\3\ from 
Child Welfare Programs ($14 million),\4\ from the (Native American) 
Social And Economic Development Strategies Program (SEDS) ($40 
million),\5\ from the Assets For Independence Demonstration Program 
($16 million),\6\ and from the Developmental Disabilities Program ($3 
million).\7\
---------------------------------------------------------------------------
    \2\ See HHS 5/9/03 press release ``ACF Approves Child Support 
Demonstrations in Michigan and Idaho,'' available at http://
www.acf.dhhs.gov/acf_news.html); and HHS 7/4/03 press release ``ACF 
Approves Child Support Demonstration In Virginia,'' available at http:/
/www.acf.dhhs.gov/acf_news.html).
    \3\ 67 Fed. Reg. 45131-45136 (July 8, 2002); 68 Fed. Reg. 34617-
34726 (June 10, 2003); 68 Fed. Reg. 43142-47 (July 21, 2003).
    \4\ 68 Fed. Reg 34609-34614 (June 10, 2003).
    \5\ 67 Fed. Reg. 59736-59746 (Sept. 23, 2002); 69 Fed. Reg. 8266-
8288 (Feb. 23, 2004).
    \6\ http://www.acf.hhs.gov/programs/ocs/fy2003ocsfunding/
section2a.html
    \7\ 68 Fed. Reg. 41816-41828
---------------------------------------------------------------------------
    It is difficult to see why Congress should even consider hundreds 
of millions of dollars in new funding for marriage promotion before the 
results of the Administration's evaluation projects are in. It is 
surely putting the cart before the horse to start a major new social 
program when the program's potential effects are largely unknown and 
demonstration projects to identify and evaluate the effects are just 
getting off the ground. Last year, the Administration awarded contracts 
to several prominent national organizations to conduct large marriage 
promotion test projects with rigorous evaluation methodologies: 
Mathematica Policy Research, ($19 million over nine years for the 
Building Strong Families demonstration and random-assignment evaluation 
project; MDRC (and other secondary contractors) $38.5 million over nine 
years for the Supporting Healthy Marriages demonstration and random-
assignment evaluation project); and RTI International and the Urban 
Institute ($20.4 million over seven years for evaluation of community 
wide initiatives to promote healthy marriage).\8\ Until the results of 
these projects are known, Congress should not even consider marriage 
promotion funding.
---------------------------------------------------------------------------
    \8\ See October 3, 2003 ACF press release ``ACF Announces Four New 
Projects to Study Healthy Marriage,'' available at http://
www.acf.dhhs.gov/news/press/2003/release_101003.htm; Ooms, Bouchet, & 
Parke, ``Beyond Marriage Licenses: Efforts in States to Strengthen 
Marriage and Two-Parent Families. A State by State Snapshot'', Center 
for Law and Social Policy (April 2004).
---------------------------------------------------------------------------
    Even ignoring that the test results are not yet in, it is still 
difficult to see why Congress should consider additional marriage 
promotion funding when there seems to be no need for it. As detailed in 
the attached Legal Momentum memorandum on ``HHS Marriage Promotion 
Activities'', the Administration has already committed tens of millions 
of dollars in existing funding to marriage promotion, and takes the 
position that there is no limit on the funding that it can make 
available for marriage promotion under its child support demonstration 
project authority.
    HHS has also issued a ``Compendium'' of approaches for achieving 
``marriage promotion'' goals, which is a likely indicator of the 
recommendations it would make to states for spending marriage promotion 
funds were such spending to be required. This Compendium suggests that 
states consider completely unproven and coercive methods, such as 
paying a $2,000 cash bonus to poor couples who marry and reducing 
welfare payments to poor couples who choose not to marry. 
(``Strengthening Healthy Marriages: A Compendium of Approaches,'' U.S. 
Department of Health and Human Services (August 2002), available at 
http://www.acf.hhs.gov/programs/region2/index.htm.) The Compendium 
includes marriage promotion organizations that clearly should not 
receive large grants of tax dollars. Some of these organizations 
recommend reducing the divorce rate by restricting the right to 
divorce. Some teach that the husband should be the leader/breadwinner, 
and the wife the follower/homemaker. Several are for-profit commercial 
ventures which claim that they can help couples avoid divorce for a 
substantial fee. It is irresponsible for legislators to enact a program 
that threatens to divert government money intended to help the poor to 
fund the untested programs of such organizations.
    Even witnesses at the Senate Finance Committee hearings on marriage 
promotion who spoke in favor of marriage conceded that we don't yet 
know what works. Ron Haskins, Senior Fellow at the Brookings Institute 
stated that ``we know so little about marriage promotion programs, 
especially with poor and low-income families.'' Theodora Ooms of the 
Center on Law and Social Policy stated, ``Given the lack of research on 
marriage related interventions, policy makers should proceed cautiously 
. . .'' Even the Chairman of this Committee, Senator Charles Grassley 
of Iowa stated, ``Do marriage programs effectively reduce dependence 
and foster a family's well-being? We don't know. There is still a great 
deal of uncertainty around the effectiveness of marriage promotion 
programs.''
    With such a high degree of uncertainty around what works with 
respect to marriage promotion, with millions and millions of dollars 
already being spent on marriage promotion programs, why spend billions 
more of taxpayer dollars on these programs before the results are in on 
which may give direction to a whether such initiatives are successful 
and what types of programs work?
    State Initiatives: As noted above, since 1996, states have been 
free to use TANF dollars to support marriage and two-parent families, 
although most states have not done so. States have instituted programs 
that range from a simple waste of public dollars to outright 
discrimination against struggling single parent families. These 
examples demonstrate the risks in pushing states to do more to promote 
marriage. For example:

  <bullet> In Oklahoma, former Governor Frank Keating earmarked 10 
        percent of the state's TANF surplus funds to fund the $10 
        million Oklahoma Marriage initiative, which includes pre- and 
        post-marital counseling to Oklahoma families, a marriage 
        resource center, a marriage mentor program, and the creation of 
        a Marriage Scholars-in-Residence.\9\ The initiative also 
        contains a specific ``religious track'' under which the state's 
        religious leaders sign a marriage covenant, thereby committing 
        themselves to encourage pre-marital counseling for couples in 
        their house of worship. A few months after Keating made his 
        proposal, the state hired a pair of ``marriage ambassadors'' 
        with a $250,000 a year salary to give ``relationship rallies'' 
        on school campuses as well as meeting with ministers and set up 
        a research project. Last September the state spent $16,000 
        flying in pro-marriage speakers from around the country for a 
        two-day conference. It also developed a workshop called 
        Prevention and Relationship Enhancement Program (PREP) that is 
        offered in schools and community centers.\10\ Three years after 
        Oklahoma implemented its marriage promotion programs, the 
        state's divorce rate has remained unchanged.\11\
---------------------------------------------------------------------------
    \9\ Supra Note 156.
    \10\ Tyre, Peg. ``Oklahoma is fighting its sky-high divorce rate 
with controversial, state-funded ``marriage ambassadors.'' Newsweek, 
Feb. 18, 2002, U.S. Edition.
    \11\ Ross, Bobby Jr. ``Divorce rate stays steady, study shows'' The 
Daily Oklahoman (2/10/2002). Citing that for every 100 marriage 
licenses issued in 2001, the state granted 76 divorce petitions.

  <bullet> West Virginia's state TANF plan adds a $100 marriage 
        incentive to a family's benefits if there is a legal marriage 
        in a household where both individuals receive welfare 
        assistance payments. Since West Virginia's monthly TANF benefit 
        for a family of three is $328, this $100 per month bonus makes 
        a significant difference in economic support and gives children 
        in poor married families a significant economic advantage over 
        children whose poor single mothers have been unable or 
---------------------------------------------------------------------------
        unwilling to marry.

    Programs such as those described above divert funds from direct 
support of poor families or provision of services needed to support 
employment. Programs like that in West Virginia discriminate directly 
against poor single parent families. Endorsing or increasing funding 
for such programs is bad public policy.
II. Welfare Reform Reauthorization Should Not Focus on Marriage
    Welfare reform reauthorization should focus on ending poverty. In 
order to accomplish that goal, we must focus on the barriers to 
economic self-sufficiency rather than marriage by investing in 
education, training and work supports to help families and individuals 
get to a point where they can survive and prosper, whether married or 
not.
    A. The American Public Overwhelmingly Rejects Governmental 
Involvement in Personal Decisions to Marry. According to the PEW Forum 
on Religion & Public Life opinion poll, there is broad opposition to 
government programs aimed at encouraging marriage. Nearly eight in ten 
Americans (79 percent) want the government to stay out of this area, 
while just 18 percent endorse such pro-marriage programs. While those 
with a high level of religious commitment are more likely to favor 
these programs, fully two-thirds (66 percent) in that category do not 
want the government to get involved.\12\ In addition, Americans also 
strongly reject any proposal that would divert welfare resources for 
the poor into marriage promotion programs. A recent poll conducted on 
behalf of the National Campaign for Jobs and Income Support shows that 
a mere five percent of those surveyed select marriage promotion as the 
number-one welfare priority for Congress, while fully 62 percent cite 
work support for people moving from welfare to good jobs as the top 
priority.\13\ Similarly, a poll conducted for the Ms. Foundation found 
that less than three percent of Americans believe the principal goal of 
the welfare system should be to promote marriage and discourage out-of-
wedlock birth.\14\ By contrast, giving people the skills needed to 
achieve self-sufficiency received the most support. Most recently, a 
survey conducted for the Annie E. Casey Foundation also found that 
proposals to promote marriage through welfare programs do not meet with 
even superficial public support. A solid 64 percent of those surveyed 
reject proposals to provide financial bonuses to mothers on welfare who 
marry the father of their children, and over 70 percent believe pushing 
people to get married is the wrong priority for Congress.\15\
---------------------------------------------------------------------------
    \12\ The PEW Research Center for the People & the Press and the PEW 
Forum on Religion & Public Life, ``American Struggle with Religion's 
Role at Home and Abroad,'' News Release, March 20, 2002. at 3.
    \13\ Peter D. Hart Research Associates. ``TANF/Welfare Survey 
Findings.'' National Campaign for Jobs and Income Support Memo, April 
12, 2002, at 1.
    \14\ Ms. Foundation for Women. ``Americans Say Welfare Should 
Provide Self-Sufficiency Skills, Move People Out of Poverty--Not 
Promote Marriage.'' (February 6, 2002) at 1.
    \15\ Peter D. Hart Research Associates, Inc. ``Memorandum to 
Advocates for Low-Income Families.''
---------------------------------------------------------------------------
    B. Reauthorization Should Not Coerce Low-Income Women into Giving 
Up Their Fundamental Rights to Privacy. The Supreme Court has long 
recognized an individual's right to privacy regarding decisions to 
marry and reproduce as ``one of the basic civil rights of man, 
fundamental to our very existence and survival.'' \16\ Significantly, 
this constitutional right equally protects the choice not to marry.\17\ 
Reproductive privacy, initially honored as a right of marital 
privacy,\18\ has been firmly established as a protected right of the 
individual, irrespective of marital status.\19\ According to the 
Supreme Court, ``if the right of privacy means anything, it is the 
right of the individual, married or single, to be free from unwarranted 
governmental intrusion into matters so fundamentally affecting a person 
as the decision whether to bear or beget a child.\20\ Furthermore, the 
U.S. Supreme Court has specifically rejected the use of the welfare 
system to try to influence the marriage decisions of a child's parents. 
In National Welfare Rights Organization v. Cahill, 411 U.S. 619 (1973), 
a New Jersey welfare provision that limited benefits to families where 
there were two adults ``ceremonially married to each other'' was struck 
down as a violation of the Constitution's Equal Protection Clause. The 
Court held that penalizing children by restricting welfare benefits to 
them because of the marital decisions of their parents ``is illogical 
and unjust.''
---------------------------------------------------------------------------
    \16\ Skinner v. Oklahoma ex rel. Williamson, 316 U.S. 535, 541 
(1942).
    \17\ Loving v. Virginia, 388 U.S. 1, 12 (1967).
    \18\ Griswold v. Connecticut, 381 U.S. 479, 495 (1965).
    \19\ Eisenstadt v. Baird 405 U.S. 438, 453-54 (1972).
    \20\ Id. at 453.
---------------------------------------------------------------------------
    Government programs promoting marriage may invade this right to 
privacy and may encourage the kind of differential treatment of 
children in non-marital families that the Supreme Court condemned in 
NWRO v. Cahill. They certainly pose concerns regarding voluntariness 
and coercion. It is critical that if Congress insists on funding these 
programs with tax dollars, that they neither require nor encourage 
incentives for states to coerce low-income women into trading away 
their fundamental rights to marry or not to marry. As such, Federal 
mandates on states to set numerical goals are not appropriate. 
Obviously, voluntariness is key to a non-coercive program, and strong 
protections regarding non-coercion should be included, although it is 
hard to conceive of provisions that would genuinely protect 
voluntariness in a program that supplies a lifeline to desperate 
families in need of help in supporting their children. Along the same 
lines, states must not be permitted to discriminate based on marital 
status or family formation. To that end, TANF reauthorization should 
include language that prohibits states from treating equally needy 
families differently based on marital status or family formation. This 
will correct discriminatory policies and practices against married 
families, without swinging the pendulum to permit discrimination 
against single or cohabitating families.
    C. The Staggering Prevalence of Domestic Violence Among Women on 
Welfare Presents an Insurmountable Challenge to ``Healthy Marriage'' 
Promotion within TANF. When considering marriage promotion within the 
context of TANF, Congress must face the reality that violence is one of 
the main causes of women's poverty. Domestic violence makes women poor 
and keeps them poor. Violence is not an exception to the rule for poor 
women; it is an overwhelming reality. Study after study demonstrates 
that a large proportion of the welfare caseload (consistently between 
15 percent and 25 percent) consists of current victims of serious 
domestic violence.\21\ Between half and two thirds of the women on 
welfare have suffered domestic violence or abuse at some time in their 
adult lives.\22\ Moreover, by an overwhelming margin, these women's 
abusers are most often the fathers of their children.
---------------------------------------------------------------------------
    \21\ See Jody Raphael & Richard M. Tolman, Taylor Inst. and the 
Univ. of Mich. Research Dev. Ctr. on Poverty, Risk and Mental Health, 
Trapped by Poverty, Trapped by Abuse: New Evidence Documenting the 
Relationship Between Domestic Violence and Welfare, 12 (1997).
    \22\ See Mary Ann Allard, et al., McCormack Inst., In Harm's Way? 
Domestic Violence, AFDC Receipt and Welfare Reform in Mass., 12, 14 
(1997) (64.9 percent of 734 women); Ellen L. Bassuck, et al., The 
Characteristics and Needs of Sheltered Homeless and Low-Income Housed 
Mothers, 276 JAMA 640 at 12, 20 (1996) (61.0 percent of 220 women); 
William Curcio, Passaic County Study of AFDC Recipients in a Welfare-
to-Work Program: A Preliminary Analysis, 12, 14 (1997) (57.3 percent of 
846 women).
---------------------------------------------------------------------------
    For these women and their children, marriage is not the solution to 
economic insecurity. For them marriage could mean death or serious 
injury; it will almost undoubtedly mean economic dependence on an 
abuser. In the population as a whole, many battered women are 
economically dependent on their abusers; 33-46 percent of women 
surveyed in five studies said their partner prevented them from working 
entirely.\23\ Those who are permitted to work fare little better. 
Ninety-six percent reported that they had experienced problems at work 
due to domestic violence, with over 70 percent having been harassed at 
work, 50 percent having lost at least three days of work a month as a 
result of the abuse, and 25 percent having lost at least one job due to 
the domestic violence.\24\ Thus, battered women are overwhelmingly 
either economically dependent on the abuser or are economically 
unstable due to the abuse.
---------------------------------------------------------------------------
    \23\ See United States General Accounting Office, Report to 
Congressional Committees, Domestic Violence: Prevalence and 
Implications for Employment Among Welfare Recipients, 7 (1998).
    \24\ See Joan Zorza, Woman Battering: High Costs and the State of 
the Law, 25 Clearinghouse Rev. 421 (1991).
---------------------------------------------------------------------------
    Those who would promote marriage in every circumstance sometimes 
claim that marriage decreases domestic violence. This idea ignores many 
realities of domestic violence. Most importantly, married victims are 
less likely to report the abuse. In addition, separation and divorce 
frequently incite batterers to increase the frequency and level of 
violence.\25\
---------------------------------------------------------------------------
    \25\ See Einat Peled, Parenting by Men Who Abuse Women: Issues and 
Dilemmas, Brit. J. Soc. Work, Feb. 2000, at 28.
---------------------------------------------------------------------------
    The experience of Oklahoma, clearly the leader in spending public 
dollars for marriage promotion, is instructive. In a survey of Oklahoma 
families, referred to in testimony by the Director of Public Welfare in 
that state when testifying before Congress, it was discovered that 
almost half (44 percent) of the state's divorced women cited domestic 
violence as a reason for their divorce.\26\ More than half (57 percent) 
of Oklahoma's divorced welfare mothers, the prime target of government 
marriage promotion efforts, cited domestic violence as a reason for 
their divorce.\27\ Oklahoma is by no means unique. Around the country, 
in survey after survey, low income women report high double digit 
domestic violence rates.
---------------------------------------------------------------------------
    \26\ ``Marriage in Oklahoma, 2001 Baseline Survey on Marriage and 
Divorce,'' at 16, available at http://www.okmarriage.org/pdf/
survey_report.pdf
    \27\ Private communication to NOW Legal Defense & Education Fund 
from Oklahoma official; copy available upon request.
---------------------------------------------------------------------------
    Should the government encourage women to get married or stay 
married to men who abuse them? Certainly, proponents of government 
marriage promotion do not intend this. But common sense suggests that 
this will be the inevitable result of a government ``get married and do 
not divorce'' message, especially when success is measured by 
superficial statistics such as the divorce rate.
    Congress itself has repeatedly recognized that domestic violence is 
a serious national problem and has made efforts to minimize the severe 
risk to women and children from that violence, most recently by 
reauthorizing the Violence Against Women Act in 2000. But marriage 
promotion for TANF recipients ignores the reality of domestic violence. 
It ignores its pervasiveness: assertions that proponents intend to 
promote only ``healthy marriages'' lose credibility in the face of the 
reality that as many as two-thirds of TANF recipients report incidents 
of domestic violence. Surveys of low-income women in several cities 
show that two of the four main reasons for not marrying are fear of 
domestic violence and fear of a power imbalance.\28\ Requiring marriage 
promotion programs to consult with domestic and sexual violence experts 
and child advocates on the development and implementation of policies, 
procedures, and training necessary to appropriately address domestic 
and sexual violence and child abuse issues, as specified in PRIDE, will 
provide some security. But even these safeguards will not make marriage 
promotion within TANF safe. Furthermore, the House passed version of 
H.R. 4 lacks even the most rudimentary protections for domestic 
violence victims; domestic violence is not mentioned in the legislation 
and, therefore, use of marriage promotion dollars to keep women in 
abusive marriages or to help persuade them to marry their abuser is a 
very real threat. Finally, our review of current grant applications to 
HHS for marriage promotion funds indicates that very few programs 
include any consideration of domestic violence issues in their 
applications.
---------------------------------------------------------------------------
    \28\ Kathyrn Edin, Joint Center for Poverty Research Working 
Papers, What Do Low-Income Single Mothers Say About Marriage?, Aug. 9, 
2001, available at http://www.jcpr.org/wpfiles/edin_WP_ediforweb1-
31.pdf.
---------------------------------------------------------------------------
    Those who say that marriage promotion will only be done in 
relationships where there is no violence are clueless about the dynamic 
of domestic violence and the very clear truth that most women who are 
victims of violence are ashamed and afraid and extremely unlikely to 
offer the reveal the violence in their lives to others. Many victims 
fear the potential consequences of acknowledging the abuse: the stigma 
of being a domestic violence victim; the very real possibility of 
losing their children to child welfare agencies; the possibility that 
disclosure of violence will escalate the abuse. Marriage promotion 
programs, no matter how ``sensitive'' to domestic violence on paper, 
cannot change the fact that those promoting marriage will probably not 
know about violence in the relationship they are trying to make legally 
permanent. Thus, programs that push poor women into marriage with the 
fathers of their children may inadvertently legitimize abusive 
situations; similarly, programs that discourage divorce may increase 
the already deep shame and social pressure to remain with the abuser 
that women who are married and are being abused often feel. A 
governmental message to poor women who are violence victims that there 
is something wrong with being unmarried will make it even more 
difficult for women who are trying to leave an abusive relationship to 
do so. The complexity of domestic violence and the danger to women who 
stay in or formalize abusive relationships make any government-
sponsored marriage promotion program extremely problematic.
    TANF currently includes a Family Violence Option (FVO) allowing 
states to confidentially screen for domestic violence, refer to 
services, and modify or waive program requirements that would be unsafe 
or unfair to victims of domestic violence. Although nearly all states 
have adopted some version of the FVO, not all states have done so. With 
such an overwhelming correlation between violence and poverty, it is 
both troubling and illogical that Congress would consider mandating 
marriage promotion and providing significant financial incentives for 
states to fund marriage promotion while not requiring states to address 
domestic violence through the FVO. At a minimum, Congress should 
require all states to screen for domestic violence and refer 
individuals to services and should invest TANF dollars in case worker 
training, a study of best practices with respect to addressing domestic 
violence in TANF, and dissemination of those best practices to all 
states to help them address this very real barrier to economic 
security.
    D. Marriage Does Not Address the Root Causes of Women's Poverty and 
Is Not a Reliable Long-Term Solution to Women's Poverty. Common sense 
tells us that two incomes are better than one and thus more likely to 
move people off of welfare. But a closer look at the facts shows that 
marriage is not the simple solution to poverty that it is made out to 
be.
    First, forming a two-parent family does not guarantee economic 
security. Forty percent of all families living in poverty are two-
parent families. Thus, two-parent families are not immune to poverty or 
the economic stresses single parent families face.
    Second, due to death and divorce, marriage does not ensure women's 
economic security. Approximately 40 percent of marriages end in divorce 
\29\ and 12 percent end due to the husband's death.\30\ Among women 
currently on welfare, about 40 percent are married or were married at 
one time: 18.4 percent are married; 12.3 percent are separated; 8.3 
percent are divorced; and about 1 percent are widows. A significant 
number of divorces and separations are due to domestic violence. In 
these cases it is futile to claim that marriage would provide security, 
economic or otherwise. Indeed, there is no simple causal relationship 
between single motherhood and poverty.
---------------------------------------------------------------------------
    \29\ The National Marriage Project, Annual Report: the State of Our 
Unions: the Social Health of Marriage in America, 2000 (June 2000), 
available at http://marriage.rutgers.edu/NMPAR2000.pdf.
    \30\ United States Census Bureau, Current Population Reports, 
Series No. P20-514, Marriage Status and Living Arrangements: March 1998 
(Update) (2000), available at http://www.census.gov/prod/99pubs/p20-
514u.pdf.
---------------------------------------------------------------------------
    The reasons that women, more than men, experience an economic 
downfall outside of marriage include: primary care giving 
responsibility for children which--without attendant employment 
protections and due to lack of quality, affordable, accessible child 
care--makes unemployment or underemployment inevitable; discrimination 
in the labor market; and domestic violence. Without addressing the 
factors that keep women from being economically self-sufficient, 
marriage and family formation advocates are merely proposing to shift 
women's ``dependence'' from the welfare system to marriage. That 
certainly does not promote individual responsibility, nor is it a 
policy solution for genuine, reliable, economic security.
    On the other hand, a policy that invests in education, training and 
work supports empowers women to achieve true economic security. In 
2000, only 1.2 percent of single mothers with a college degree who 
worked full-time year round lived in poverty. Less than eight percent 
of single mothers with some college working full-time lived in 
poverty.\31\ This is by far the best poverty reduction statistic; a 
clear indication of what strategy will work best in lifting families 
out of poverty.
---------------------------------------------------------------------------
    \31\ Neil G. Bennett, et. al., National Center for Children in 
Poverty, Young Children in Poverty: A Statistical Update, June 17, 
1999, available at http://cpmcnet.columbia.edu/dept/nccp/99uptext.html.
---------------------------------------------------------------------------
    In fact, the approach to marriage advocated by H.R. 4 and PRIDE has 
it backwards. Economic security is more likely to lead to successful 
marriage than is marriage likely to lead to economic security. The 
outcomes of the Minnesota Family Investment Program (MFIP) support this 
conclusion. MFIP reached welfare-eligible single and two-parent 
families and focused on participation in employment services for long-
term welfare recipients combined with financial incentives to encourage 
and support work. These work supports include child care, medical care, 
and rewarding work by helping the family to develop enough earning 
power to survive financially without cash assistance before cutting off 
their benefits. A study comparing the economic progress of those in the 
standard AFDC welfare program with MFIP participants found that only 14 
percent of AFDC recipients compared with 25 percent of families in the 
MFIP program were out of poverty within 2\1/4\ years and the MFIP 
families had on average $1,400 more in annual income. After 36 months 
MFIP participants were 40 percent more likely to be married than 
participants in the standard AFDC program, and nearly 50 percent less 
likely to be divorced after five years. The MFIP program shows that 
allowing families to combine welfare and work, and providing work 
supports to help individuals become economically secure, are approaches 
that will strengthen marriage and reduce divorce.\32\
---------------------------------------------------------------------------
    \32\ Manpower Demonstration Research Corp. (MDRC), chap. 6, 
available at http://www.mdrc.org/Reports2000/MFIP/MFIP-Vol-1-Adult.pdf.
---------------------------------------------------------------------------
    Investments in education, training and work supports can both 
empower women to achieve economic security (thereby economically 
empowering couples as well) and strengthen marriages. If Congress takes 
this approach it can enable individuals to achieve their own goals, 
without invading their privacy or endangering their families.
Conclusion
    The solution to poverty is not to interfere with basic privacy 
rights of poor women but rather to focus on economic self-sufficiency. 
Decisions regarding marriage and childbearing are among the most 
private decisions an individual can make. Congress must not use women's 
economic vulnerability as an excuse for attempting to control their 
decisions regarding marriage and childbearing. Fighting poverty and 
promoting family well-being will depend on positive governmental 
support for proven policies that support low income parents in their 
struggle to obtain and retain good jobs, while at the same time 
providing the best possible care for their children. That in turn is 
the best way to insure healthy and stable families.
                                 ______
                                 
  Prepared Statement of Timothy J. Casey, Senior Staff Attorney; and 
             Lisalyn Jacobs, Vice President, Legal Momentum
Recent Marriage Promotion Studies
    The Bush Administration and its allies are touting two new marriage 
promotion studies as proof that domestic violence is not a concern and 
that marriage promotion works. These claims are false.
    The Administration's initiative would add marriage promotion to the 
Temporary Assistance to Needy Families (TANF) program. Study after 
study demonstrates that a large proportion of the welfare caseload 
(between 15 percent and 20 percent) are current or recent victims of 
serious domestic violence,\1\ and that between half to two thirds of 
the women on welfare have suffered domestic violence or abuse at some 
time in their adult lives.\2\
---------------------------------------------------------------------------
    \1\ See Jody Raphael & Richard M. Tolman, Taylor Inst. and the 
Univ. of Mich. Research Dev. Ctr. on Poverty, Risk and Mental Health, 
``Trapped by Poverty, Trapped by Abuse: New Evidence Documenting the 
Relationship Between Domestic Violence and Welfare,'' 12 (1997).
    \2\ See Mary Ann Allard et al., McCormack Inst., ``In Harms Way? 
Domestic Violence, AFDC Receipt and Welfare Reform in Mass.,'' 12, 14 
(1997) (64.9 percent of 734 women); Ellen L Bassuck et al., '' The 
Characteristics and Needs of Sheltered Homeless and Low-Income Housed 
Mothers,'' 276 JAMA 640 at 12, 20 (1996) (61.0 percent of 220 women); 
William Curcio, ``Passaic County Study of AFDC Recipients in a Welfare-
to-Work Program: A Preliminary Analysis,'' 12, 14 (1997) (57.3 percent 
of 846 women).
---------------------------------------------------------------------------
    A new Heritage Foundation study concedes these high domestic 
violence rates but argues that they are irrelevant because the marriage 
promotion initiative won't target welfare recipients but rather will 
target so-called ``fragile families''--unmarried parents of newborns--
for whom, Heritage asserts, domestic violence rates are much lower than 
for welfare recipients.\3\ But there is absolutely nothing in the 
Administration's proposal that restricts or targets the proposed 
funding to fragile families, the Administration itself has never made 
such a claim, and the Administration has funded many marriage promotion 
programs that target welfare recipients as a group.
---------------------------------------------------------------------------
    \3\ Melissa G. Pardue and Robert Rector, ``Reducing Domestic 
Violence: How the Healthy Marriage Initative Can Help,'' Heritage 
Foundation Backgrounder No. 1744 (March 30, 2004), http://
www.heritage.org/Research/Family/loader.cfm?url=/commonspot/security/
getfile.cfm&
PageID=60606
---------------------------------------------------------------------------
    Heritage also claims that marriage promotion programs have been 
shown to reduce domestic violence, a claim that the Administration 
itself does not make. Heritage does not cite a single study to support 
its claim, offering as the sole evidence a statement from an Oklahoma 
official that not a single instance of domestic abuse ``linked'' to the 
Oklahoma Marriage Initiative has been reported.
    Even assuming this statement to be true, this proves absolutely 
nothing about whether even the Oklahoma program has reduced domestic 
violence--and, as former Oklahoma Governor Frank Keating recently 
explained to the Senate, that program makes unusual efforts to address 
domestic violence, by working closely with the Oklahoma domestic 
violence coalition, training all providers of marriage promotion 
services on domestic violence issues, and providing information about 
domestic violence services to all program participants.\4\ Much less is 
there any evidence about the effects on domestic violence of other 
programs in other places which lack the protections that are in the 
Oklahoma program. What is more, the Administration has not proposed to 
require these protections in its marriage initiative, and is currently 
funding many marriage promotion projects without requiring that they 
include domestic violence protections.
---------------------------------------------------------------------------
    \4\ http://health.senate.gov/testimony/86_tes.html
---------------------------------------------------------------------------
    Heritage also argues that marriage protects women from domestic 
violence because unmarried mothers report a higher rate of domestic 
violence than married mothers. But it is much more plausible to suppose 
that domestic violence discourages single mothers from marrying their 
abusers than to suppose, as Heritage appears to do, that an abuser will 
cease his abuse if the woman he is abusing marries him. Further, it is 
simply indisputable that many married women are victims of domestic 
violence, as domestic violence is one of the main reasons that roughly 
half of all marriages end in divorce. The Oklahoma marriage program 
that Heritage cites recently conducted a study which found that 
domestic violence was given as a reason for their divorce by 44 percent 
of the state's divorced women and by 57 percent of the divorced women 
who had been welfare recipients.\5\
---------------------------------------------------------------------------
    \5\ Communication from Oklahoma official, copy available upon 
request.
---------------------------------------------------------------------------
    Concerning divorce, the Administration is hailing another new study 
as proof that marriage promotion programs reduce divorce. According to 
Dr. Wade Horn, Assistant Secretary for ACF, who appeared at an April 5 
press conference touting the study, the study refutes critics who have 
said that there is no proof that marriage promotion reduces divorce.\6\ 
This dubious study proves nothing.
---------------------------------------------------------------------------
    \6\ http://marriagesavers.org/Press%20Release.htm
---------------------------------------------------------------------------
    The new study evaluates the impact of the Community Marriage Policy 
(CMP) program that is operated by an organization called Marriage 
Savers, http://marriagesavers.org/.\7\ The study was conducted by the 
Institute for Research and Evaluation of Salt Lake City, whose 
director, Dr. Stan Weed, was one of the study's authors. The Institute 
has no website, and its capacity for performing evaluative research is 
unknown.
---------------------------------------------------------------------------
    \7\ Stan Weed et al., ``Assessing the Impact of Community Marriage 
Policies on U.S. County Divorce Rate,'' executive summary available at 
http://marriagesavers.org/Executive%20Sum
mary.htm
---------------------------------------------------------------------------
    The CMP program lobbies clergy to sign pledges that they will not 
marry any couple unless the couple first takes ``rigorous marriage 
preparation of at least four months during which couples take a 
premarital inventory and talk through relational issues it surfaces 
with trained mentor couples, who also teach couple communication 
skills.'' The CMP study compared 122 counties in which Marriage Savers 
reports that some clergy have signed such pledges with 122 other 
counties selected by the study's authors. The executive summary reports 
that ``counties with a Community Marriage Policy had an 8.6 percent 
(average) decline in their divorce rates over four years, while the 
comparison counties registered a 5.6 percent (average) decline.'' Based 
on this finding, the evaluators assert that ``[t]he simple explanation 
of the results is that Community Marriage Policies are successful and 
lead to reductions in divorce rates.''
    Only the study's executive summary has been released and the 
summary contains less than even barebones details. (For example, only 
one of the counties with a CMP program is identified.) Dr. Weed refused 
our request for a copy of the full study.
    Dr. Weed appears to have thin research credentials. We were unable 
to locate any other evaluation studies conducted by Dr. Weed or his 
Institute.
    Moreover, Dr. Weed appears to be a partisan of the CMP program, not 
a neutral evaluator. The Salt Lake Tribune reported on January 12 that 
he and the Marriage Savers director had met with leaders of the Mormon 
Church to urge that the church adopt the CMP program.\8\ Dr. Weed's 
Institute also reported on its 2002 tax return that it had received 
$46,737 from Marriage Savers, raising serious questions about his 
objectivity in evaluating the Marriage Savers CMP program.\9\
---------------------------------------------------------------------------
    \8\ ``Could `Marriage Policy' Cut Utah's Divorce Rate'', The Salt 
Lake Tribune (Jan. 12, 2004), link to article available at http://
nl.newsbank.com/nl-search/we/Archives
    \9\ Tax return available at http://www.guidestar.org/index.jsp
---------------------------------------------------------------------------
    Dr. Weed's expertise and objectivity are especially crucial 
questions given that the study methodology was so highly subjective. 
The finding of positive results for CMP rests entirely on a comparison 
of the CMP counties with counties without CMP selected by the 
evaluators. A different set of selections might well have yielded 
contrary results.
    Dr. Horn's endorsement of the CMP study as proof that marriage 
promotion works shows that the Administration still embraces the 
simplistic and dangerous message that marriage is good and divorce is 
bad, a message which is contrary to the Administration's repeated claim 
that it intends to promote not marriage per se but only ``healthy 
marriage.'' If healthy marriage is the goal, a marriage promotion 
program's success must be measured by whether it increases healthy 
marriage, not marriage per se. But even taken at face value, the CMP 
study offers no evidence that the CMP program increases healthy 
marriage. The study focused exclusively on divorce rates. There was no 
effort to measure the prevalence of domestic violence or the quality of 
the marriages in CMP communities, or to assess how the CMP program 
affected domestic violence.
    There are also separation of church and state concerns. These arise 
from the possibility, apparently envisioned by Dr. Horn when he 
appeared at the April 5 press conference promoting the CMP study, that 
CMP is one type of program the Administration would like to fund 
through the marriage promotion allocations it has requested from 
Congress. In fact, Dr. Horn has already provided Federal funding to an 
Idaho marriage promotion program seeking to model the CMP approach. The 
separation of church and state issue is this: the CMP program relies on 
obtaining commitments from churches not to marry couples unless and 
until the couples have completed a four month long premarital marriage 
education program. It is entirely appropriate for churches to adopt 
such a policy if they so choose, and for Smart Marriages or similar 
organizations to use their own private funds to encourage churches to 
make this commitment. But a central premise of the separation of church 
and state that is embodied in our Constitution's First Amendment is 
that government must avoid entangling itself in religion. Using public 
funds in an attempt to influence churches as to the conduct of their 
internal affairs violates the values underlying this fundamental First 
Amendment principle.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
